Supp. App. 1
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
)
)
Gerald G. STIEBEL, and
)
)
Jed R. LEIBER,
1155 N. La Cienega Boulevard )
West Hollywood, CA 90069, )
)
Plaintiffs,
)
v.
)
)
FEDERAL REPUBLIC OF
)
GERMANY, a foreign state,
)
and
)
STIFTUNG PREUSSISCHER )
)
KULTURBESITZ,
)
Defendants.
)
Alan PHILIPP,

Case No.
15-cv-00266

FIRST AMENDED COMPLAINT
(Filed Jan. 14, 2016)
This is a civil action by plaintiffs Alan Philipp
(“Philipp”), Gerald G. Stiebel (“Stiebel”), and Jed R. Leiber
(“Leiber,” together with Philipp and Stiebel, the “plaintiffs”), for the restitution of a collection of medieval relics known as the “Welfenschatz” or the “Guelph Treasure”
now wrongfully in the possession of the defendant
Stiftung Preussischer Kulturbesitz, a/k/a the Prussian
Cultural Heritage Foundation (the “SPK”). The SPK is
an instrumentality of the defendant Federal Republic

Supp. App. 2
of Germany (“Germany,” together with the SPK, the
“defendants”).
INTRODUCTORY STATEMENT
1. This is an action to recover the Welfenschatz,
a unique collection of medieval relics and devotional
art that was sold by victims of persecution of the Nazi
regime under duress, and far below actual market
value. Those owners were a consortium of three art
dealer firms in Frankfurt: J.&S. Goldschmidt, I. Rosenbaum, and Z.M. Hackenbroch (together, the “Consortium”). Zacharias Max Hackenbroch (“Hackenbroch”),
Isaak Rosenbaum (“Rosenbaum”), Saemy Rosenberg
(“Rosenberg”), and Julius Falk and Arthur Goldschmidt
(“Goldschmidt”) were the owners of those firms, together with plaintiffs’ ancestors and/or predecessorsin-interest in this action.
2. This sale to the Nazi-controlled State of Prussia on June 14, 1935, via a manipulated sham transaction, was spearheaded by the Dresdner Bank, which
was acting on behalf and by order of the two most notorious Nazi-leaders and war criminals, Hermann
Goering (“Goering”) and the German dictator, the
“Führer” Adolf Hitler (“Hitler”), themselves. The transaction relied on the atmosphere of early Nazi terror, in
which German Jews could never be arms’-length commercial actors.
3. This is also an action to address a second victimization suffered by the Plaintiffs. Germany advances the pretense that it has enacted procedures to

Supp. App. 3
address Nazi-looted art, but the reality is quite different. The sham process to which the Plaintiffs were subjected in 2014 provides additional justification for this
action.
4. The coerced sale of the Welfenschatz resulted
in payment of barely 35% of its market value to the
Consortium—or even as little as 15%, according to German state museum professionals contemporaneous to
the exchange. That money was never fully at the Consortium’s disposal even after payment (and consisted
partly of other artworks that were worth nothing like
their promised value). The proceeds, such as they
were, were then also subjected to confiscatory “flight
taxes”—the extortionate payments that Jews had to
pay for the privilege of escaping with their lives.
5. Most critically with respect to the illegitimacy
of the 1935 sale, they were Jewish and regarded by the
National Socialists as traitors and enemies of the Germanic state, in line with the corrupt ideology of Hitler’s
racist and inhuman manifesto Mein Kampf. These
Jewish art dealers were viewed as parasites selling off
cultural items at the heart of the Nazi identic for selfgain and for damaging and harming the German identity.
6. Iconic Germanic art was at the core of the Nazi
worldview, and the Welfenschatz was the kind of art in
general, and the specific artworks in particular, that
the Nazis desperately wanted, and for which they would
stop at nothing. The Consortium’s Jewish heritage

Supp. App. 4
placed it within the Nazis’ grasp after the party’s ascension to power in Germany.
7. The foregoing, without more, is sufficient under longstanding principles of international law to establish that the 1935 transaction was illegitimate. Any
sale of property in Nazi Germany by Jewish owners—
let alone to the Nazi-run state itself—was presumptively under duress, illegitimate, and void. Were Germany to claim otherwise, it would be explicitly
endorsing—in 2015—the plunder of Goering (part of
whose collection, it should be said, decorated the rooms
of the German chancellor’s office, the “Bundeskanzleramt,”
as recently as 2014 until a journalist called attention
to it).
8. There is, however, considerably more. Specifically, after the Nazi seizure of power in 1933 and the
spasmodic violence and intimidation towards Jews, the
boycotting of Jewish business, and the eventual elimination of Jews from all aspects of civic life, high ranking Nazis targeted the Welfenschatz, specifically, by
virtue of the vulnerability of its Jewish owners, who
were publicly accused of selling national treasures and
who became public enemies as a result. The choice they
faced was clear: their property or their lives.
9. Infamous criminals Hitler, Goering, Bernhard
Rust (“Rust”), and Hjalmar Schacht (“Schacht”) among
them, were all involved in explicit correspondence
whose intent was to “save the Welfenschatz” for the
German Reich from these declared enemies of the
state.

Supp. App. 5
10. After the Nazi-takeover of power in Germany, and as a direct and proximate result of the historic persecution that was the official policy of the
State of Prussia and the German Reich, the members
of the Consortium faced catastrophic economic hardship. Starting from day one, the Nazi-regime was engaged in spreading fear, panic, and violence in these
early days of terror as part of the ongoing so-called
“National Socialist revolution” in Germany. Both the
early unlawful laws of the new Germany, the antiSemitic riots, the nationwide boycotts of Jewish businesses, and the growing permanent, pseudo-legal
monitoring of Jews by the “Nazified” administrative
bodies, first and foremost by the German tax authorities, directly affected these art dealers’ lives and businesses. Means of systematic disenfranchisement,
discrimination, and terror, fomented by the Third
Reich’s officials, caused also the three art dealers’ sale
revenues to fall virtually to zero within the shortest
period of time and made it impossible thereafter for
any of them to earn a living in Germany. On information and belief, the Consortium were targeted by
the Geheime Staatspolizei (Gestapo) and subjected to
direct personal threats of violence for being Jews and
for trying to sell the Welfenschatz fairly.
11. The Nazis’ crowning touch was to intercede
just when a willing fair market buyer for the Welfenschatz appeared, to dictate that any further arms’length negotiations cease, through which the Consortium could have realized the value of its property.

Supp. App. 6
12. With the market duly fixed, and their own
situation having descended into ahistorical levels of
persecution, humiliation, and risk, the Consortium relented in 1935. From the Consortium’s perspective, the
“deal”—for 4.25 million RM (barely 35% of its actual
value) split and partly paid only into a blocked account—was a predicament and without any alternative.
13. Soon after Goering, by then hailed as the
“savior of the Welfenschatz,” had forcefully and punitively “rescued” the collection from the Jews, as highlighted in his biography of 1940, he presented the
Welfenschatz as a personal “surprise gift” to Hitler
himself at a ceremony in November 1935.
14. In 2014, the Plaintiffs, as heirs to the Consortium, suffered a parallel victimization. Despite Germany’s international commitments to “fair and just”
solutions with respect to Nazi-looted art, it has enacted
no meaningful procedures or laws to address victims of
art looted and sales under duress. Worse, it has only
appointed an “Advisory Commission” that issues only
non-binding recommendations, which are not adjudications of any property rights.
15. That Advisory Commission, since being established in 2003 as a governmental entity, has shown
a disturbing tendency to ignore longstanding principles of international law—chief among them the
unassailable principle that a sale by owners like the
Consortium in Nazi Germany was by definition coercive and void. Instead, in successive decisions the

Supp. App. 7
Advisory Commission has sought to revise history with
respect to the treatment of Jews in Germany in 1935,
disqualifying any notion that Germany makes “fair
and just solutions” available to victims and their heirs.
16. These failures leave the Plaintiffs no choice
but to seek the present relief.
PARTIES
17. Philipp is an individual, citizen of the United
Kingdom, and a resident of London, England, UK. He
is the grandson and sole legal successor to the estate
of the late Zacharias Max Hackenbroch, who was the
sole owner of the former Hackenbroch art dealers.
18. Stiebel is an individual and a United States
citizen who resides in Santa Fe, New Mexico. He is the
great-nephew of the late Isaak Rosenbaum, who was
co-owner of I. Rosenbaum art dealers with Saemy Rosenberg, and legal successor to Rosenbaum’s estate. He
brings these claims on behalf of himself and the heirs
of Isaak Rosenbaum.
19. Leiber is an individual and a United States
citizen who resides in West Hollywood, California. He
is the grandson of Saemy Rosenberg, and the sole legal
heir to Saemy Rosenberg’s rights in the Welfenschatz
and related events. He is also a great-nephew of Isaak
Rosenbaum, and partly a successor to Rosenbaum’s estate.
20. Phillip, Stiebel, and Leiber are together the
assignees of the claims of Julius Falk Goldschmidt by

Supp. App. 8
written instrument and the authorized agents in fact
for the heirs of Arthur Goldschmidt, who together were
the sole owners of the J.&S. Goldschmidt firm. Phillip,
Stiebel, and Leiber bring this case together under that
authority, whether by independent legal assignment as
referenced further below or by agreement between the
parties and their counsel.
21. Germany, a/k/a the Bundesrepublik Deutschland, is a sovereign nation comprised of the 16 federal
states (“Länder”). Germany is the political—and under
international law, the legal—successor to the German
Reich a/k/a the Third Reich a/k/a Nazi Germany. Germany was established as West Germany in 1949 from
the 11 Länder, in the Western-occupied areas of the
Third Reich (including West Berlin), and absorbed the
remaining 5 Länder as part of reunification in 1990.
22. The SPK is the successor-in-interest to the
Free State of Prussia (the “Freistaat Preussen”), a political subdivision of the German Weimar Republic and
later the Third Reich—with respect to all interests in
cultural property and fine art. The SPK is a foundation
under German law, erected by the German parliament
in 1957, and an instrumentality of Germany. The SPK
operates by and through its President Professor Dr.
Hermann Parzinger. The SPK’s board consists of representatives from the German Federal government,
and from its political subdivisions, the 16 Länder.

Supp. App. 9
JURISDICTION AND VENUE
23. This Court has subject matter jurisdiction
over all defendants pursuant to 28 U.S.C. § 1330 and
28 U.S.C. §§ 1605-07 (the Foreign Sovereign Immunities Act). Process was served on all defendants pursuant to 28 U.S.C. § 1608.
24. The defendants are not immune from suit,
under either the so-called “expropriation exception” of
28 U.S.C. § 1605(a)(3), or the so-called “commercial activity exception of 28 U.S.C. § 1605(a)(2), all as alleged
in further detail herein.
25. This action concerns rights in property taken
by the State of Prussia and/or the German Reich,
and/or Goering, in his capacity as Prime Minister of
the State of Prussia in 1935, in violation of international law, within the meaning of 28 U.S.C. § 1605(a)(3).
That taking included, inter alia and without limitation
the following:
i.

The Welfenschatz was acquired by the
Nazi State of Prussia to present it as a
personal gift to Hitler. It served no public
purpose, but was made for personal gain
of the Nazi leaders and their reputation.

ii.

In addition, their takings were discriminatory since the art dealers were Jewish
and therefore belonged to a persecuted
group, and the collection was wrongfully
appropriated not least because they were
regarded as state’s enemies for holding
the iconic Welfenschatz.

Supp. App. 10
iii.

Further, the German Government has
not yet returned the collection to the
plaintiffs or justly compensated them for
the value of the collection. Without compensation, this taking cannot be valid.

iv.

Dresdner Bank and the Nazi-State of
Prussia gained possession of the Welfenschatz in a joint effort by setting up a
scheme of manipulation, coercion, and
terror. In violation of international law,
they took the collection from plaintiffs’
predecessors-in-interest in order to “Aryanize,” to “rescue,” and to get hold of the
collection for völkisch reasons in accordance with the National Socialists’ policy,
which in its entirety was condemned as
inhuman and void by the Allies and the
United States Government after 1945.

v.

Dr. Robert Schmidt, former director of the
Berlin Schlossmuseum and a key actor in
the matter at hand, intentionally misled
the Allied Forces and the United States
Military government for Germany and
Bavaria in the postwar-era about the true
nature of the acquisition of the collection
in order to protect himself and in order to
prevent restitution of the collection to the
art dealers, based on and granted by Allied Military law. The current German
Government, when it learned of the art
dealers’ heirs’ rights to the collection of
the Welfenschatz, adopted Schmidt’s coverup and deceived the heirs as to the circumstances of its acquisition of the collection.

Supp. App. 11
vi.

The defendants, Germany and the SPK,
wrongfully assert ownership over the collection in furtherance of the taking in violation of international law.

vii.

Germany, in its capacity as the politicallegal successor of the Nazi Third Reich, is
not immune from suit for its complicity in
and perpetuation of the discriminatory
appropriation of the Welfenschatz collection. Among other things, violations of
Germany’s obligations under the 1907
Hague Convention on the Laws and Customs of War on Land, and Germany’s official repudiation after 1949 of all Nazi
transactions bar any defense that this
transaction was legitimate and not coercive.

viii.

The policy of the United States of America since at least 1945 has been to undo
the forced transfers and restitute identifiable property to the victims of Nazi persecution wrongfully deprived of such
property and, with respect to claims asserted in the United States for restitution of such property, to relieve American
courts from any restraint upon the exercise of their jurisdiction to pass upon the
validity of the acts of the Nazi officials.
See Press Release No. 296, “Jurisdiction
of United States Courts Re Suits for Identifiable Property Involved in Nazi Forced
Transfers,” reprinted in Bernstein v. N.V.
Nederlandsche-Amerikaansche, 210 F2d
375, 375-76 (2d Cir. 1954).

Supp. App. 12
26. Germany and the SPK are engaged in commercial activity within the United States, within the
meaning of 28 U.S.C. § 1605(a)(3), including but not
limited to the following:
i.

The SPK engages in regular exhibitions
within the United States by loaning objects to museums in the United States
from the collections of the museums administered by the SPK. By way of example but without limitation, the SPK loaned
objects to an exhibition entitled “Byzantium and Islam Age of Transition” at the
Metropolitan Museum of Art in New York
in 2012. The SPK also licensed photographs of its collection for inclusion in the
catalogues of those exhibitions, which are
sold and marketed throughout the United
States (including in the District of Columbia) by retail and Internet sales.

ii.

The SPK licenses images of its collection
to the general public throughout the
United States (including the District of
Columbia) on an ongoing basis, including
but not limited to licensing relationships
with Art Resource in New York, and the
United States National Holocaust Memorial Museum in the District of Columbia.

iii.

The SPK solicits subscriptions to its
newsletters, solicitations that reach the
District of Columbia, among other parts
of the United States. SPK-administered
museums seek to and sell entrance tickets to the Berlin museums to patrons in

Supp. App. 13
the United States, including but not limited to patrons in the District of Columbia.
iv.

The Museum of Decorative Arts (“Kunstgewerbemuseum”) in Berlin, administered by the SPK and the current location
of the Welfenschatz, publishes and sells a
book entitled Kunstgewerbemuseum Berlin within the United States of the highlights of its collection, including but not
limited to within the District of Columbia. The Welfenschatz features prominently in this catalogue, in particular the
famous Kuppelreliquiar (the “Chapel Reliquary”)—which is depicted on the very
cover of the book.

v.

The Kunstgewerbemuseum in Berlin, administered by the SPK and the location
of the bulk of the Welfenschatz, publishes
and sells a book entitled Katalog des
Kunstgewerbemuseums (Catalogue of the
Kunstgewerbemuseum) within the United
States, including but not limited to within
the District of Columbia. The Welfenschatz features prominently in this catalogue, and is referred to as such for any
object that is part of the Welfenschatz.

vi.

The Kunstgewerbemuseum in Berlin, administered by the SPK and the location of
the bulk of the Welfenschatz, publishes and
sells a book entitled Schätze des Glaubens:
Meisterwerke aus dem Dom-Museum Hildesheim und dem Kunstgewerbemuseum

Supp. App. 14
Berlin (Treasures of Belief: Masterworks
from the Hildesheim Cathedral Museum
and the Kunstgewerbemuseum Berlin),
within the United States, including but
not limited to within the District of Columbia. The Welfenschatz features prominently in this catalogue as well.
vii.

The SPK has announced plans to publish
in 2015 and has arranged for presales of
a book entitled The Neues Museum: Architecture, Collections, History within the
United States, including but not limited
[to] the District of Columbia.

viii.

On information and belief, the Bodemuseum in Berlin, administered by the SPK,
has a staff exchange program with the
Metropolitan Museum of Art in New York.

ix.

The SPK offers research grants to academics within the United States, including within the District of Columbia.

x.

On information and belief, academic conferences organized and administered by
the SPK include solicitations to academics in the United States (including the
District of Columbia) to contribute and
participate.

xi.

The SPK publishes and sells a book entitled Original und Experiment: Ausstellung
der Stiftung Preußischer Kulturbesitz aus
der Antikensammlung der Staatlichen Museen zu Berlin (Original and Experiment:
Exhibition by the Stifttung Preußischer

Supp. App. 15
Kulturbesitz from the Antiques Collection
of the State Museums in Berlin) within
the United States, including but not limited to the District of Columbia.
xii.

The SPK publishes and sells a book entitled
Digital Resources from Cultural Institutions for Use in Teaching and Learning: A
Report of the American/German Workshop within the United States, including
but not limited to within the District of
Columbia.

xiii.

The SPK publishes and sells a book entitled Schdtze Der Weltkulturen in den
Sammlungen Der Stiftung Preussischer
Kulturbesitz (Treasures of World Cultures
in the Collections of the Stiftung Preussischer
Kulturbesitz) within the United States,
including but not limited to within the
District of Columbia.

xiv.

The SPK participated in an exhibition
National Gallery of Art in the District of
Columbia entitled Dürer And His Time:
An Exhibition From The Collection Of
The Print Room, State Museum, Berlin
Stiftung Preussischer Kulturbesitz, including the loan of works of art from the
SPK. The SPK contributed further to the
catalogue from that exhibition, which is
sold in the United States, including but
not limited to within the District of Columbia.

xv.

The SPK publishes and sells an annual
report entitled Prussian Cultural Property:

Supp. App. 16
25 Years in Berlin, Collecting, Researching, Educating: from the Work of the SPK
1961-1986 (Annual Report of the SPK) or
Preussischer Kulturbesitz: 25 Jahre in
Berlin, Sammeln, Forschen, Bilden: aus
der Arbeit der Stiftung Preussischer Kulturbesitz 1961-1986 (Jahrbuch Preussischer
Kulturbesitz) (as well as other similar
editions in other years) within the United
States, including but not limited to within
the District of Columbia.
xvi.

The SPK publishes and sells a book entitled Kinderbildnisse aus vier Jahrtausenden:
Aus den Sammlungen der Stiftung
Preussischer Kulturbesitz Berlin (Children ‘s Pictures from Four Millennia: from
the Collections of the Prussian Cultural
Heritage Foundation) within the United
States, including but not limited to within
the District of Columbia.

xvii.

The SPK publishes and sells copies of
the law that gave rise to its creation, the
Gesetz Zur Errichtung Einer Stiftung
“Preuss ischer Kulturb es it” Und Zur
Übertragung Von Vermögenswerten Des
Ehemaligen Landes Preussen Auf Die
Stiftung (Law for the Creation of a Foundation “Prussian Cultural Heritage” and
the Transfer of Property from the Former
State of Prussia) within the United
States, including but not limited to within
the District of Columbia.

Supp. App. 17
27. On information and belief, Germany engages
in a broad range of commercial activity in the United
States, including but not limited to the commercial
promotion of German companies and industries and
the solicitation of American visitors to German museums, including but not limited to those administered
by the SPK.
28. Jurisdiction is also proper in this action pursuant to 28 U.S.C. § 1605(a)(2) and the recent guidance
of the Supreme Court in OBB Personenverkehr v. Sachs
because the defendants engage in commercial activity
outside the territory of the United States with respect
to the Welfenschatz in connection with a commercial
activity of the foreign state elsewhere and that act
causes a direct effect in the United States. Specifically,
the defendants derive from the Welfenschatz itself
through licensing and other activities, revenue in the
United States that rightfully could be earned by the
plaintiffs absent the defendants’ wrongful possession.
Plaintiffs invoke the commercial activity exception of
28 U.S.C. § 1605(a)(2) solely with respect to Count IV
for Unjust Enrichment, and do not allege that the
Court has jurisdiction over the underlying allegations
for title to the Welfenschatz pursuant to the commercial activity exception.
29. Venue is proper in the District of Columbia
against Germany pursuant to 28 U.S.C. § 1391(f )(4) as
a case brought against a foreign state (Germany), and
venue is proper in the District of Columbia against the
SPK pursuant to 28 U.S.C. § 1391(f )(3) because the
SPK is an agency or instrumentality of Germany (a

Supp. App. 18
foreign state) and the SPK is doing business within the
District of Columbia, inter alia, as alleged above.
FACTUAL ALLEGATIONS
The Welfenschatz and the Consortium
30. The Welfenschatz consists of several dozen
medieval reliquary and devotional objects that were
originally housed in the Braunschweiger Dom (Brunswick Cathedral) in Germany. Although dating primarily from the 11th to the 15th century, the collection
acquired its commonly-known name hundreds of years
later when it passed into the hands of the Royal House
of Brunswick-Lüneburg, and later acquired the name
Welfenschatz because of its association with one of the
branches of the “Welfenhaus”, or “House of Guelph.”
31. The portion of Welfenschatz that is wrongfully in the possession of the SPK consists of the following objects:
i.

Guelph Cross (Welfenkreuz);

ii.

Portable Altar With Embossed Silver
Figures (Tragaltar mit Silberfiguren), 3rd
quarter, 13th century;

iii.

Demetrius Tablet (Demetrius-Tafel), 12th
century;

iv.

Tablet Shaped Portable Alter with Agate
Slab (Tafelförmiger Tragaltar mit Achatplatte), ca. 1200;

Supp. App. 19
v.

Tablet Shaped Portable Alter with Slab of
Rock Crystal (Tafelförmiger Tragaltar mit
Bergkristallplatte);

vi.

Rectangular Casket with Painted Ivory
Tablets (Rechteckiger Kasten mit Bemalten Elfenbeinplättchen);

vii.

Eight-Cornered Casket with Lid (Achteckiger
Deckelkasten mit Bleibeschlag);

viii.

Portable Altar of Adelvoldus (Tragaltar
des Adelvoldus);

ix.

Portable Altar With Crystal Columns
(Tragaltar mit Kristallsäulchen);

x.

Standard Cross Borne by Three Lions
(Standkreuz, von drei Löwen getragen);

xi.

Portable Altar of Eilbertus (Tragaltar des
Eilbertus);

xii.

Portable Altar with the Cardinal Virtues
(Tragaltar mit den Kardinaltugenden);

xiii.

Walpurgis Casket (Walpurgis-Kasten);

xiv.

Portable Altar with Abraham and Melchizedek (Tragaltar mit Abraham und
Melchisedek);

xv.

Chapel Reliquary (Kuppelreliquiar);

xvi.

Highly Colored Reliquary Casket (Der
stark-farbige Reliquienkasten);

xvii.

Small Reliquary Casket with Champlevé
Enamel (Kleiner Reliquienkasten mit
Grubenschmelz);

Supp. App. 20
xviii.

Arm Reliquary of St. Sigismund (Armreliquiar des Hlg. Sigismund);

xix.

Arm Reliquary of St. Innocentius (Armreliquiar des. Hlg. Innocentius);

xx.

Arm Reliquary of St. Theodorus (Armreliquiar des. Hlg. Theodorus);

xxi.

Arm Reliquary of St. Caesarius (Armreliquiar des. Hlg. Caesarius);

xxii.

Arm Reliquary of St. Bartholomew (Armreliquiar des. Hlg. Bartholomaeus);

xxiii.

Arm Reliquary of St. Lawrence (Armreliquiar des. Hlg. Laurentius);

xxiv.

Reliquary in the Form of a Portable Altar
in Wood (Tragaltarförmiges Reliquiar aus
Holz mit Steinen besetzt);

xxv.

Reliquary in the Shape of a Chest,
12th/13th Century (Reliquiar in Truhenform, 12/13. Jhdt.);

xxvi.

Reliquary in Chest Form (Reliquiar in
Truhenform);

xxvii.

Portable Altar in Tablet Form (Tafelförmiger Tragaltar);

xxviii.

Tablet-Shaped Portable Altar, 12th Century (Tafelförmiger Tragaltar, 12. Jhdt.);

xxix.

Head Reliquary of St. Cosmas (Kopfreliquiar des Hlg. Cosmas);

xxx.

Head Reliquary of St. Blasius (Kopfreliquiar des Hlg. Blasius);

Supp. App. 21
xxxi.

Plenar for Sundays (Plenar für Sonntage);

xxxii.

Plenar of Duke Otto the Mild (Plenar Herzog Otto des Milden);

xxxiii.

Arm Reliquary of St. George (Armreliquiar des Hlg. Georg);

xxxiv.

Wooden Casket with Painted Heraldic Symbols (Holzkasten mit Wappenmalerei);

xxxv.

Relic Monstrance with Ivory Reliefs (Reliquienmonstranz mit Elfenbeinreliefs);

xxxvi.

Relic Cross on a Gilded Copper Base
(Reliquienkreuz auf Fuss/Kl. Vergoldetes
Kupferstandkreuz);

xxxvii. Small Folding Altar with Foot (Klappaltärchen auf Fuss mit Elfenbeinerner Madonnenstatuette);
xxxviii. Relic Capsula (Reliquienkapsel/Agnus Dei)
mit Anna Selbdritt;
xxxix.

Turned Box With Lid (Gedrehte Deckelbüchse);

xl.

Arm Reliquary of St. Mary Magdalene
(Armreliquiar der Hlg. Maria Magdalena);

xli.

Arm Reliquary of One of the Ten Thousand Warriors (Hölzernes Armreliquiar
eines der zehntausend Krieger);

xlii.

The Large Relic Cross (Das Grosse Reliquienkreuz).

32. The Welfenschatz occupies a unique position
in German history and culture, harkening back to the

Supp. App. 22
early days of the Holy Roman Empire and conceptions
of German national identity and power.
33. Conservative estimates of the present-day
fair market value of the Welfenschatz (including those
advanced by the SPK itself ) exceed $250,000,000.
34. In or around 1929, the Consortium was
formed. It consisted of the plaintiffs’ ancestors and/or
predecessors-in-interest, and on information and belief
it received additional funding from third parties in
what amounted to a loan. Only these three art dealer
firms—Z.M. Hackenbroch, I. Rosenbaum and J. & S.
Goldschmidt—were the signatories to the contracts of
1929 and of 1935. On information and belief, the Consortium was solely entitled to ownership rights of the
collection in the time period of October 5, 1929 to June
14, 1935 when the Welfenschatz had been in their possession. This ownership was unaffected by certain
lenders, banks, and individuals (e.g., a business man
called Hermann Netter (“Netter”) from Frankfurt, Germany), who acquired no property interest in the collection.
35. By written agreement between the Consortium and the Duke of Brunswick-Lüneburg, the Consortium acquired the Welfenschatz on October 5, 1929.
A true and accurate copy of that agreement is attached
hereto as Exhibit 1, followed by a certified translation.
36. When the possibility that the Consortium
might successfully acquire the Welfenschatz first arose,
it was to the particular annoyance of disappointed German museums and states. As the Hannover High

Supp. App. 23
Provincial President Gustav Noske (“Noske”), the former Reich Minister of defense, wrote on November 26,
1929 to the Prussian Minister of Finance and the Prussian Minister for Science, Art and Education, the price
for the Welfenschatz would be “a minimum amount of
20 million RM.” Indeed, the famed Kuppelreliquiar
now wrongfully in the possession of the SPK (and
which is shown prominently on the museum guide sold
in the United States that is referenced above) was discussed as having a value of 4 million RM all by itself
at that time (i.e., a sum consisting of the better part of
the amount for which the Consortium was eventually
forced to sell the entire Welfenschatz).
37. Concerted efforts by Germany’s Reichsregierung (Reich Government), the Prussian State Government and several other entities and museum officials
in June of 1930 to “save [the Welfenschatz] for Germany” failed, mainly caused by Otto Braun, the thenPrussian Prime Minister’s veto. While perhaps the
House of Welf could not regain the treasure, there was
an interest as described by President of the Prussian
Staatsrat, Oskar Mulert (“Mulert”), with anti-Semitic
foreshadowing to “sell the pieces to Germany, to avoid
an accusation of hucksterism abroad.”
38. At the request of the National Socialist faction, the town council of Frankfurt resolved as follows
on August 26, 1930 concerning the “maintenance” of
the Welfenschatz:
A provisional enactment is adopted . . . [ ] that
the most valuable and oldest cultural assets

Supp. App. 24
of the German people, in particular the
Welfenschatz, should not be permitted to be
sold abroad, so that it can remain in the country.
39. Even a nationwide lottery was planned to collect money for the “salvation of the Welfenschatz.”
40. By 1930, the official intention was to buy the
Welfenschatz for the Berlin museums. This failed due
to the resistance and vetoes of the then-Prussian
Prime Minister Braun. Braun was particularly passionate about his plans for a democratic land reform,
which earned him the enmity of the large Prussian
landowners. In the final years of the Weimar Republic,
Braun opted for cooperation with the conservative
forces to keep the Nazis from power. He forbade the
Rhenish steel helmet (“Stahlhelm”), a World War I
community of ultra-conservative and National Socialist veterans, and enforced the nationwide ban of the
Nazis’ Sturmabteilung (“S.A.”), the Nazi Party’s paramilitary goon-squad and branch. In early March 1933,
Braun fled Germany in fear for his life and went into
exile in Switzerland.
41. Nevertheless, in the dying days of the Weimar Republic, the Consortium was able to bring the
Welfenschatz to the United States to offer it for sale to
museums. To some extent, the Consortium succeeded.
By 1930-31 about half of the collection had been sold
to museums and individuals in Europe and in the
United States. Those 40 pieces (out of 82 overall) which
were sold to the Cleveland Museum of Art and others,

Supp. App. 25
however, comprised only about 20 percent of the value
of the Welfenschatz acquired in 1929—and did not include the most valuable pieces such as the iconic Kuppelreliquiar.
42. After the dramatic events and reactions of
1930, matters settled down briefly with respect to the
Welfenschatz. The Consortium, while not unaffected
by the growing world economic depression, was able to
safeguard the core income of its members and stay in
business. None of the three companies filed for bankruptcy.
43.
to last.

This period of relative calm, however, was not

The Nazi Rise to Power
44. Founded in 1923, the National Socialist German Workers Party (National Sozialistische Deutsche
Arbeiterpartei, or “NSDAP”), grew out of various nationalist movements in the wake of World War I. Originally called the DAP, (Deutsche Arbeiterpartei), Hitler
was member No. 55. He soon took control of the movement, and his message from the start was the unmistakable intent to marginalize and eliminate European
Jews.
45. Throughout the 1920s, the NSDAP struggled
for relevance in the economic chaos of the fledgling
Weimar Republic. A failed coup d’état in 1923 that
came to be known as the “Beer Hall Putsch” was derided as amateurish, and Hitler and other Nazi leaders

Supp. App. 26
were imprisoned. While incarcerated at Landsberg
Prison, Hitler penned the foundational document of
what would become the Nazi movement: Mein Kampf.
The book left no doubt as to Hitler’s worldview, and his
views on where Jews fit into it, i.e., they did not. For
anyone seeking to rise within the NSDAP, or later the
government that it took over, it left no secret about how
to please Hitler.
46. With the onset of the Great Depression, the
electoral fortunes of the NSDAP improved. Still unable
to break through into a position of parliamentary control, they nonetheless achieved substantial enough minorities to be reckoned with, and made a name for
themselves with threatening behavior in the legislatures they joined.
47. That threatening behavior took its worst
form outside the halls of town halls, “Landtage,” the
German states’ parliaments, and the Reichstag, however. The Nazis and their “brownshirts,” the S.A., became known for politically-motivated violence and
attacks on political opponents, communists, socialists,
and Jews.
48. The Nazis also now found resonance in the
electorate with their scapegoating of Jews. Jews had
long been stereotyped in association with commerce, as
part of the alleged “Global Jewish Conspiracy.” The
NSDAP played off this, and blamed Jews for any and
all economic setbacks: the hyperinflation of the Weimar Republic, the collapse of the stock market, bank
closings, and the Great Depression. In a frightening

Supp. App. 27
time, the Jews of Germany felt the scorn of their neighbors as never before.
49. In the parliamentary elections of 1932, the
NSDAP won a plurality of the popular vote for the first
time. This gave the NSDAP the largest faction within
the Reichstag, though not yet a majority. It was to be
the last even arguably democratic election in Germany
until after 1945.
50. On January 30, 1933, Adolf Hitler was appointed Chancellor by aging Reich President Paul von
Hindenburg. What was initially perceived as a stabilizing nod to conservatism, quickly descended into an
onslaught of repression. All the designs of the Nazi
Party program of 1920, the failed “putsch” of 1923, and
Mein Kampf had now assumed the authority of the
state.
51. On February 27, 1933, a fire broke out in the
Reichstag, the imperial parliament building that
housed the legislature of the Weimar Republic.
52. This provided the Nazis with the entire pretext they needed. Cited as proof that German communists were plotting against the government, despite
flimsy evidence and the likelihood that it was orchestrated by the Nazis themselves as an excuse to act, it
was to become the precipitating event for Nazi Germany.
53. With the “Decree of the Reich President for
the Protection of People and State” of 28 February
1933, better known as the Reichstag Decree, Hitler

Supp. App. 28
was given far-reaching, violent means of power. Articles 114, 115, 117, 118, 123, 124, and 153 of the German
Constitution, which affected the fundamental rights of
citizens, were overridden. Henceforth, the restriction of
personal freedom, freedom of expression and of personal property were expressly sanctioned by the state.
Infringements of the Regulation were punished with
confiscation, prison, penitentiary, and death.
54. With free exercise curtailed and violent enforcers unleashed on the streets, victory in the election
of March 5, 1933 was ensured. The Nazis emerged with
a majority of the seats in the Reichstag, and carte
blanche was delivered to Hitler and his anti-Semitic
program.
55. Hitler and his regime wasted no time whatsoever. The Enabling Act of 1933 (Gesetz zur Behebung
der Not von Volk und Reich, or Law for the Remedy of
the Emergency of the People and the Reich) amended
the Weimar Constitution further, giving the Chancellor—i.e., Hitler—the power to enact laws without the
legislature.
56. Other laws followed in this vein: the Restoration of the Civil Service Law of July 4, 1933, the destruction of public unions and democratic trade
associations in April and May, 1933, the institutionalization of the one-party state and expulsion of nonNational Socialists (July 14, 1933), and the repeal of
the fundamental constitutional rights of the Weimar
Republic all followed.

Supp. App. 29
57. These laws and regulations, while draconian,
barely approach the repression that was unleashed on
Germany’s Jews. Through the collective humiliation,
deprivation of rights, robbery, and murder of the Jews
as a population, they were officially no longer considered German.
58. Boycotts of Jewish businesses spread in
March and April 1933, just weeks after Hitler’s ascension, with the encouragement of the state itself.
59. By the spring 1933, the concentration camp
at Dachau had opened, and the murder of Jews detained there went unprosecuted. This may seem unsurprising with the benefit of hindsight, but Germany had
descended in a matter of weeks to a place where Jews
could be plucked off the streets, imprisoned, and murdered just yards away from their neighbors, all without
consequence. Closer to the Consortium, the Osthofen
concentration camp outside of Frankfurt opened in
May, 1933.
60. It was not merely that such violence could
happen with impunity, but also that it was now officially encouraged.
61. The boycott of Jewish-owned businesses is
hard to imagine now. Judges, lawyers, doctors, retailers, art dealers—the bedrock of the German middle
class—were targeted and driven out of their ability to
make a living.
62. Propaganda was soon in full swing. The Völkischer Beobachter was the notorious official Nazi Party

Supp. App. 30
paper. In an edition dated March 31, 1933, Julius Streicher (who published his own militant and racist newspaper Der Stürmer) called on the populace to boycott
Jews as “profiteers, war slide, convicts, deserters and
Marxist traitors.” He concluded:
All Jews will have to fight so long, until victory is ours! Nazis! Defeat the enemy of the
world! And if the world would be full of the
devil, we must succeed yet!
63. S.A. men, the by-now-ubiquitous brownshirt
thugs, fanned out to express “public opinion,” as the police and ordinary citizens looked on. Jewish shops were
smashed, stores and apartments were looted, and Jewish lawyers were beaten on their way to court.
64. The latent danger for Jews to lose their lives
and their property was not dependent on the new laws
noted above, though they hastened the threat. More
laws restricted the ability of Jews to transfer assets—
punishable by death—as Jews were tortured in Gestapo, S.A. and S.S. cellars or simply beaten to death
in broad daylight.
65. For example, on April 1, 1933, furrier Hirsch
Ber Gottfried was beaten through the streets of Leipzig, and had a sign hung around his neck that read “I
am a dirty Jew.”

Supp. App. 31
Prussia and the Nazis Train Their Sights on the
Welfenschatz
66. No Jews could remain unaffected by the foregoing, and the members of the Consortium were no different. The members of the Consortium were soon
completely cut out of economic life in Germany, and on
information and belief, were themselves threatened
with violence.
67. On information and belief, the Geheime
Staatspolizei—the Gestapo—opened files on the members of the Consortium because of their ownership of
the Welfenschatz and their prominence and success.
68. Not surprisingly, Prussian interest in the
Welfenschatz was soon revived now that the Consortium was so vulnerable.
69. Former District and Local Leader of the
Kamfbund für deutsche Kultur—the League of Struggle for German Culture—and new Mayor of Frankfurt
Friedrich Krebs (“Krebs”) quickly wrote to Hitler himself (emphasis added):
Upon coming to power, National Socialism in
Frankfurt a.M. also found extraordinarily unclear relationships in the area of art. Since
then, the coarsest grievances have been resolved and in the course of reconstructing the
artistic life of the old imperial city, I have
come to the question of how one of the greatest artistic and cultural properties of the German people, the [Welfenschatz], which was
last exhibited in Frankfurt a.M. in 1930 and

Supp. App. 32
then transported to America, can be won back
for the German people. . . .
[]
The Gospels of Henry the Lion must be regarded as a key piece of the Guelph Treasure
that is located in Gmunden. This work of German book illumination is the greatest of all
time and is not included (in the inventory) in
the Guelph Treasure and has also therefore
not been moved to America; however, it belongs integrally and, indeed, as a key piece.
The securing of the Gospel of Henry the Lion
would be the most important act in a systematic cultivation of historical artifacts for Germany and would attract even more attention
because the work is hardly known in wide sections of the population and has never been
shown to the public.
Under your leadership, the new Germany has
broken with the materialism of the past. It
considers the honor of the German people as
its most valuable asset. In order to reclaim
this honor on an artistic level, I believe the recovery and the ultimate acquisition of any irreplaceable treasures from German’s middle
ages, such as they are organically combined in
the [Welfenschatz], would be a decisive step.
According to expert judgment, the purchase is
possible at around 1/3 of its earlier value.
It therefore relates to an amount that will be
proportionally easy to raise. I therefore request that you, as Führer of the German

Supp. App. 33
people, create the legal and financial preconditions for the return of the [Welfenschatz].
70. A true and accurate copy of this letter is attached hereto as Exhibit 2, followed by a certified
translation.
71. Ostensibly Krebs sought the acquisition of
the Gospels of Henry the Lion, but his real intention
was to save the honor of the German people, to snatch
the Welfenschatz from the Jewish merchants, and
bring it “home to the Reich,” and asks Hitler himself to
lay the groundwork for obtaining the Welfenschatz at
only 1/3 of its value.
72. To place Krebs in context among Nazi zealots, he distinguished himself as mayor by firing all
Jewish civil service employees ten days before the Law
for the Restoration of the Civil Service was enacted.
73. Standing behind all of this was Goering himself, Hitler’s highly decorated deputy—Prime Minister
of Prussia at that time—aided by the desire and expediency by his underlings to demonstrate their antiSemitic credentials to him and to Hitler.
74. Goering was a notorious racist and antiSemite who, in view of the massive destruction of infrastructure and buildings, mostly synagogues, caused
by the Nazi-mob on occasion of the Reich’s Pogrom
Night, or “Night of Broken Glass” (“Kristallnacht”) in
November 1938, is quoted saying that he would have
“preferred if you would have slain two hundred Jews
rather than destroying such values. . . .”

Supp. App. 34
75. Goering’s appetites were as prodigious as
they were legendary, particularly with respect to art.
He cultivated for himself an image of culture and refinement that was belied by his rapacious greed for
plundered art. Throughout his period of influence in
the Third Reich, Goering targeted art that he wanted,
but seldom if ever did he simply seize property. Instead, he routinely went through the bizarre pretense
of “negotiations” with and “purchase” from counterparties with little or no ability to push back without risking their property or their lives.
76. Adolf Feulner (“Feulner”) had a career beginning in 1930 as director of the Museum of Decorative
Arts and History Museum in Frankfurt, and from 1938
to his death as head of the Kunstgewerbe (arts and
crafts collection) of Cologne.
77. In a letter dated November 1, 1933, Feulner
wrote to the President of the German Association for
the Preservation and Promotion of Research (Deutsche
Gemeinschaft zur Erhaltung und Förderung der Forschung, or the “DFG”), Friedrich Schmidt-Ott (“SchmidtOtt”) about the Welfenschatz. This letter makes clear
that it was Feulner who approached the Consortium,
and not the other way around, and at the instigation of
Krebs or at the very least in consultation with him.
Feulner wrote: “After consultation with Mr. Hackenbroch
/ . . . / the owners are very willing . . . to enter into negotiations with the Reich.”
78. Although the Welfenschatz was physically
stored in Amsterdam, the Netherlands by this time,

Supp. App. 35
there is no question that the peril faced by the Consortium as Jews, still living in Germany and vulnerable
to Nazi attacks at any time, placed it well within the
Nazis’ grasp. Any resistance posed grave risks to the
Consortium and their families.
79. On January 1, 1934 the museum directors
Dr. Otto Kümmel (“Kümmel,” of the State Museums),
Dr. Robert Schmidt (“Schmidt” of the Schloss Museum,
the predecessor of the Kunstgewerbemuseum where
the Welfenschatz is today), Dr. Karl Koetschau
(“Koetschau” at the Kaiser-Friedrich-Museum), and
Dr. Demmler (at the German Museum), together with
Dr. Hans-Werner von Oppen (“von Oppen,” Speaker in
the Ministry of Education and Board member of the
Dresdner Bank) visited the collections stored at the
bank whose possession had been taken by Prussian intervention. The Welfenschatz was discussed at this
meeting, and clearly not for the first time. As the
minutes of the meeting composed by a Mr. Stern of the
Dresdner Bank noted:
On previous visits the museum directors, and
in particular Prof. Koetschau, had noted that
it was of considerable interest to establish the
ways in which to incorporate the Welfenschatz. When Prof. Koetschau returned to this
issue again and Dr. von Oppen was informed
about the possibilities on the matter, I told
him that the Welfenschatz was with an art
dealer consortium, that would be happy to liquidate their failing business, and that I would
be able to commence negotiations with the appropriate person, if this were desired.

Supp. App. 36
80. Von Oppen directed Stern to lead the effort
“in all respects.”
81. Later, in December, 1946, Schlossmuseum director Schmidt misled the Allied forces in securing
himself a role at the Central Collecting Point at Wiesbaden, from which he found himself a prosperous postwar career. Despite direct firsthand knowledge of the
transaction, he described the purchase price of Prussia’s 1935 acquisition of the Welfenschatz as 7 million
RM, plus a number of valuable works of art. While still
below market, this was a complete fabrication that allowed Schmidt to shift blame to others, a regrettably
recurring theme among those like Schmidt who acquiesced in this kind of illicit behavior.
82. Stern notes in the minutes menacingly that
although the Welfenschatz had been purchased in
1929 for 7.5 million RM, that the Consortium might be
willing to accept a lower price “to liquidate the business so as not to suffer even more loss of interest. . . . ”
83. Just days before Stern had told Alfons Heilbronner, owner of the art dealer Max Heilbronner in
Berlin, a Jewish debtor to Dresdner Bank and since
that time the messenger between the bank and the
Consortium, to “determine whether a price substantially below the price that it cost, would have appeared
promising.”
84. Stern then told Heilbronner that he did not
want to approach the Consortium, but that if Heilbronner did he could be assured a commission.

Supp. App. 37
85. Heilbronner became suspicious. He had
heard that “negotiations with the Reich were in progress,” but he dismissed Stern because he was concerned that if an interested buyer appeared, he could
not be sure if they were acting for themselves or for a
third party. In any event, it was agreed that Heilbronner would “initiate his efforts immediately.”
86. It was clear from the words of the representatives of the Dresdner Bank that it intended to pursue
the Welfenschatz with the German Reich to obscure
Prussia’s role in transacting business with Jews.
87. The SPK has publicly argued that the Consortium initiated the dialogue that ultimately resulted
in the 1935 transaction. In fact, there is no evidence
whatsoever to suggest that the Consortium sought to
begin negotiations with the Nazi state. The only plausible interpretation of the correspondence among highranking Nazis is that it was they—the Prussian functionaries—who sought out the Consortium.
88. This conclusion is underscored by the Dresdner Bank’s role as intermediary in the targeting of
other Jewish collections. Dresdner Bank was majorityowned by the German state at the time of the Nazi ascension to power. Between 1933 and 1937, when it was
once again privatized, it played a similar role in other
cases. On August 15, 1935, the Dresdner Bank executed an agreement to sell the Berlin museums more
than 1,000 works, including works “purchased” from
Jewish owners under the days of early Nazi terror.
These works of art came from Jewish art collections

Supp. App. 38
which had been handed over to Dresdner Bank as collateral at some point and which were sold by Dresdner
Bank, as the bank’s property, in mid-1935 to the Prussian Nazi-State in order to enrich the Berlin state’s
museums’ collections. The bank’s role in the Welfenschatz transaction is consistent with this complicity.
89. The Dresdner Bank’s role as an agent and/or
co-conspirator of the Nazi state is further underscored
by a statement made by the law firm BergschmidtToussaint-Burchard of Berlin on April 20, 1936, which
represented Dresdner Bank’s interests in a claim
against Herbert Bier, the nephew of Zacharias M.
Hackenbroch, living as a Jewish refugee in London at
that time. The letter states that “/ . . . / as you may be
aware, Dresdner Bank’s and the German Reich’s
Treasury’s economic issues are very much the same.
The receivables we have been given order to seize from
you, therefore is German tax payers’ money.”
90. As detailed in an investigative report in Der
Spiegel, the leading German weekly news magazine, a
study commissioned by the Dresdner Bank took an unprecedented look at the role of a financial institution
in Nazi Germany:
“Dresdner Bank in the Third Reich” paints a
stark picture of how the firm actively courted
Nazi favor in order to make money and rapidly expand its business.
The study also shows the bank took part early
on in the Third Reich’s policy of confiscating
Jewish property and wealth. “It’s a myth that

Supp. App. 39
the bank was forced to take part in the ‘Aryanizing’ of Jewish wealth,” [ ]
But perhaps one of the most damning associations for Dresdner’s past managers is its
close ties to Heinrich Himmler’s SS. The bank
was the most important private lender for the
Nazi organization and played a key role for its
operations in occupied Europe, essentially
acting as the bank of the SS in Poland.
91. The Dresdner Bank’s approach to the Consortium is completely consistent with this history, and
is the only plausible inference from the documentary
evidence.
92. On January 23, 1934, Stern reported to the
Reichsbank directorate that Heilbronner had not succeeded with the spokesman of the Consortium. He was
told that the Consortium “will not go down under 6.5
million RM, perhaps 6 million RM in extreme circumstances.”
93. Heilbronner quickly traveled to Paris under
pressure from the bank syndicate to tell Saemy Rosenberg that the price could not exceed 3.5 million RM.
94. Stern memorialized another meeting on May
11, 1934: Mulert had called, and wanted to know if it
was going to be possible to “secure the Welfenschatz for
German museums.” Stern had informed Mulert that
the Consortium had advised that they had an offer in
hand for 7 million RM, probably from a Berlin private
banker.

Supp. App. 40
95. It was hardly unexpected that such an offer
would have come in, nor that the Consortium would
have wanted to wait out for bidders to compete against
each other. Anyone listening to Hitler’s speeches and
official propaganda about art knew how Nazi art tastes
ran: they detested modern art that they deemed “degenerate,” and they exalted traditional, historical German art and motifs. The Welfenschatz was, literally,
the highest example of what the Nazis sought. It combined both impeccable “German” credentials, but was
also of unquestioned quality apart from the state sponsored works being churned out by the likes of Josef
Thorak and Arno Breker.
96. But the Consortium did not have time to wait
for the fair market value of the Welfenschatz. Legion
examples of Jewish collectors and professionals exist
who waited too long and lost everything.
97. Koetschau then asked Stern when the negotiations over the Welfenschatz would begin. Stern reported
that he expected a firm offer from the Consortium, and
that the price of 3.5 million RM being pursued would
be a “very low” price constituting 15% of the Welfenschatz’s value.
98. To put it in context, if 3.5 million RM were
15% of the value of the Welfenschatz, then the Welfenschatz’s full value would have been 23.33 million RM,
or nearly six times what the Consortium was paid.
99. A month later, Stern advised the director of
the Schloss Museum that negotiations had stalled

Supp. App. 41
because the Consortium continued to insist on a price
over 7 million RM.
100. Starting in the summer of 1934, two people
in particular took up the mantle of “saving” the Welfenschatz for Germany: Paul Körner (“Körner”) and Wilhelm Stuckart (“Stuckart”). It was this effort that led
to the eventual sale under duress of for dramatically
below market value.
101. The Consortium could scarcely have expected fair treatment from them.
102. Körner already had a successful Nazi career
behind him by 1934. Since 1926 he had been adjutant
for Goering. Körner was an NSDAP Party member
starting in 1931 (long before even a cynic could argue
it was advantageous or necessary for status in Nazirun Germany), as well as the Schutzstaffel (the “S.S.”)
—an organization later declared by the International
Military Tribunal at Nuremberg to be a criminal enterprise, and about which its elite members cannot
ever have had any illusions. He rose to an S.S. Group
Leader (Gruppenführer)—an “achievement” that speaks
for itself—and was appointed as personal assistant to
Goering in the Prussian Ministry of the Interior.
103. After Goering became Prussian Prime Minister in April 1933, Körner was appointed Secretary of
the Prussian State Ministry. On the occasion of the
opening of the Prussian State Council (Staatsrat) described above, Körner wrote a foreword in the Völkischer Beobachter, in which he took aim at “all liberal
and democratic sentiments,” and described the task of

Supp. App. 42
the new Staatsrat as, “to be National Socialist in its
operation.”
104. Goering transferred authority to Körner on
April 10, 1933 over the “Research Office,” the notorious
institution that took over all telephone, telegram, radio, and mail monitoring in the Third Reich.
105. Goering also approved Körner for the post
of Secretary of State in the Four-Year Plan. In this role,
Körner was to be instrumental in helping to make the
German economy “ready for war.” Finally, and most
tellingly, Körner later attended the Wannsee Conference in suburban Berlin in 1941, at which Reinhard
Heydrich, Adolf Eichmann, and other high ranking
war criminals decided upon the implementation of the
“final solution of the Jewish question”—the plan to exterminate the entire Jewish population of Europe.
106. Stuckart first came into contact with the
Nazi Party in 1922 while a law student, and enrolled
in the Party at a time when it was barely on the fringe
of mainstream German politics. By 1926, he was the
legal adviser of the NSDAP in Wiesbaden. Starting in
1930, he was also a member of the Kampfbund fur
Deutsche Kultur. He applied to the civil service in 1930,
but was dismissed in 1932 because of his political (i.e.,
Nazi) convictions. Stuckart also joined the S.A. in 1932
and ascended to be the legal secretary to the S.S. and
S.A. in Pomerania.
107. On May 15, 1933 Stuckart was appointed as
Acting Assistant Secretary of State in the Prussian
Ministry of Science, Culture and Public Education.

Supp. App. 43
Just a few weeks later, he was appointed Secretary of
the Ministry of Science and entrusted with the representation of Minister Rust.
108. Rust had been a member of the NSDAP
since 1922. He was a “Gauleiter” (an honorific given to
regional leaders within the party) after 1928 of the nationalist/anti-Semitic National Socialist Society for
German Culture. After the seizure of power, he
founded in 1935 the racial ideology Reich Institute for
the History of the New Germany. Rust committed suicide on the day of German surrender on May 8, 1945.
109. Stuckart’s area of professional responsibility by then included primarily “Jewish Affairs,” and he
was to become the architect of the development of the
anti-Jewish law. Notably, he was instrumental in the
drafting of the “Nuremberg Laws” that codified the exclusion of Jews from all aspects of society. In 1936 he
became Chairman of the Reich Committee for the Protection of German Blood.
110. This, then, was the first of the characters
with which the Consortium was confronted in seeking
to recoup the fair market value of their property.
111. Still in his capacity as Deputy Minister of
the Ministry of Science, Stuckart answered on July 14,
1934 a June 26, 1934 letter from Körner. Körner had
submitted to Stuckart a draft of a letter to be sent to
Hitler, to which Stuckart offered his opinion as follows:
I note that in the opinion of the Prussian
Minister of Finance, an acquisition by the

Supp. App. 44
Prussian State would be within the range of
possibilities, providing that the President of
the Reichsbank (in parallel the negotiations
that were recently held between him and myself in relation to the question of purchasing
the art collections that are situated at Dresdner Bank, about which I have notified the
Prime Minister through official channels) declares himself to be in agreement that the
payment would not take place in cash, but by
issuing Prussian treasury bonds. Reichsbank
President Schacht held out the prospect of the
same kind of financing for the acquisition of
the Guelph Treasure by the Prussian State.
This means that Prussia does not need to
raise any funds now, but solely takes on a less
onerous indebtedness. In this way, Prussia
would be put in a position where it was able
to subsequently bring the historically, artistically and national-politically valuable Guelph
Treasure to the Reich in addition to many
other valuable cultural treasures.
112. A true and accurate copy of this letter is attached as Exhibit 3 hereto, followed by a certified
translation.
113. The cast of notorious National Socialists
identified in the paragraphs above and arrayed against
the Consortium is sobering. First, of course, the draft
letter is intended for Hitler himself. Currying favor
with the Führer through acquiring the Welfenschatz
was the overriding goal. Second, Stuckart had already
vetted the plan with the Prime Minster of Prussia
—i.e., Goering. Lastly, the financing that had been

Supp. App. 45
considered, approved, and planned, came from Schacht,
the President of the Reichsbank.
114. For his part, Schacht was no lightweight in
the Nazi Party; in addition to his duties as President
of the Reichsbank from 1933 to 1939, he was the
Reich’s Economic Minister from 1934 to 1937, as Germany flouted the Versailles treaty, targeted resources
in the Saarland that were supposed to remain neutral,
and made every preparation to plunge Europe—and
with it the whole world—into war.
115. The letter went on to describe how Stern,
and a “Mr. Pilster” would soon appear as “interested
parties,” offering intentionally lowball offers of 3 million and 4 million RM—a scheme orchestrated by the
“M.P.”, i.e. by Prime Minister Goering, quite literally
for Hitler. It went on to recommend that the city of
Hannover be discouraged from entering into the negotiating picture.
116. The letter closes, “With German greetings
and Heil Hitler!”
117. Stuckart thus describes the motive for the
acquisition of Welfenschatz: to impress Hitler and his
circle, and to do so for a less than market price. The
pressure that would allow this to happen is so axiomatic as to be a basic aspect of Nazi Germany: the life
and liberty of the Consortium were at stake.
118. For Stuckart himself, he is even more frank.
The Welfenschatz is “obviously politically” valuable for
Prussia “in its later rise in the Reich.” The stage was

Supp. App. 46
thus set, to take advantage of the weakened position of
the Consortium by virtue of their persecuted status, to
acquire the Welfenschatz for far-below-market price.
119. That process only accelerated as 1934 went
on. The National Socialist regime was not content to
enact legislation targeting specific policy aims. The
Nazis were clear that the real goal was Gleichschaltung-the transformation of society itself. Art was at the
center of this plan.
120. In 1933, Minister for Propaganda and Education Joseph Goebbels founded the Reich Chamber of
Culture (Reichskulturkammer)—after first organizing
the April 1, 1933 Jewish boycotts. The Reichskulturkammer assumed total control over cultural trade, and
membership was required to conduct business. Needless to say, Jews were excluded, effectively ending the
means of work for any Jewish art dealer in one stroke.
Major dealers’ collections were liquidated because they
could not legally be sold.
121. Ideologue and “Reichsleiter” Alfred Rosenberg soon got involved as well. Alfred Rosenberg
played many roles. He was the editor of the Völkischer
Beobachter, and he was also the author of the polemical screed The Myth of the 20th Century (Der Mythos
des 20. Jahrhunderts)—second only to Hitler’s Mein
Kampf in its influence on Nazi racist ideology. Later,
he gave his name and direction to the notorious
Einsatzstab Reichsleiter Rosenberg (ERR) that coordinated the systematic looting of occupied countries,

Supp. App. 47
particularly the collections of French Jews (those Jews,
of course, were frequently then murdered).
122. Not surprisingly, Alfred Rosenberg was
tried as a war criminal at Nuremberg after the war,
convicted, and hanged.
123. Alfred Rosenberg’s Kampfbund für Deutsche
Kultur disrupted auctions at Jewish establishments
and drove some to ruin.
124. In an added and ironic tragedy, Jewish art
dealers also lost their Jewish customers, whose economic means were being destroyed systematically and
comprehensively; there was no money left to buy art.
125. The impact of the Jewish exodus from German economic and cultural life by this time was made
clear in a Municipal Memorandum Concerning the Departure from Culture Associations by Jewish Members,” dated February 16, 1934. Rental revenue from
Jewish tenants plummeted; the Municipal Theatre in
Frankfurt, for example, saw its revenue fall by 100,000
RM; the Museum Society lost 40% of its revenue, the
Frankfurt Art Association lost 270 Jewish and 50 nonJewish members, nearly half of all members together;
and the Staedelsches Kunstinstitut likewise saw its
membership drop from 120 to 70. Investment in art fell
too.
126. To sum it all up, on December 1933, the
Frankfurt city treasurer wrote to Krebs with regard to
the current climate:

Supp. App. 48
In the period from 1 March to 31 October
1932, 372 Jewish firms were closed. In the
same period of the year 1933, 536 Jewish
firms were closed. It is not only the increasing
the number closures from 1932 to 1933 that
shows the severe economic damage that the
city has seen. Rather, it has to be noted that
while the earlier closures were also followed
by corresponding new applications, there can
of course be no question of any significant new
registrations in 1933.
127. The local museums, who were mainstay
customers of the dealers in the Consortium, fell away
too but not for reasons of economic difficulty. Rather,
they were subject to new stringent nationalist regulations, characterized by the infamous signs Kauft nicht
beim Juden!—“Don’t buy from Jews!”
128. Because of the anti-Semitic climate, Isaak
Rosenbaum and his nephew Saemy Rosenberg, the two
co-owners of I. Rosenbaum, gave up, when Saemy Rosenberg had received a warning from a trusted friend
and World War I comrade, that he should better “go on
a long vacation abroad.” They left Germany, and emigrated to Holland. Both were liable for the payment of
flight tax in the amount of 25 percent of their total
(movable and immovable) assets. A true and accurate
copy of the Gestapo memo that memorialized this extortion is attached hereto as Exhibit 4, followed by a
certified translation.
129. The owners of the art dealer J. & S. Goldschmidt (also part of the Consortium) were forced by

Supp. App. 49
the Reich Chamber of Culture to vacate its premises at
Berlin in 1934, where it had been since 1923 in the Palais Rathenau. J.&S. Goldschmidt had no choice but to
move to the back room of the antiques firm of Paul
Graupe auction house, as subtenants. Naturally, sales
continued to decline precipitously, and the business
was de facto closed by 1936, when Julius Falk Goldschmidt and his cousin Arthur fled Germany in July
and in November the same year, leaving behind all of
their assets.
130. The nephew and designated successor of
Z.M. Hackenbroch, Herbert Bier, later described the
cataclysm that befell his uncle: “The depression of 1930
and what followed was naturally notable, but the real
decline began with the boycott in 1933.” And the lawyer for Hackenbroch’s widow Clementine later added
poignantly:
Although, according to a letter from the President of Fine Arts, the deceased husband was
allowed to exercise his profession / . . . / until
7/31/37, such an exercise of his business
amounted to little or nothing in view of the
economic damage caused by the general Boycott. Like a still-licensed attorney, a doctor
was allowed to operate, but it was known that
the Jew was boycotted and was shunned despite official permission from Christians. I
was also a “Front Combatant” with an Iron
Cross 1st Class, and thus allowed my activity
by law. But I had nothing more to do.

Supp. App. 50
131. While “Aryan” companies had suffered just
as Jewish businesses had under the global economic
crisis, starting in 1933 the former soon got back on its
legs thanks to the Nazi regime and, relevantly, prospered from the repression of their Jewish competitors.
Dresdner Bank
132. Dresdner Bank, which became notorious as
the “S.S. bank”, was frequently complicit in one-sided
and manipulative taking advantage of other Jewish
business owners, as spotlighted in many studies, e.g.
by the Office of Military Government for Germany
(OMGUS)—Financial Division, by its 1946/47 summary reports on the investigation of the role of the German banks during the Nazi era (cf. OMGUS: Dresdner
Bank Report—Report on the Investigation of the Dresdner Bank, 1946). According to these studies, Dresdner
Bank executives forged especially close ties to SS
leader Heinrich Himmler: “We are the bank of SS,” as
Dresdner Bank executive board member Emil Meyer
had declared in 1941. Dresdner Bank—which until the
early 1990s had claimed only a limited role in helping
the Nazis—was deeply involved in the Third Reich in
many ways and, after Hitler came to power in 1933, it
took the lead in seizing Jewish property, set up countless subsidiaries in occupied territories and financed
the arms sector. Dresdner Bank became a leading financier of the German occupation authorities in occupied Poland and Hitler’s invasion of his neighbors
enabled the bank to expand its operations and increase
its earnings potential in a way it had never envisaged.

Supp. App. 51
Dresdner Bank, like other Third Reich banks, was extensively involved in expulsions, genocide and war.
133. On February 9, 1935 Dresdner Bank Director Samuel Ritscher wrote in a file note that Prussian
Finance Minister Johannes Popitz (“Popitz”) had asked
him to care for the matter of the Welfenschatz. It would
fall to him to carry out this transaction together with
the art collection of Dresdner Bank, “so the whole thing
appears to be together.”
134. The magnitude of this opportunity was apparent to Popitz, who saw the possibility of taking advantage of the Consortium’s condition to acquire the
Welfenschatz.
135. Stern described a meeting of the Director
of the Schloss Museum with Director Nollstadt
(“Nollstadt”) of Dresdner Bank of February 12, 1935:
Heilbronner remained in “continuous negotiations”
with the Consortium. Nollstadt discussed the importance of conveying the impression to the Consortium that the buyer whom Dresdner Bank represented
intended to gift it to the state museums, such that the
Consortium would conclude there were no other potential buyers (those very museums being the most obvious candidates otherwise).
136. At the beginning of April, 1935, Otto von
Falke, one of the leading and well-known German art
experts and co-author to a rare catalog compiled on the
Welfenschatz by 1930, viewed the remaining parts of
the Welfenschatz. He reported, “that the most beautiful and historically the most outstanding works of art,

Supp. App. 52
on which the fame of the Welfenschatz is based, still
exist.”
137. On April 6, 1935 Heilbronner reported directly to Director Ritscher that he had been “intensely
preoccupied with the matter” for a year and a half. The
problem according to Heilbronner, was that Rosenberg
and the other members of the Consortium were confident in the rectitude of the asking price. Heilbronner
resolved to convince the Consortium of the fleeting nature of the opportunity—fleeting of course because of
the grave peril that the Consortium now faced in the
Nazi regime.
138. By the spring of 1935, the exclusion of Jews
from the German life had assumed more threatening
forms, and had become nearly total. The means by
which German art could be sold by Jewish dealers had
effectively been eliminated.
139. It is hardly a surprise then, that after two
and a half years of pronounced repression and the very
real risk that they would lose the entire Welfenschatz,
if not more, the Consortium sent word that it might be
“willing” to relent from the fair market value of the collection and sell it for 5 million RM—already far below
what all involved had acknowledged was its real value.
These “deliberations” were, of necessity, coerced and
under duress by virtue of the circumstances.
140. On April 10, 1935, Heilbronner spoke again
with Ritscher, who told him that Dresdner Bank “in
the name of its client,” was authorized to submit a bid
of 3.7 million RM for the Welfenschatz.

Supp. App. 53
141. Then, a new issue arose that threatened the
intended acquisition of the Welfenschatz, the “solution”
to which only underscores the coercive context of the
pending transaction.
142. In Herrenhausen bei Hannover (near the
City of Hannover, capital of the German federal state
Lower-Saxony), a new museum had been planned, and
it intended to seek to acquire the Welfenschatz. The
basic economics of the effect that this could have had
on the negotiations is clear: it presented the possibility
that a new, motivated bidder would enter the discussion willing to pay the fair market value, against which
Prussia’s lowballing would stand no chance in a real
negotiation.
143. Dresdner Bank, which was acting on behalf
of Prussia and which had also indemnified Heilbronner for his commissions, assured that it would
take appropriate action: The “authoritative entities”
were to be invited to review the plans at Herrenhausen
to ensure that there was no “conflict.” In other words,
the Nazis made it clear to the museum in Herrenhausen to cease its interest in buying the Welfenschatz
fairly.
144. Thus, in one final stroke the Nazi state and
its agents stripped away the last chance that the Consortium had to recover the value of its property.
145. After two years of direct persecution, of
physical peril to themselves and their family members,
and, on information and belief, secure in the knowledge
that any effort to escape would result in the certain

Supp. App. 54
seizure outright of the Welfenschatz, the Consortium
had literally only one option left.
146. Rosenberg submitted an offer valid until
May 4, 1935 under the most extreme duress: a sale
price of 4.35 million RM.
147. Dresdner Bank, still in its role as the “purchaser,” would not drop the ruse. It claimed that its “client” (i.e., the Nazi state itself ) was “traveling” and
could not yet respond to the offer, asking for another
16 days to respond. “However,” said the bank, “we believe it should be noted that the margin between the
price 3.7 million RM that you rejected, and your current demand, is so great that we fear that our client
will not increase his offer.”
148. Additional discussions ensued about the
proportion of the sales price that would be paid in cash,
and whether in local or foreign currency, and whether
in Germany, or elsewhere.
149. On May 17, 1935, Rosenberg made a final
offer on behalf of the Consortium. By early June, the
negotiations had progressed to the point that the acquisition of the Welfenschatz was considered all but
certain, such that Rust, as Reich Minister for Science,
Education and Culture, wrote to the Minister of Finance:
It is with great satisfaction that I welcome the
repurchase of the Welfenschatz, in connection
with the proposed acquisition of the art holdings of the Dresdner Bank. Its recovery for

Supp. App. 55
Germany gives the entire action its historic
value.
150. During the negotiations, Saemy Rosenberg
was staying at the Hotel “Fürstenhof ” at Potsdamer
Platz in Berlin. At this same time, S.A., Hitler Youth,
and non-party members were demonstrating against
Jewish shops daily, chanting, “do not buy from Jews!”
151. The same day—Friday, June 14, 1935—
when Saemy Rosenberg signed the sales contract in
Berlin, apparently in great haste and pushed by his
counterparts from Dresdner Bank—he sent a letter to
Dresdner Bank when he returned to the hotel, stating
that the contract should be regarded as legally valid,
even without the other owners having signed it at this
point. Furthermore, he promised to get all of the owners of the Welfenschatz to sign it properly by return.
152. On July 1, 1935, Saemy Rosenberg went to
the Kaiser Friedrich Museum in Berlin to view the
works of art in the collection, as the incorporation of
some existing works had come into the discussion for
the Welfenschatz negotiation.
153. A true and accurate copy of both the contract of June 14, 1935, and the letter of Saemy Rosenberg of June 14, 1935, are attached hereto as Exhibit 5
and Exhibit 6, respectively, followed by certified translations.
154. The surviving copy of the contract bears
four signatures only: of Saemy Rosenberg, Isaak

Supp. App. 56
Rosenbaum, Zacharias Max Hackenbroch and Julius
Falk Goldschmidt—the sole owners of the collection.
155. The tactics of the Nazi-Prussian state and
of Goering to get possession of the Welfenschatz under
“favorable conditions” thus proved successful, accomplished by means of terror and threat, relying on the
great imbalance of power of the contracting parties
and by pursuing a scheme of grave manipulative negotiation and a cover-up.
156. In mid-July, as the “deal” was being concluded, there were riots on Berlin’s Kurfürstendamm.
157. On July 18, 1935, the Welfenschatz, supervised by director Dr. Schmidt, was carefully packed in
Amsterdam for delivery to the Schlossmuseum in Berlin.
158. On July 19, 1935, Dresdner Bank made the
requisite payments pursuant to this document.
159. The agreed upon terms and conditions of
the contract of June 14, 1935 were to the unique benefit of the buyer, the Nazi state. Moreover, the Consortium was obligated to pay a commission of 100,000 RM
to Alfons Heilbronner out of their pockets (which enabled Heilbronner to pay back his debts he had with
Dresdner Bank to some extent). After the deduction of
that commission, the remaining purchase price of 4.15
million RM was split: 778,125 RM were paid to a “Sperrmark account,” a blocked account with Dresdner
Bank. To be offset against the credited money, the art
dealers had to accept art objects from the Berlin

Supp. App. 57
Museums instead of having access to freely dispose of
that money. The received works of art eventually were
sold in order to repay the Consortium’s foreign loans.
According to Hackenbroch, the selection of the pieces
from the museums to be delivered to them, and contrary to prior mutual agreement, was not made by the
art dealers, but ultimately by museums’ officials. They
were thus forced to accept other items in lieu of payment—not by choice—but at their risk of selling them
at appropriate prices (which was of course impossible
because of their persecution as Jews).
160. The balance, the amount of 3,371,875 RM,
was credited to three different bank accounts of
Hackenbroch in Germany.
161. The Consortium used that money to repay
the investors, the money lenders from 1929 in full, the
receipt of which is confirmed by German tax records.
This only diminished further the diluted value for
their property that the Consortium realized in this coercive transaction. Thus, the Consortium disposed of
the Welfenschatz at a significant loss relative to its
market value, when they had no longer had any alternative in Germany to earn a living.
162. By this time, Jews were denied not only to
transfer cash abroad legally, but any other receivables
of more than 50,000 RM. One of the massive obstacles
to emigration was the so-called flight tax on all emigrating nationals who had assets of more than 200,000
RM. While originally intended to discourage emigration in the Great Depression, it was used by the Nazi

Supp. App. 58
regime as a means simply to steal what Jews had left
as they fled for their lives.
163. Hackenbroch died on August 9, 1937, officially because of cardiac insufficiency.
164. Cleveland Museum of Art director William
M. Milliken (“Milliken”) traveled to Germany before
the war on a regular basis and had been well acquainted with the art dealers. In his autobiography, he
discussed the Consortium and the Welfenschatz.
165. Milliken left no doubt that the very possession of the Welfenschatz by the Consortium, and in
particular the decision to sell portions of the collection
in America, subjected the Consortium to specific antiSemitic vitriol.
166. Milliken also relates rumors he had heard
about Hackenbroch being “dragged to his death
through the streets of Frankfurt by a Nazi mob.”
167. In either event, Hackenbroch’s widow was
evicted from their house—on what had then been renamed, in the bitterest of ironies, “Hermann Goering
Ufer”—two months later so that the Hitler Youth could
use it. The last remnants of his gallery inventory came
to auction in December, and on December 30, 1937 the
firm was deleted from the commercial register and
simply ceased to be.
168. Clementine Hackenbroch, the widow of
Zacharias, emigrated in the summer of 1938 with her
daughter Irene to England. After 52,808 RM for flight
tax was extorted from her, and their accounts blocked

Supp. App. 59
at Deutsche Securities, and Exchange Bank, she had
no other property.
169. Lucie Ruth Hackenbroch (Philipp’s mother)
came under surveillance of the Gestapo and was herself stripped of her citizenship in humiliating fashion:
published under the swastika of the German Reichs
Gazette and Prussian Gazette. Almost as an afterthought, it is noted that all those on the list who have
been expelled have also had their property seized. One
can well imagine what would have happened to the
Hackenbroch and other families if the dealers had decided, given Goering’s role, to send all the remaining
items to USA to sell there?
170. Julius Falk Goldschmidt and the other
members of that firm tried to continue the company in
Berlin, Frankfurt and Amsterdam. He emigrated to
London in summer of 1936. His cousin Arthur Goldschmidt was later arrested in Paris, imprisoned in several camps, and emigrated in 1941 to Cuba, and then
in 1946 to the United States.
171. Saemy Rosenberg and Isaak Rosenbaum
had emigrated by 1935 from Germany. In Amsterdam,
the two founded the company Rosenbaum NV, which
was “Aryanized” by a German “manager” after the occupation of the Netherlands by Hitler’s army in 1940.
Saemy Rosenberg’s brother, Siegfried Rosenberg, ran
operations in Frankfurt as best he could until 1937,
when the company was liquidated and closed. After a
further reduction in the Rossmarkt where it had traditionally stood, it moved to a warehouse. On July 11,

Supp. App. 60
1938, this firm too—based in Frankfurt since the mid19th century—was deleted from the commercial register.
172. Saemy Rosenberg had to pay 47,815 RM in
Reich Flight Tax. Isaak Rosenbaum was expelled from
Germany and paid 60,000 RM, plus 591.67 RM in interest, to the tax office Frankfurt-Ost.
173. In an indication of what would have befallen Saemy Rosenberg had he and the Consortium
failed to capitulate, the coda to his Gestapo file was
written on May 2, 1941. In this confidential file memo,
Rosenberg, his wife, and his daughter Gabriele—
Leiber’s mother—are officially stripped of their citizenship and their property officially seized outright. See
Exhibit 4. To add insult to injury, Rosenberg is identified on the latter part of the form with “Israel” included
in his name, an appellation that the Nazi government
compelled all Jewish men to add to their names. Id.
174. Isaak Rosenbaum died on October 28, 1936
in Amsterdam.
175. Overall, the firm of I. Rosenberg and/or its
owners taxed in the amount of at least 219,497.57 RM,
for the sole and exclusive reason that they were Jews.
176. In August 1939 Saemy Rosenberg fled with
his wife and child from Amsterdam, the Netherlands,
via Mexico to the United States.

Supp. App. 61
The Aftermath
177. In the introduction to the new guide for the
Welfenschatz by Otto Kümmel, housed at the Berlin
Schlossmuseum in 1936, the matter is put bluntly:
“The Welfenschatz was recovered for Germany in the
summer of 1935 by the Prussian state government.”
The guide thanks Popitz, Rust, and Goering for their
particular efforts in “rescuing” the Welfenschatz. The
Consortium goes unmentioned.
178. Propaganda films were commissioned to
celebrate the acquisition.
179. On October 31, 1935, the Baltimore Sun reported that the Welfenschatz was to be given as a “surprise gift” for Hitler (emphasis added):
The bulk of the so-called Guelph Treasure,
which was purchased by the Prussian
Government for $2,500,000, will be presented to Adolf Hitler as a “surprise gift,” it
was disclosed here tonight.
The treasure includes an important collection
of church vessels and sacred relics, richly
studded with precious stones. Long owned by
the Dukes of Brunswick, the treasure was
purchased by a consortium of art dealers and
sold to the Prussian government. Gen. Hermann Wilhelm Goering, Premier of Prussia,
will preside at the ceremony at which the gift
to Hitler will be made.
180. A true and accurate copy of this article is
attached hereto as Exhibit 7. At the exchange rate of

Supp. App. 62
the day, the reported purchase price of $2,500,000, apparently being revealed to journalists at that time by
Nazi propaganda, would have been worth approximately 6-7 million RM—far more than what the Consortium actually was paid (before being further extorted
for those proceeds).
181. During the Second World War, the Welfenschatz was housed in the Berlin museums, and later
shipped out of the city to be saved from destruction and
robbery as the war turned against Germany. After the
war, it was seized by U.S. troops, then handed over in
trust to the State of Hesse.
182. The end of the war brought important
changes for Prussian institutions like the Berlin museums. Prussia had been long blamed for Germany’s
militarism in connection with two world wars.
183. After the war, the Allies had seen enough.
By joint act in 1945, the Freistaat Preussen was officially dissolved.
184. The SPK was created for the purpose, inter
alia, of succeeding to all of Prussia’s rights in cultural
property—including Prussia’s wrongfully acquired
possession of the Welfenschatz.
185. It is noteworthy that even the previous
owner of the Welfenschatz up to 1929, the Duke of
Brunswick-Lüneburg, later on, in the 1960s, claimed
that the SPK, because of the tainted sale of 1935, was
not to be legally entitled to the collection, but the art
dealers were.

Supp. App. 63
The Sale of the Welfenschatz Under Duress in
1935 was a Taking of Property in Violation of International Law
186. Since World War II, a presumption of international law has been that any sale of property by a
Jew in Nazi Germany after January 30, 1933, or in any
country occupied by Nazi Germany carries a presumption of duress and thus entitled to restitution.
187. This is for the basic reason, as demonstrated by the foregoing, that no Jewish citizen or resident of Germany could possibly have entered into an
arms’-length transaction with the Nazi state itself.
188. In addition, the Consortium faced specific
threats of violence and, on information and belief, surveillance and intimidation by the Gestapo.
189. Altogether, the economic and physical threats
faced by the members of the Consortium made the 1935
sale a transaction under duress, and thus void. Viewed
conversely, the 1935 transaction would be valid only if
Jews in 1935, in Germany, under economic and physical peril, were free to make an arms’-length bargain
with the Nazi state itself. Only to state the premise is
to reveal its absurdity, and the invalidity of the 1935
transaction.
190. According to international principles of law,
German law—German Civil Code (“BGB”) included—
the tainted and voidable acquisition of the Welfenschatz by the Nazi Prussian State in 1935 did not convey good title to Germany and SPK.

Supp. App. 64
191. A bona fide acquisition of unlawfully expropriated or otherwise lost cultural goods according to
§ 935 BGB is prohibited within the Common law legal
system—according to the nemo dat quod non habet
principle as well as with the codified German Civil
Law, according to § 935 BGB.
192. If the res in question has been stolen or lost,
then bona fide acquisition according to § 932 BGB et
seq. is not available (§ 935 BGB). The idea behind this
limitation is that the owner has not parted with his
direct possession deliberately, so that a third person
shall not have the benefit of the appearance of entitlement through possession under such circumstances.
193. Any sale by the victims of the Nazi regime
after January 30, 1933 that were under duress are
void, with effect ex tunc within the meaning of § 138
BGB. This is because, inter alia, the transaction would
not have been conducted absent the coercive rule of
National Socialism. Any acquisition of such cultural
objects cannot be considered a bona fide purchase in
accordance with § 935 BGB.
194. Such objects whose sale is to be regarded as
void under § 138 BGB, fall under the category of § 935
para. 1 BGB and apply as “lost” under German law.
195. As a result, any claimant, whose claim meets
the aforementioned requirements, generally speaking,
has a claim for restitution, according to § 985 BGB.

Supp. App. 65
The Sham Process by the Limbach Commission,
and Germany’s Refusal to Honor its International Commitments to Victims of Nazi Looting
Constitutes a Second Taking in Violation of International Law
196. In 1998, the United States Department of
State organized and hosted the Washington Conference on Holocaust Era-Assets (the “Washington Conference”).
197. The Washington Conference resulted in
what have become known as the Washington Conference Principles on Nazi-Confiscated Art. Germany was
a key participant, along with Austria, France, the
United States, and dozens of other nations. The Washington Principles state:
In developing a consensus on non-binding
principles to assist in resolving issues relating
to Nazi-confiscated art, the Conference recognizes that among participating nations there
are differing legal systems and that countries
act within the context of their own laws.
1) Art that had been confiscated by the Nazis and not subsequently restituted should be
identified.
2) Relevant records and archives should be
open and accessible to researchers, in accordance with the guidelines of the International
Council on Archives.
3) Resources and personnel should be made
available to facilitate the identification of all

Supp. App. 66
art that had been confiscated by the Nazis and
not subsequently restituted.
4) In establishing that a work of art had
been confiscated by the Nazis and not subsequently restituted, consideration should be
given to unavoidable gaps or ambiguities in
the provenance in light of the passage of time
and the circumstances of the Holocaust era.
5) Every effort should be made to publicize
art that is found to have been confiscated by
the Nazis and not subsequently restituted in
order to locate its pre-War owners or their
heirs.
6) Efforts should be made to establish a central registry of such information.
7) Pre-War owners and their heirs should be
encouraged to come forward and make known
their claims to art that was confiscated by the
Nazis and not subsequently restituted.
8) If the pre-War owners of art that is found
to have been confiscated by the Nazis and not
subsequently restituted, or their heirs, can be
identified, steps should be taken expeditiously
to achieve a just and fair solution, recognizing
this may vary according to the facts and circumstances surrounding a specific case.
9) If the pre-War owners of art that is found
to have been confiscated by the Nazis, or their
heirs, can not be identified, steps should be
taken expeditiously to achieve a just and fair
solution.

Supp. App. 67
10) Commissions or other bodies established
to identify art that was confiscated by the Nazis and to assist in addressing ownership issues should have a balanced membership.
11) Nations are encouraged to develop national processes to implement these principles, particularly as they relate to alternative
dispute resolution mechanisms for resolving
ownership issues.
198. The restitution encouraged by the Washington Principles is, and has been for more than 15 years,
the foreign policy of the United States. The United
States Supreme Court, as well as the Courts of Appeal
of the United States, have recognized that proceedings
in furtherance of that goal such as this one are entirely
consistent with that policy.
199. In addition, Germany is a signatory to the
Washington Principles. On December 9, 1999, the Federal Republic itself, the 16 Länder, and the association
of local authorities issued a declaration of adherence to
the Washington Principles, entitled the “Erklärung der
Bundesregierung, der Länder und der kommunalen
Spitzenverbände zur Auffindung und zur Rückgabe
NS-verfolgungsbedingt entzogenen Kulturgutes, insbesondere aus jüdischem Besitz” vom 9. Dezember 1999
(the “Collective Declaration”).
200. The Collective Declaration commits to the
restitution of Nazi-looted artworks, notwithstanding
any other wartime claims compensation or restitution
by Germany or the Allies and, consistent with postwar

Supp. App. 68
Allied Military Government law, without distinguishing according to whether or not Nazi-looted assets had
been robbed, stolen, confiscated, or had been sold under duress or by pseudo-legal transaction.
201. In 2009, the Czech Republic hosted a followup to the Washington Conference (the “Prague Conference”). Representatives of some 49 countries, most of
which were affected by Nazi crimes during World War
II, and nearly two dozen NGOs were invited to attend.
The Conference focused on immovable (real) property,
Nazi-looted art, Holocaust education and remembrance, archival access, and the recovery of Judaica. In
addition, there was a session on the social welfare
needs of survivors of Nazi persecution, an issue of
great importance to the United States.
202. The Prague Conference resulted in the Terezin Declaration, which states, with respect to Nazistolen art:
Recognizing that art and cultural property of
victims of the Holocaust (Shoah) and other
victims of Nazi persecution was confiscated,
sequestered and spoliated, by the Nazis, the
Fascists and their collaborators through various means including theft, coercion and confiscation, and on grounds of relinquishment as
well as forced sales and sales under duress,
during the Holocaust era between 1933-45
and as an immediate consequence, and
Recalling the Washington Conference Principles on Nazi-Confiscated Art as endorsed at
the Washington Conference of 1998, which

Supp. App. 69
enumerated a set of voluntary commitments
for governments that were based upon the
moral principle that art and cultural property
confiscated by the Nazis from Holocaust
(Shoah) victims should be returned to them or
their heirs, in a manner consistent with national laws and regulations as well as international obligations, in order to achieve just
and fair solutions,
1) We reaffirm our support of the Washington Conference Principles on Nazi-Confiscated
Art and we encourage all parties including
public and private institutions and individuals to apply them as well,
2) In particular, recognizing that restitution
cannot be accomplished without knowledge of
potentially looted art and cultural property,
we stress the importance for all stakeholders
to continue and support intensified systematic provenance research, with due regard to
legislation, in both public and private archives, and where relevant to make the results of this research, including ongoing
updates, available via the internet, with due
regard to privacy rules and regulations.
Where it has not already been done, we also
recommend the establishment of mechanisms
to assist claimants and others in their efforts,
3) Keeping in mind the Washington Conference Principles on Nazi-Confiscated Art, and
considering the experience acquired since the
Washington Conference, we urge all stakeholders to ensure that their legal systems or

Supp. App. 70
alternative processes, while taking into account the different legal traditions, facilitate
just and fair solutions with regard to Naziconfiscated and looted art, and to make
certain that claims to recover such art are resolved expeditiously and based on the facts
and merits of the claims and all the relevant
documents submitted by all parties. Governments should consider all relevant issues
when applying various legal provisions that
may impede the restitution of art and cultural
property, in order to achieve just and fair solutions, as well as alternative dispute resolution, where appropriate under law.
203. Pursuant to the Washington Principles, the
Terezin Declaration, United States law, German law,
and international law, the 1935 sale of the Welfenschatz was not an arms’-length transaction and must
be considered a transfer of property under duress, a
transfer that could not have passed, and that did not
pass legitimate title to the SPK.
204. Pursuant to the Washington Principles, the
Terezin Declaration, United States law, German law,
and international law, Germany has committed to address victims of art looting in a fair and equitable manner.
205. Germany itself has acknowledged these
principles—but only when it suits. In 2003, Germany
created the “German Advisory Commission for the
Return of Cultural Property Seized as a Result of
Nazi Persecution, Especially Jewish Property,” (Die

Supp. App. 71
Beratende Kommission für die Rückgabe NS-verfolgungsbedingt entzogener Kulturgüter, insbesondere
aus jüdischem Besitz) better known as the “Limbach
Commission” for its presiding member, former German
Supreme Constitutional Court judge Jutta Limbach
(“Limbach” or the “Advisory Commission”). The Advisory Commission is a non-binding mediation that issues recommendations to German state museums, but
its decisions have no preclusive effect.
206. In one of its first decisions, Limbach considered a claim for restitution from the collection of Julius
and Clara Freund, German Jews who were persecuted
as such. After Julius died in his British exile in 1941,
Clara sold their collection in desperation in Switzerland. Both the owner and the artwork were outside of
Nazi Germany (United Kingdom and Switzerland), a
far more secure place than Amsterdam in 1935, and
they were paid a near-market price. Yet the larger picture was clear, and the Limbach Commission recommended restitution for a collection that was clearly
sold under duress.
207. Austria also has a commission for the restitution of Nazi-looted art, and is bound by the same
principles. By way of example, Austria restituted 177
botanical drawings and prints to the heirs of Dr. Ernst
Moritz Kronfeld in 2014. Even though the commission
could not determine with certainty how the prints had
passed from Kronfeld to Baldur von Schirach, another
high-level Nazi and Gauleiter of Vienna, the point was
that in such a case it does not really matter:

Supp. App. 72
These questions can be left open, because the
sale by either Dr. Kronfeld or his widow would
have been sales by persons in a persecuted
group, and would also be void as an appropriation. . . .
208. Germany has a unique historical responsibility to victims of the Holocaust, which it has gone to
great lengths to accept in other contexts.
209. The attitude towards looted artworks in
German museums remains, regrettably, an exception
to Germany’s otherwise laudable approach to confronting history.
210. Despite the creation of the Advisory Commission, despite the Collective Declaration and other
measures ostensibly pursuant to the Washington Principles, Germany today still has no coherent policy towards victims of Nazi-looted art.
211. The World Jewish Congress and other victims’ representatives, groups and nongovernmental
organizations (“NGOs”), share this view and have repeatedly expressed their concern about it.
212. At best, the Advisory Commission serves as
a non-binding mediation process. German museums
are not obliged to accept its recommendations, and the
Advisory Commission itself is not actually independent. It is not an arbitration, and it does not adjudicate
rights in property.
213. At worst, Germany portrays the Advisory
Commission as a solution to this inadequacy, to give

Supp. App. 73
cover to the idea that Germany is in compliance with
the Washington Principles.
214. The international scandal of the Cornelius
Gurlitt (“Gurlitt”) affair beginning in 2013 has given
the lie to this notion. Gurlitt’s father Hildebrand was
an art dealer authorized in the Nazi state to buy and
sell so called “degenerate art,” which was considered
contraband in the hands of anyone else.
215. In 2013 it was revealed that Germany had
seized approximately 1,280 works of art from Cornelius Gurlitt as part of a tax investigation on suspicion that it was looted.
216. Since that time (the revelation itself by a
newspaper was nearly two years after the artwork was
found and held in secret), Germany has failed to adopt
any new policies or laws. The State of Bavaria reached
a private agreement with Cornelius Gurlitt shortly before he died in May, 2014, an agreement whose terms
have still never been revealed.
217. That agreement appointed a Task Force to
examine the Gurlitt collection, but Germany has not
even followed the public recommendations of that Task
Force. Instead, it has continued to resist restitution
even of artworks that the Task Force recommended be
restituted. On information and belief, the Task Force
has made only five recommendations public, and Germany has restituted only two of those five works to
their rightful owners. On information and belief, the
Task Force ceased to exist on December 31, 2015.

Supp. App. 74
218. A November, 2014 agreement with the named
heir of Gurlitt, the Kunstmuseum Bern in Switzerland,
has provided the public with some information, but the
process remains opaque notwithstanding the selfcongratulatory publicity that surrounded it.
219. Worse, the chairwoman of the Advisory
Commission herself took the occasion to argue that
German museums are the victims in the whole affair.
This episode is telling on the perspective of German
authorities to looted art: Jewish victims can wait, but
German museums should be made whole.
220. In the absence of meaningful recourse, but
in an interest to reach agreement on the Welfenschatz,
the plaintiffs submitted their claim (on behalf of themselves and as empowered by, inter alia, the assignments attached hereto as Exhibit 8) to the Advisory
Commission and presented conclusive evidence of the
foregoing aspects of early Nazi terror and duress.
221. Despite these internationally accepted principles and precedents (among many others), the Advisory Commission failed to recommend the restitution
of the Welfenschatz.
222. In what was, on information and belief,
politically-motivated decision—ironically a desire to “save
the Welfenschatz” that mirrors the one that animated
its plunder 70 years ago—the Advisory Commission
turned a blind eye to the desperate circumstances of
the Consortium, and to the active manipulation and
interference by the highest levels of the Prussian-Nazi
state.

Supp. App. 75
223. Most importantly, the Advisory Commission
accepted the persecution of the Consortium as fact, but
ignored the governing presumption of law—that as
Jews, any sale was under duress. The SPK and its attorneys concede this presumption. The SPK presented
no evidence to the contrary to rebut the internationallyrecognized presumption of duress. By definition, the
Advisory Commission should have recommended restitution without any further deliberation.
224. Instead, the Advisory Commission endeavored to re-write history with no mandate to do so. The
Advisory Commission acknowledged that the art dealers were persecutees, and as such, were subject to a
hostile market environment that pervaded the Reich
at that time. More particularly, the Advisory Commission heard from five experts who established the context surrounding the sale at issue by showing (i) the
actual market value of the collection in 1935; 11.6 Million RM; (ii) the law applicable to the sale; (iii) the historical background which supports the claim that the
sale in issue was coercive and made under duress—
and certainly cannot be characterized as one governed
by free will and free choice in an open market; and
(iv) the art dealers were the sole owners of the collection.
225. Neither the qualifications nor credibility of
these experts were challenged. As such, the SPK did
not carry its burden of showing why these experts
should not be accepted nor rebuts their conclusions.

Supp. App. 76
226. The experts in the Welfenschatz case have
devoted their academic careers to studying and understanding this period and have gained an insight that
is unchallenged.
227. Nonetheless, the Advisory Commission did
not incorporate the uncontested findings of these experts into the recommendation, issued on March 20,
2014. This challenges the important role and assistance they contributed to the process, a role that
should be encouraged. Ignoring the experts entirely in
an otherwise detailed opinion undermines the credibility of the report by the Advisory Commission. It also
leaves future claimants to wonder how claims are to be
supported so that the Advisory Commission can reach
reasoned and non-arbitrary results.
228. It also is telling that, having had ample
time to gather its own evidence to rebut this expert
testimony, the SPK before the Advisory Commission
neither challenged these experts nor offered their own
expert testimony. Put another way, the SPK could not
produce anyone who could testify to the fairness of this
transaction. Indeed, to the contrary, the SPK accepted
the qualifications and testimony of the plaintiffs’ experts.
229. Moreover, the defendants are likely the custodians of additional relevant documents, but failed to
produce them in the course of the Advisory Commission’s work. These documents likely include further
correspondence among Nazi functionaries, Gestapo

Supp. App. 77
files, and photographic evidence. These have been concealed from the plaintiffs.
230. Under these circumstances, this testimony
must be given some weight which must form part of its
decision if that decision is to be seen as reasoned and
consistent with established principles of law, e.g., § 286
Abs. 1 ZPO (German Civil Code of Procedure).
231. The recommendation against restitution of
the Welfenschatz was also inconsistent with other
prior decisions of the Advisory Commission.
232. As referenced above, in the Freund case the
Advisory Commission held that victims of Nazi persecution, financially strained, who had long since fled
Nazi Germany with their art collection and sold it in
Switzerland, should nevertheless recover their paintings, even though both the paintings and the people
were abroad and a fair price was paid.
233. By contrast, in the Welfenschatz case, the
victims of Nazi persecution were still in Germany at
the time of the coerced sale. They were Jews living under dire conditions under the swastika. They were
forced to experience the destruction of their livelihoods
through sanctions by the Nazi state, which was engineering a retaking of the Welfenschatz. The expert
opinions overwhelmingly support this conclusion.
234. The recommendation by the Advisory Commission lacks any explanation as to why the Panel—
consistent with their previous assumptions and approved standards of review—excludes and denies a fair

Supp. App. 78
and just resolution in the Welfenschatz case, in accordance with their own established standards.
235. The SPK and Germany refuse to provide
justice to the plaintiffs, based on what must be seen as
questionable findings by the Advisory Commission, obtained in a questionable, non-binding proceeding, using questionable standards.
236. On information and belief, the answer is in
fact very simple: the German government simply does
not wish to relinquish the Welfenschatz, no matter how
ill-gotten it is.
237. In so doing, Germany has turned its back on
its historic responsibility. This is particularly disappointing given Germany’s decades-long and admirable
confrontation with its wartime past. Sadly, Nazi-looted
art in German state institutions remains a blind spot
and justice is not served.
238. By contrast, at the Länder level in Germany
the compensable persecution of these very members of
the Consortium has been recognized and been grounds
for restitution. In 2015, the Staatsgalerie Stuttgart
agreed to return Bildnis Pfalzgraf Johann III (Portrait
of Elector-Palatine Johann III), ca. 1526, by Hans
Wertinger to the heirs of Saemy Rosenberg and Rosenbaum.
239. Rosenbaum and Saemy Rosenberg sold the
Wertinger in 1936, but the proceeds were paid into a
Nazi-blocked account—just as part of the proceeds for
the Welfenschatz were. In assessing the claim to the

Supp. App. 79
Wertinger, Baden-Württemberg (which administer the
Staatsgalerie Stuttgart) state secretary Jürgen Walter
said, “We stand by our historic responsibility to identify and return cultural goods expropriated from those
persecuted by the Nazi regime.” Baden Württemberg
had little trouble acknowledging the Wertinger “sale”
for what it is: a coerced transaction of looted art. That
fact—and that fact alone—mandated restitution, just
as it does with the Welfenschatz.
240. By contrast, the Advisory Commission continues to demonstrate it does not understand the core
issues of Nazi repression in the 1930s, or worse, outright denies them. In March, 2015, the Advisory Commission again recommended against restitution to the
heirs of a Jew persecuted in the 1930s. George Eduard
Behrens, a Hamburg banker, owned Pariser Wochentag
(Paris Weekday) by Adolph von Menzel, and sold the
painting—also in 1935.
241. Yet despite being subject to the codification
of the Nazi racial philosophy, the Advisory Commission
continued to advance its Potemkin Village version of
life in Nazi Germany:
It is, however, undisputed in the historical record that Jewish private banks in the early
years of the Third Reich were not directly affected.
242. This statement is categorically false and a
violation of Germany’s historic responsibility to victims of the Holocaust after 1933.

Supp. App. 80
243. For present purposes, this is the deliberative body on whose decision Germany bases its retention of the Welfenschatz.
244. In its most recent decision as of the filing of
this First Amended Complaint, the Advisory Commission has continued this trend.
245. The Advisory Commission was presented
with a claim by the heirs of Berlin Jewish publisher
Ludwig Traube for Still Life with Fruit Basket: Pumpkin, Melons, and Cherries on an Oak Tree by Abraham
Mignon. The painting was auctioned by Traube’s
widow in Berlin in 1935. The heirs pointed to the “Aryanization” of the publishing company in 1933 as evidence that the sale was the result of financial peril
occasioned by persecution.
246. In its November 30, 2015 recommendation,
Advisory Commission conceded the point of persecution, but still did not recommend restitution. Rather, it
invented a fraction of the value and recommended that
the museum in possession pay the heirs that sum.
247. Taken as a whole, this trend confirms that
the Advisory Commission is not, and cannot be held up
as, a “fair and just solution” that Germany agreed to
provide under the Washington Principles and the Collective Declaration beyond a rote recitation of the
phrase when it is doing just the opposite.
248. Lastly, the SPK itself recently conceded this
inadequacy. On information and belief, in a speech to
the newly-opened Deutsches Zentrum Kulturgutverluste

Supp. App. 81
(German Center for Cultural Property Losses) operated by the German state, SPK President Dr. Parzinger
proposed material changes to the Advisory Commission. According to a report by the Commission for
Looted Art in Europe, Dr. Parzinger proposed the following:
1. That the Commission should also act if it
is called upon by only one of the two parties to
a dispute. Currently it only acts if both sides
agree.
2. That the administration of the Commission should be carried out by an independent
secretariat and not the DZK. This must probably be seen in the context that the DZK’s
task is to advise e.g. museums when they are
confronted with claims, but at a later state
may have to act for the Commission which
should be neutral. Also the heir of the collector Hans Sachs recently questioned the neutrality of the Commission in a law suit at the
Magdeburg Administrative Court. He said
that the Koordinierungsstelle, a for[e]runner
of the DZK, had originally advised the Deutsches
Historisches Museum, assisting it on how to
handle the restitution claim, while it later, in
2008, acted as the secretariat of the Commission which decided on the claim.
3. That there should be transparency, primarily in connection with the research of museums, as many currently do not publish their
findings if they come to the conclusion that a
work was not lost due to Nazi persecution. This may also relate to the Limbach

Supp. App. 82
Commission which is currently denying the
Sachs heir access to the files of the 2008 procedure, and which is the cause for the current
court case in Magdeburg.
4. That the Commission should have procedural rules like any arbitration body.
5. That a representative of a Jewish organisation be on the Commission.
249.

According to the same report, Dr. Parzinger:

[A]lso stressed, like the German Cultural
Minister Monika Grütters the day before, that
there should be no doubt that the persecution
of Jews in Germany started in 1933. This was
apparently a reaction to criticism by Holocaust historians concerning a remark in a
brief to a US Court related to the Guelph
Treasure and to the publication [ ] of an English translation of the Commission’s Recommendation in the case of Behrens v. Düsseldorf in
which the Advisory Commission had held that
Jewish bankers had not been persecuted and
had unimpaired access to the courts till mid
1935.
Parzinger also [emphasized] that German cultural institutions confronted with claims
must show (in cases of allegedly forced sales)
that the price paid to a persecuted person was
fair and that the persecuted person actually
received the money at his/her free disposal,
the implication being, contrary to the Behrens
decision made by the Commission, that the work
of art be considered looted if both conditions

Supp. App. 83
are not met. In its recommendation the Commission also deviated from the policies set out
in the ‘Handreichung’, first issued in Germany in 2001.
*

*

*

CAUSES OF ACTION
Count I—Declaratory Relief
250. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-230 as
though fully set forth herein.
251. An actual case or controversy has arisen between and among the Plaintiffs, the SPK, and Germany, as to the ownership of the Welfenschatz.
252. The Defendants have wrongfully detained
the Welfenschatz and have refused to provide restitution to the Plaintiffs.
253. Plaintiffs are entitled to a declaratory judgment decreeing that they are the owners of the Welfenschatz and directing the Defendants to return the
Welfenschatz to the Plaintiffs.
254. Plaintiffs are further entitled to a declaratory judgment decreeing that their right, title, and
ownership in the Welfenschatz is superior to any held
by either the SPK, Germany, or both.

Supp. App. 84
Count II—Replevin
255. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-235 as
though fully set forth herein.
256. The defendants have deprived the plaintiffs
of their rightful property, the Welfenschatz.
257. The plaintiffs are entitled to the replevin of
the Welfenschatz in the possession of the SPK.
Count III—Conversion
258. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-238 as
though fully set forth herein.
259. The Welfenschatz is the rightful property of
the plaintiffs, as heirs and/or successors in interest of
the Consortium.
260. The SPK and Germany exercise unlawful
control and dominion over the plaintiffs’ property: the
Welfenschatz.
261. Despite lawful demand for the return of the
Welfenschatz, defendants SPK and Germany have refused to return the plaintiffs’ property.
262. Plaintiffs have been damaged by the defendants’ conversion in an amount to be determined at
trial, but in any event not less than the value of the
Welfenschatz, which by conservative estimates exceeds $250,000,000.

Supp. App. 85
Count IV—Unjust Enrichment
263. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-243 as
though fully set forth herein.
264. The SPK has wrongfully possessed the
Welfenschatz for decades.
265. The SPK has used the Welfenschatz in commerce in the United States and/or outside the United
States having an effect within the United States
within the meaning of 28 U.S.C. § 1605(a)(2) and clarified in OBB Personenverkehr v. Sachs as a significant
attraction and source of revenue.
266. The SPK’s use of the Welfenschatz in this
manner has unjustly enriched the SPK and Germany.
267. The SPK should disgorge to the plaintiffs
the amounts by which it has been unjustly enriched, in
an amount to be determined at trial.
Count V—Fraud in the Inducement
268. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-248 as
though fully set forth herein.
269. The negotiations leading to the “sale” of the
Welfenschatz were a sham orchestrated by the Prussian government and high-ranking Nazis through the
Dresdner Bank.

Supp. App. 86
270. The representations that led to the execution of the 1935 contract, including but not limited to
the existence of other interested buyers and the true
identity of the party in interest—the Nazi state—were
knowingly false when made.
271. The Consortium reasonably relied on those
false statements to their detriment.
272. As a result of the fraud perpetrated by the
Prussian government and the Dresdner Bank, the
Consortium was damaged.
273. As a remedy for the fraud in the inducement, the plaintiffs, as successors in interest to the
Consortium, are entitled to rescission of the 1935 contract and to the return of the Welfenschatz in its entirety from the defendants, the successors in interest
to Prussia and the German Reich.
Count VI—Breach of Fiduciary Duty
274. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-254 as
though fully set forth herein.
275. As a result of the inequitable and genocidal
conduct of the defendants’ predecessors-in-interest,
the Consortium was deprived of its property.
276. When Nazi Germany was defeated, the defendants succeeded to the interests of Prussia and
Nazi Germany.

Supp. App. 87
277. By virtue of the political reorganization of
Germany, Germany’s international committments, the
Washington Principles, the Terezin Declaration, and/or
the Collective Declaration, a trust—express, implied,
or constructive—arose for the benefit of the Consortium and its heirs and/or successors in interest: the
plaintiffs.
278. As trustees of that trust, the defendants
owe the plaintiffs a duty of absolute good faith and
against self-dealing,
279. The defendants have breached that fiduciary duty by refusing to restitute the Welfenschatz to
the plaintiffs and by otherwise enriching themselves
at the plaintiffs’ expense through the use of trust property.
280. The plaintiffs have been damaged by the defendants’ breach of fiduciary duty in an amount to be
determined at trial, but in any event not less than the
value of the Welfenschatz, which by conservative estimates exceeds $250,000,000.
Count VII—Breach of the Covenant
of Good Faith and Fair Dealing
281. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-261 as
though fully set forth herein.
282. The 1935 agreement constituted an enforceable contract.

Supp. App. 88
283. Every contract has an implied term of good
faith and fair dealing.
284. Throughout the negotiations leading to the
“sale,” the state of Prussia—of which the SPK is the
direct successor—and the German Reich—of which
Germany is the successor—were engaged in coercive
efforts to eliminate competition and any possibility of
an arms’-length transaction.
285. These actions, combined with the pretense
of a straw man through the Dresdner Bank, violate the
covenant of good faith and fair dealing.
286. As a result of this violation of the good faith
and fair dealing by the defendants’ predecessors-ininterest, the Consortium was damaged. By extension,
the plaintiffs, as the Consortium’s successors in interest, have been damaged in an amount to be determined
at trial, but in any event not less than the value of
the Welfenschatz, which by conservative estimates exceeds $250,000,000.
Count VIII—Civil Conspiracy
287. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-267 as
though fully set forth herein.
288. Prussia and Germany conspired to deprive
the Consortium of the benefits and protections of the
Welfenschatz in and before 1935.

Supp. App. 89
289. Since 1935, the SPK and Germany have, at
various times, conspired to deprive the plaintiffs of the
benefits and protections of the Welfenschatz.
290. This conspiracy was conducted for an illegal
purpose—including but not limited to the concealment
of the real facts surrounding the acquisition of the
Welfenschatz and through illegal means—the indisputable horrors of Nazi Germany.
291. The defendants, as the legal successors to
the original conspirators, have continued that conspiracy to this day.
292. By virtue of this conspiracy, the plaintiffs
have been damaged in an amount to be determined at
trial, but in any event not less than the value of the
Welfenschatz, which by conservative estimates exceeds $250,000,000.
Count IX—Bailment
293. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-273 as
though fully set forth herein.
294. For decades after the war, the true facts of
the conspiracy behind the plot to acquire the Welfenschatz for Hitler were unknowable.
295. Since the revelation of long secret documents, the plaintiffs have been engaged in negotiations with the SPK concerning the restitution of the
Welfenschatz.

Supp. App. 90
296. As a result of those negotiations, an implied
bailment arose pending resolution of the dispute over
title to the Welfenschatz.
297. After negotiations failed, the plaintiffs demanded the return of the Welfenschatz in 2014 and the
SPK refused.
298. As a result of the defendants’ breach of
this implied bailment, the plaintiffs have been damaged in an amount to be determined at trial, but in
any event not less than the value of the Welfenschatz, which by conservative estimates exceeds
$250,000,000.
Count X—Tortious Interference
299. The Plaintiffs restate and incorporate by
reference the allegations in Paragraphs 1-279 as
though fully set forth herein.
300. The Consortium had prospective contracts
for the sale of the Welfenschatz with private buyers in
Berlin and Hannover, among others.
301. The State of Prussia and Germany know of
those prospective contracts.
302. The State of Prussia and Germany interfered with those prospective relationships for wrongful
motives—anti-Semitism—and through wrongful means
—the violent and dangerous treatment of Jews in Nazi
Germany.

Supp. App. 91
303. The current defendants are the successors
in interest to the State of Prussia and Nazi Germany
with regard to the foregoing.
304. As a result of the foregoing tortious interference, the plaintiffs have been damaged in an amount
to be determined at trial, but in any event not less than
the value of the Welfenschatz, which by conservative
estimates exceeds $250,000,000.
PRAYERS FOR RELIEF
WHEREFORE, the plaintiffs respectfully request
that the Court:
A) Enter judgment on all counts in favor of
the plaintiffs; and
B) Order the defendants to return the objects known as the Welfenschatz to the plaintiffs forthwith; and/or
C) Order the defendants to pay the plaintiffs
a sum of $250,000,000 or such higher amount
as the Court deems just; and
D) Order the defendants to pay the plaintiffs
their reasonable attorneys’ fees; and

Supp. App. 92
E) Enter such other and further relief as is
just and proper under the circumstances.
January 14, 2016

SULLIVAN & WORCESTER LLP
/s/ Nicholas M. O’Donnell
Nicholas M. O’Donnell
(DC Bar No. 1011832)
One Post Office Square
Boston, Massachusetts 02109
Telephone: (617) 338-2800
Facsimile: (617) 338-2880
Email: nodonnell@sandw.com
Attorneys of record for plaintiffs
Alan Philipp, Gerald G. Stiebel,
and Jed R. Leiber

Supp. App. 93
[LOGO]
juristische | fakultät
Gottfried Wilhelm Leibniz University Hanover
School of Law
Chair for Civil Law and Legal History
Prof Dr. Stephan Meder
Königsworther Plat. 1
30167 Hanover/Germany
Institute for German
and European Private
Law and Business Law
Chair for Civil Law
and Legal History
Tel.: +49 511 762 8184
Fax +49 511 762 8202
Administrative Assistant:
Ms. Ina Krückeberg
04.22.2016
Visitor address:
Königsworther Platz 1
30167 Hanover/Germany
www.jura.unihannover.de
Operator:
Expert Opinion by
Prof. Dr. Stephan MEDER
A. Qualifications and assignment
I.

I am a tenured professor for private law and legal
history at Leibniz University Hanover. I have published extensively in various fields of private law
and am the editor of a leading publication on

Supp. App. 94
banking and capital market law. I am also a legal
historian. As such, I have studied the historical developments of private law, that is to say both before and also after the German codification of 1900
(“German Civil Code” [Bürgerliches Gesetzbuch] –
hereinafter called “BGB”) went into effect. In connection with this, I have also examined societal legal topics and issues that address problems
related to the illegal Nazi state and political totalitarianism. In addition to my academic activities,
I was also active as a legal expert on behalf of the
German Government and on behalf of the German
Parliament [Deutscher Bundestag] in connection
with projects on legal reform. My curriculum vitae
is found together with a list of publications in the
attachments.
II. I have been retained by plaintiff ’s attorneys to
prepare an expert opinion for the plaintiff for a
case presently pending before the United States
District Court for the District of Columbia, Philipp
v. Fed. Rep. of Germany, No. 15-cv-00266. My understanding is that defendants dispute that there
is a claim for returning a collection of medieval artifacts referred to as “Welfenschatz”.
In preparation for my expert opinion, I reviewed
plaintiffs complaint – First Amended Complaint
(FAC). In addition, I reviewed defendant’s Motion
to Dismiss and the appraisal by the German legal
experts retained by defendant, in particular the
Armbrüster declaration dated March 4, 2016
(“Armbrüster Expert Opinion”) and the Thiessen
declaration dated March 7, 2016 (“Thiessen Expert Appraisal”).

Supp. App. 95
III. I was asked to respond to the following questions
associated with this legal dispute:
1)

Relying on the allegations in the First Amended
Complaint, did the Consortium of art dealers described therein have any separate legal existence
under German law?

2)

If not, who owned the “Welfenschatz” between
1929 and 1935 under German law?

3)

Regardless of the answer to these questions (1, 2),
do the plaintiffs in this case, Alan Philipp, Gerald
Stiebel, and Jed Leiber, have standing to bring
their claims under German law?

IV. My assumption is that regarding the facts underlying the case, I can only address the claims stated
in the complaint (“First Amended Complaint”,
FAC) and its attachments. This means that even if
several claims are subsequently shown to be false,
I am required to assume these to be truthful at
this stage of the litigation. It goes without saying
that my replies may have been different if individual claims are shown to be false. My remuneration
is in no way linked to the outcome of the litigation.
B. Regarding the question of whether the
Consortium of art dealers had any separate
legal existence under German law
I.

“Consortium” term
A “Consortium” (from Latin consortium) is defined
as a temporary association of several natural or
legal persons that remain legally and economically independent, in particular of companies or

Supp. App. 96
business persons, for the purpose of executing a
closed-ended, agreed-upon, limited economic objective; these are also in many cases limited to the
implementation of one or a limited number of individual transactions on joint account. Consortiums are typically formed when the contract value
or the transaction volume are too large for an individual company and/or an individual business
person
(see www.duden.de under “Konsortium”; Ulmer/
Schäfer in: Münchener Kommentar [Munich
Commentary], BGB, 6th edition 2013, before
Section 705 margin note 51 and margin note
58 for the example case of a large loan; see for
the case of loan consortiums Hadding in:
Schimansky/Bunte/ Lwowski, BankrechtsHandbuch [Banking Law Handbook], Vol. II,
2nd edition 2001, Section 87 margin note 24).
Currently, for example, the international media
enterprises and groups of journalists that uncovered the scandal surrounding the formation of
questionable shell companies in Panama and that
are jointly commercializing the information, are
referred to as consortiums (see Frankfurter Allgemeine Zeitung dated April 9, 2016, p. 19).
The case in question involves a consortium between the art dealerships J. Rosenbaum, Z. M.
Hackenbroch and J. & S. Goldschmidt, which had
collaborated to execute an individual transaction,
that is to say buying and reselling the “Welfenschatz” – presumably because the transaction was
financially too large for each of the consortium
members alone. The art dealers – by definition –

Supp. App. 97
remained legally and economically independent in
this case (under whatever legal-commercial legal
forms they were active at that time – either as sole
proprietorships [Einzelunternehmen], general
partnerships [Offene Handelsgesellschaft(OHG)],
etc).
II. The “Welfenschatz” Consortium as BGB enterprise (Section 705 BGB) in its weakest embodiment, that is to say the “tendering
consortium” [Gelegenheitsgesellschaft]
1. Temporally applicable law for qualifying
the corporate form of a consortium
Section 705 BGB is one of the few codes that have
remained unchanged through today since the BGB
went into effect in 1900. In regards to fundamental issues for assessing and qualifying the corporate form of a consortium, the legal framework for
the years 1929 to 1935 is comparable in many
ways to the present day situation, so that old and
new legal [precedent] and literature can both be
cited for this fundamental evaluation and analysis.
2. The nature of a standard BGB corporation
Section 705 BGB is the basic code for BGB corporations, which lawmakers drafted in a flexible
manner, and only by means of mostly elective provisions. As a result, the BGB corporation, or “Gesellschaft bürgerlichen Rechts (GbR)”, as a legal
form is an exceptionally adaptable legal instrument, whose organization and structure can be

Supp. App. 98
flexibly adapted to the particular economic (or
other) purposes of the association – on the basis of
the particular agreements between the shareholders. The legal form of the BGB corporation therefore exists in a wide range of embodiments, with
the legal structure of the BGB corporation, which
also include so-called “tendering consortiums”,
also existing in highly varied embodiments
(see Staudinger/Geiler, BGB, 9th edition 1929,
preliminary remarks on Section 705 I 2., Annex A to the 14th Vol., credits and I., Annex B to
the 14th Vol., 1.2.; Palandt/Sprau, BGB, 75th
edition 2016, Section 705 margin note 1, margin note 36 ff.).
Pursuant to the terminology definitions in Section
705 BGB, several natural or legal persons mutually agree to promote the attainment of a joint objective by entering into a shareholder agreement.
By what means this is to be accomplished and
what contributions the shareholders are required
to provide is defined in an informal, written or verbally agreed-upon shareholder agreement. Yet another factual element of a standard BGB
corporation is that the shareholder agreement
forms an “open-ended legal relationship” that results in a special loyalty obligation of the shareholders to each other
(see Staudinger/Geiler, BGB, 9th edition 1929,
prel. remarks on Section 705 I 5 a), Section
705 II. 1.; Manual commentary BGB/Saenger,
BGB, 7th ed. 2012, Section 705 margin note
2f; Palandt/Sprau, BGB, 75th ed. 2016, Section 705 margin note 1, margin note 36 ff.).

Supp. App. 99
Generally speaking, BGB corporations involve the
creation of company assets; however, this is not a
mandatory criterion for defining the legal form, is
not the nature of a BGB corporation and is therefore also not a required condition for forming or for
the existence of a BGB corporation. BGB corporations are therefore conceivable and possible where
the shareholders explicitly do not (wish to) form
jointly held assets. Staudinger/Geiler names consortiums and underwriting transactions as examples for this. Whether or not company assets are
formed is therefore at the discretion of the shareholders
(see Staudinger/Geiler, BGB, 9th ed. 1929,
Section 705 II 3., Annex A to the 14th Vol., I.;
Palandt/Sprau, BGB, 75th ed. 2016, Section
718 margin note 1).
The standard BGB corporation – in particular
when it is to be considered as an external corporation and as a “higher-level” or “organized” BGB
corporation – generally has its own identity features, that is to say a name under which it engages
in business transactions, a corporate domicile, an
externally active organization, in particular corporate officers pursuant to Sections 709f. BGB and –
but not necessarily – its own liability charter (total
jointly held assets)
(see Meschkowski, Zur Rechtsfähigkeit der
BGB-Gesellschaft [On the Legal Capacity of the
BGB Corporation], 2005, p.255 ff., p.264;
Ulmer/Schäfer in: Münchener Kommentar
[Munich Commentary] BGB, Vol. 5, 6.., 149
with additional references).

Supp. App. 100
3. The nature of the “tendering consortium”
[Gelegenheitsgesellschaft]
a) Tendering consortiums are BGB corporations in
their weakest embodiment, at the “lowest” level,
or with only limited degree of organization.
Staudinger/Geiler therefore also describes tendering consortiums as “temporary and loose associations”. The legal form of the tendering corporation
is employed in particular to form economic associations, where not the entire enterprise is contributed to the consortium, but only certain interests.
A classic application example for tendering
consortiums are therefore consortiums, which
Staudinger/Geiler already lists under “miscellaneous tendering consortiums [sonstige Gelegenheitsgesellschaften]”. While consortiums are
therefore included in the definition of BGB corporations, they nevertheless represent a special form
of these
(Reichscourt, ruling dated December 11, 1903,
RGZ 56, 206, 207; Staudinger/Geiler, BGB, 9th
ed. 1929, prel. remarks on Section 705 I 2 b)
dd), and Annex B to the 14th Vol., I.1. and I.6.;
nothing else applies today: see Palandt/Sprau,
BGB, 75th ed. 2016, Section 705 margin note
36).
What structure, what internal charter, and what
degree of organization a tendering consortium has
in detail is predominantly determined by the will
of the parties and first and foremost by the provisions in the shareholder agreement. The shareholder agreement of a “tendering consortium

Supp. App. 101
generally already waives large parts of the discretionary provisions in Sections 705 ff BGB
(see Staudinger/Geiler, BGB, 9th ed. 1929, Annex B to the 14th Vol., I.1. and 2.; Ulmer/Schäfer
in: Münchener Kommentar [Munich Commentary] BGB, 6th ed. 2013, before Section 705
margin note 51 ff., margin note 64; K.
Schmidt, Corporation Law, 3rd ed. 1997, Section 58 III 6b).
Brought to a point, consortiums represent a special case of BGB corporations for which nearly all
provisions of Section 705 ff. BGB are specifically
not intended to apply
(see Hadding in: Schimansky/Bunte/ Lwowski,
Bankrechts-Handbuch [Banking Law Handbook] Vol. II, 2nd ed. 2001, Section 87 margin
note 23).
b) In particular for tendering consortiums, even the
exclusion to form total jointly held assets frequently conforms to the express or tacit will of the
parties. As stated in Geiler, economic corporation
assets are therefore frequently non-existent – in
particular for consortiums
(see Staudinger/Geiler, BGB, 9th ed. 1929, Annex A to the 14th Vol., I., and Annex B to the
14th Vol., 1.2.).
c) Whether tendering consortiums are formed as internal or external BGB corporations is also solely
at the discretion of the shareholders’ wills. In this
case, tendering consortiums are frequently formed
as internal corporations that are characterized by

Supp. App. 102
not participating in legal and business affairs and
by waiving the formation of corporation assets
(see Gummert in: Münchener Handbuch des
Gesellschaftsrechts [Munich Handbook for
Corporation Law] Vol. I, 4th ed,. 2014, GbR
Section 17 margin note 13; Schäfer in: Münchener Kommentar [Munich Commentary]
BGB, Vol. 5, 6th ed. 2013, Section 726 margin
note 1 and margin note 7; K. Schmidt, Gesellschaftsrecht [Coporation Law], 4th ed. 2002,
Section 58 III 6, p.1708 f ).
4. Non-applicability of commercial law to consortiums
German commercial law does not apply to consortiums.
By limiting the corporation purpose to certain individual transactions, the factual element of an
open-ended operation of a so-called “merchant
business [Handelsgewerbe]” is already absent,
therefore generally qualifying consortiums as
BGB corporations, that is to say irrespective of the
typical merchant characteristics of the shareholders – consortium members – although the transactions performed under the scope of the particular
consortium are factually classified as merchant
transactions. A planned, open-ended activity is in
particular absent when only individual occasional
transactions – for instance individual sales transactions – are executed and/or identifiable
(see Baumbach/Hopt, HGB, 37th ed. 2016,
Section 1 margin note 13; Ulmer/Schäfer in:

Supp. App. 103
Münchener Kommentar [Munich Commentary] BGB, 6th ed. 2013, before Section 705
margin note 51; also see Reichscourt, ruling
dated April 23, 1907, RGZ 66, 48, 51).
In contrast to the opinion in Armbrüster (see Armbrüster expert opinion, p.7 under 14. and 15.), it
may therefore be open to interpretation whether
the consortium members – such as Saemy Rosenberg or Isaac Rosenbaum acted as owners of the
corporation J. Rosenbaum, personally, or on behalf
of the art dealership.
5. Application to the case in question
a) Typical tendering
heitsgesellschaft]

consortium

[Gelegen-

In the present case to be evaluated, the details of
shareholder agreement (consortium agreement)
concluded between the consortium members are
not known; even if they were known, their relevance remains in question, largely already because on-going amendments can be agreed in the
course of a contractual relationship under corporation law.
The contracts dated 1929 (contract on the acquisition of the “Welfenschatz” collection dated October
5, 1929) and 1935 (contract on the sale of the
“Welfenschatz” collection dated June 14, 1935) reveal that the consortium members had formed the
association to achieve a joint objective (resale of
the Welfenschatz) – which then happened in
stages during the years 1929-35. In this regard, a
significant factual element of Section 705 BGB has

Supp. App. 104
been fulfilled. However, the association fails to exhibit many other factual elements required for a
standard BGB corporation, in particular including
the “formation of an open-ended legal relationship”. In this case, the consortium members only
collaborated to execute a single transaction: acquiring and subsequently reselling the “Welfenschatz” collection. This fact alone eliminates the
existence of a standard BGB corporation in this
case.
Instead, all facts support qualifying the “Welfenschatz” Consortium as a classic tendering consortium. As is typical for tendering consortiums, we
have in this case a merely “temporary and loose”
association. Even the content and language of the
agreements from 1929 and 1935 clearly indicate
and prove that not the individual art dealerships
are combined “merged” into a single corporation
and/or a purposeful association, but instead that
they are strictly pursuing a singular, common,
closed-ended business interest, that is to say the
acquisition and resale of the “Welfenschatz”. Including – and in particular – by limiting the common purpose to the execution of this transaction,
this indicates the typical characteristics of the relationship among the consortium members strictly
as a tendering consortium, since the characteristics of an open-ended legal relationship are absent.
Due to the lack of participation in legal transactions under its own name and due to the lack of
corporation assets (in this regard also refer below),
the tendering consortium “Welfenschatz” Consortium can therefore in total only be viewed as an

Supp. App. 105
internal corporation, but not as an external corporation.
b) No convergence with standard BGB corporation
There is otherwise no indication of any kind that
the consortium members had installed such a corporate structure in the years 1929-35 and had attained a degree of organization that would have
exceeded that of a tendering consortium and that
would be characteristic for a standard BGB corporation (external community of joint owners with
corporation assets as a dedicated special fund, socalled “total jointly held assets”, with joint management that acts externally on behalf of the
corporation, a corporation name under which the
company enters into legal and business transactions, the appointment of corporation directors as
representatives, formation of a corporate domicile).
In relation to this, Armbrüster asserts in his expert opinion that the “Welfenschatz” Consortium
exhibited such acting and organizational structures, and as they are typical for the standard
BGB corporations described above, for which there
are however neither actual nor legal indications in
this concrete case. In other words, Armbruster’s
related analyses are highly speculative and are
otherwise disproved by the existing findings and
evidence regarding the actual configuration and
implementation of the corporation during the
years 1929-35.

Supp. App. 106
aa) For example, the expression “hereinafter called
“Consortium” chosen in the introductory passage
of the purchase agreement dated June 14, 1935
specifically does not represent a short name reference to the tendering consortium, but instead
merely refers to the legal term “Consortium”. A
reference to the shareholders as “Consortium” can
therefore not be deemed or qualified as a selfselected name and/or reference to the corporation
under which the consortium members conducted
the transaction – as is however erroneously assumed and/or suggested by Armbruster (Armbruster expert opinion, p.6 under Section 13.)
The contract dated June 14, 1935 instead only reveals in the introductory passage – the “preamble”
– that all consortium members are individually
listed sequentially as solely empowered owners
and sellers under 1. to 3. as contractual parties on
the seller side, and for simplification reasons are
then only referred to as “Consortium” in the following contract text. However, the strictly declaratory reference as “Consortium” does not “merge”
the consortium members into a single, special contractual party. The reference to the sellers of the
“Welfenschatz” collection as “Consortium” therefore also fails to qualify this tendering consortium
as a corporation with its own legal person status
and a proper name.In this respect, the contract
dated June 14, 1935 is comparable with a notarized legal document for which several seller parties appeared as sellers and who are then
subsequently jointly referred to as “Sellers” in the
legal document; this specifically does not merge
the individual sellers into a single “legal person”.

Supp. App. 107
My assumption that the “Welfenschatz” Consortium is a mere tendering consortium is further corroborated by the contract on the acquisition of the
collection dated October 5, 1929, wherein only the
generally accepted standard legal term “the
sellers” was employed for the involved consortium
members.
The Consortium members also did not act as individuals on behalf of the Consortium (“as all the individuals who acted on behalf of the Consortium”),
as Armbrüster (Armbrüster expert opinion, and
other locations) asserts. The Consortium members
instead acted as shareholders of the Consortium.
To the extent that one of the shareholders may
also have acted on behalf of other shareholders,
this shareholder was evidently previously authorized and empowered to do so in each individual
case (FAC – Exhibit 6: “I have orally received the
assent of the other authorized members of the
Consortium.”). Contrary to Armbrüster’s assertion
(Armbrüster expert opinion, and other locations),
this is not an expression of the will or the intent of
the shareholders to appoint a special corporate officer as representative – a managing director of
the company under the exclusion of the disposition
power of the other shareholders (Sections 714
BGB); this is instead evidence for the straightforward empowerment of a shareholder by one or several joint shareholders to perform a single act.
This empowerment changes nothing in the generally existing joint management and representation power pursuant to Sections 709 para. 1 BGB.
Even Armbrüster is forced to concede that the language refers to “the other owners” (Armbrüster expert appraisal, and other locations). The letter

Supp. App. 108
from the co-shareholder Saemy Rosenberg dated
June 14, 1935 to Dresdner Bank (FAC – Exhibit 6,
see Armbruster expert opinion, on p.7 under FN
13, section quoted verbatim by him) instead confirms the joint management and disposition authority of all shareholder[s] pursuant to Section
709 para.1 BGB, where it is stated: “I have received the verbal agreement of the other authorized Consortium members” (emphasis added).
The fact that only the art dealerships listed under
1. to 3. in the contract dated June 14, 1935 and/or
the art dealers Saemy Rosenberg and Isaak Rosenbaum as owners of the former company J. Rosenbaum signed the contract therefore also proves
that only they were the solely authorized shareholders and therefore the sole owners of the
“Welfenschatz” collection at the time of the sale.
This results in the conclusion that no contract was
concluded “on behalf of the GbR” (e.g. “on behalf of
the BGB corporation” or “under the accounts of the
BGB corporation”), but instead that a contract was
concluded between the consortium members listed
at the beginning of the contract dated June 14,
1935 under 1. to 3. as sellers and owners, with a
buyer – Dresdner Bank. In this regard, the tendering consortium was also not equipped with an independent identity, as demonstrated by the fact
that there was no special name or specific reference under which the “Welfenschatz” tendering
consortium conducted business transactions. As a
result, the conclusion must be drawn that all three
members of the Consortium were equally authorized (Section 709 para. 1 BGB), that no separate
management pursuant to Sections 710, 714 BGB

Supp. App. 109
was established, and that as a result no externally
acting organization existed.
bb) There is also no evidence anywhere that the Consortium as a tendering consortium had established an “administrative seat” [Verwaltungssitz]
to conduct a singular resale transaction, as Armbrüster erroneously claims in his expert opinion
(Armbrüster expert opinion, p.9 ff.) – by citing
from this author’s point of view rather inconsequential literature and legal [precedent] under
capital corporation law.
The phrase “in Frankfurt am Main [zu Frankfurt
am Main]” in the contract dated October 5, 1929
evidently strictly and only refers to the private
residences of the three art dealers acting as buyers. The same applies to the contract dated June
14, 1935, wherein the respective private residences and business facilities are referenced for
each of the contractual parties listed as sellers under 1. to 3. This is in no way related to an independent “domicile of the Consortium”, as further
expressed by the fact that neither the contract
from 1929 nor the contract from 1935 assign a separate “corporate domicile” to the Consortium – not
to mention a separate mailing address.
Due to the absence of a “domicile” of the Consortium, all other attempts advanced by Armbrüster
to create a link under international private law
are equally moot (Armbrüster expert opinion, p. 9
to p. 11). As an unlimited company [Personalgesellschaft] without legal person status, the BGB
corporation – the “Welfenschatz” Consortium in

Supp. App. 110
this case in its weakest form of strictly a tendering
consortium – has no citizenship
(see Staudinger/Geiler, BGB, 9th ed. 1929, prel.
remarks Section 705 V.c); German-English Arbitration Tribunal, ruling dated March 27,
1922, JW 1922, 1161).
The tendering consortium therefore provides no
linkages to determine the laws that apply to it
(corporate statute), that is to say neither based on
the so-called formation theory [Gründungstheorie] nor based on the so-called domicile theory
[Sitztheorie]. Armbrüster’s related discussion on
this point is superfluous and irrelevant.
cc) There are also no indications of any kind that the
tendering Consortium “Welfenschatz” formed a
separate corporation and/or special fund.
As shown above, it is already not the nature of a
standard BGB corporation to form corporation assets, and there is also no mandatory requirement
to do so. This is even more so the case for tendering
consortiums in the form of consortiums, for which
the formation of corporation assets is fundamentally atypical. To the contrary: in particular for
tendering consortiums, the will of the participants
frequently is to specifically not form total jointly
held assets, as was already shown above.
The assumption that the tendering consortium
“Welfenschatz” Consortium had formed separate
corporate assets independent from the shareholders also negated by the fact that during the years
1929 to 1935, BGB corporations by law were categorically unable to hold rights and obligations, as

Supp. App. 111
will be discussed in detail below. Armbrüster evidently completely fails to address the need to also
evaluate the case facts from a historical-legal perspective – as is mandatory in cases such as this
one – and, by omitting any form of related analysis, engages in inappropriate considerations and
comes to inapplicable conclusions.
III. No independent legal entity status, no legal
capacity of the tendering consortium during the years 1929 to 1935
1. Temporally applicable law for assessing the
independent legal entity status and legal capacity of the tendering consortium during
the years 1929 to 1935
In order to determine whether the “Welfenschatz”
Consortium was a corporation with independent
legal entity status and legal capacity – as claimed
by Armbruster – it is mandatory to refer to the
laws applicable during the period from 1929 to
1935, which is solely applicable in this case. This
corresponds to the general legal principle that legal transactions must be evaluated at the time
they were concluded, is consistent with the principle of good faith, Section 242 BGB and otherwise
also follows the interpretation rules in Section
133, 157 BGB, whereupon reference must be made
to the time declarations of will were made and to
the generally prevailing opinion from that time. In
the present case, this is the time of the legal transaction declaration of the parties involved with contracts dated October 5, 1929 and June 14, 1935

Supp. App. 112
(see Palandt/Ellenberger, BGB, 75th ed. 2016,
Section 133 margin note 6b with additional
notes).
When Armbrüster opines that the tendering consortium must be evaluated on the basis of today’s
perspective on the basis of today’s applicable law
and current legal [precedent], this represents incorrect and unsustainable reasoning. The sources
Armbruster cite (Armbruster expert opinion, p.11,
FN 22 and FN 23) fail to corroborate this assertion, since these do not establish what law – from
a historical point of view – shall apply to the case
facts from the years 1929-1935. To the contrary:
the sources Armbrüster cites unequivocally state
that “any interpretation of law [is] to a certain extent bound by time.”
In consideration of the legal principles cited above,
the legal system at that time, the evaluation
standards at that time, and the intent of the historical lawmakers from that time are definitive for
assessing the case in question here. “Correctness
is not a timeless truth, but refers to the correctness for the legal system at that time”
(Larenz/Canaris, Methodenlehre der Rechtswissenschaft [Methodology theory of legal science], 3rd ed. 1995, p.133, 136).
The case of the “Welfenschatz” must therefore be
properly evaluated on the basis of the applicable
law from the period 1929 – 1935.
Armbrüster fails to do so, omits the mandatory
analysis of the historical legal circumstances,

Supp. App. 113
rendering the results of his efforts as largely
worthless.
2. Tendering consortium without independent legal person status; corporation never
assumed legal entity status
a) Pursuant to the prevailing opinion in the literature and legal [precedent] at that time – e.g. during the period 1929-1935 what has historically
been referred to as the legal term BGB corporation
(including its special form of tendering consortium) was viewed as an unlimited company. Consortiums, tendering consortiums of all types were
therefore viewed as unlimited companies without
independent legal person status. These associations – corporations – therefore belonged to the
group of unlimited companies organized under
private law, and had no independent legal subjectivity based on the opinions expressed in the
theory and by superior courts. Pursuant to the
opinion of the Reichscourt, the BGB corporation
was not viewed as having legal subjectivity separate from the shareholders. The holders of corporate rights and obligations were always and solely
the shareholders
(Reichscourt, ruling dated December 11, 1903,
RGZ 56, 206, 209; Sayn in: BGB-RGRK, 6th
ed. 1928, Section 705 note 1, Section 719 note
1; Planck, BGB, 4th ed. 1928, Section 719 note
1; Staudinger/Geiler, 9th ed. 1929, prel. remarks on Section 705 II 1. and 2. plus Annex
B 11.1.; Mugdan, Vol. II, Motives, p.341; von
Gamm in: BGB-RGRK, 12th ed., before Section

Supp. App. 114
705 margin note 4; regarding this earlier legal
framework, also see Palandt/Sprau, BGB,
75th ed. 2016, Section 705 margin note 24;
plus also German Supreme Court [Bundesgerichtshof ], ruling dated March 26, 1981,
BGHZ 80, 222, margin note 21 cited as per juris, with additional notes).
The historical lawmakers of the German Civil
Code [Bürgerlichen Gesetzbuch] did not intend to
give the BGB corporation its independent legal
person status, and therefore also did not intend to
establish a separate and/or independent legal existence. The historical lawmakers, along with the
courts, therefore did not view the BGB corporation
as having legal capacity – it was viewed as a “corporation without legal person status” that was not
endowed with rights and obligations
(see Gummert in: Münchener Handbuch des
Gesellschaftsrechts [Munich Handbook of
Corporation Law] Vol. 1, 4th ed. 2014, GbR
Section 17, [margin] note 2 a.E. with additional notes; BGHZ 142, 315, 319 f ).
b) In consequence and on the basis of the applicable
law at that time, the “Welfenschatz” Consortium,
formed in 1929 and active during the years 192935, also was an unlimited company without independent legal person status.
As an intermediate result, it is therefore noted
that accordingly, the tendering consortium between the consortium members – the “Welfenschatz” Consortium – under review herein must be
deemed to have no legal capacity. The tendering
consortium “Welfenschatz” consortium was not

Supp. App. 115
independently endowed with rights and obligations, and was therefore also not the owner of the
Welfenschatz collection during the years 19291935.
3. Changes in legal opinion during the postwar period on the legal capacity of the BGB
corporation irrelevant
a) This historical and consistent legal opinion was
upheld for almost a century up to the turn of the
millennium, and only changed beginning in 2001.
This change was set in motion by a landmark decision by the German Supreme Court dated January 29, 2001 (cited by Armbrüster, see Armbrüster
expert opinion, p.11, FN 21) that overturned the
previously held thesis of the legal incapacity of the
BGB corporation. Since then, legal [precedent]
and theory have in the meantime reinforced the
opinion that the BGB corporation is potentially
endowed with legal capacity. However, pursuant to
the German Supreme Court, each specific case
must be taken into consideration and reviewed
against special considerations, such as specific legal regulations and the unique nature of the legal
facts under review, and as to whether the assumption of legal capacity and/or legal competence of a
corporation is contested with respect to a certain
right or legal circumstances on a case-by-case basis.
(German Supreme Court, ruling dated January 29, 2001, NJW 2001, 1056 = BGHZ 146,
341; Gummert in: Münchener Handbuch des
Gesellschaftsrechts [Munich Handbook of

Supp. App. 116
Corporation Law] Vol. 1, 4th ed. 2014, GbR
Section 17, margin note 21; see therein, margin note 6 to margin note 10 with additional
references on this legal [precedent] development and the associated discussion in the literature).
Since then, the BGB corporation is viewed as a
special acting entity -an independent assignable
object – that can engage in legal transactions as a
group of persons. In these cases, the assumption is
that the BGB corporation can be endowed with legal capacity or partial legal capacity, if and when
it asserts its own rights and obligations as an
external corporation by engaging in legal transactions. The BGB corporation can therefore independently assert certain legal positions, however
does not qualify as a legal person
(German Supreme Court, ruling dated January 29, 2001, NJW 2001, 1056 = BGHZ 146,
341; BGH NJW 2002, 368; BGH NJW 2014,
1107 Tz.24; Palandt/Sprau, BGB, 75th ed.
2016, Section 705, margin note 24).
The discussion surrounding the legal status of the
BGB corporation has not been concluded as of today, and detailed issues continue to remain unanswered; in particular, the legal [precedent] and
literature both have to contend with the objections
that the change in legal [precedent] at that time
gave rise to in practice.
b) Irrespective of the fact that the literature and legal [precedent] continue to dispute to the present
day to whom the corporation assets of a BGB

Supp. App. 117
corporation should be assigned in rem- to the BGB
corporation as such or to its shareholder
(see Gummert in: Münchener Handbuch des
Gesellschaftsrechts [Munich Handbook of
Corporation Law] Vol. 1, 4th ed. 2014, GbR
Section 17, margin note 1 with additional references),
it is not known and not apparent in the present
case what if any provisions the consortium members made regarding the “Welfenschatz” collection
as potential corporation assets. As already discussed, the formation of corporation assets – at
that time (1929-35) as much as today – is not a
characteristic element of the standard BGB corporation and is not a necessary qualifying property
of the latter.
(see Staudinger/Geiler, BGB, 9th ed. 1929,
Section 705 II 3. plus Annex B 1.2.; Palandt/
Sprau, BGB, 75th ed. 2016, Section 718 margin note 1).
This applies all the more so to a tendering consortium as the weakest embodiment of a BGB corporation, where – as is the case for the “Welfenschatz” – the corporate association is limited to a
single business relationship and confirmation, and
in which case the shareholders had no reason to
form corporation assets due to the focus on a single transaction and limited common purpose.
c) It is also not evident that the tendering consortium “Welfenschatz” Consortium could have been
an “external corporation”, as was for instance to be
assessed in the landmark decision by the German

Supp. App. 118
Supreme Court in 2001. An “external corporation”
presumes that the corporation as such “is endowed
with its own rights and obligations by engaging in
legal transactions”, which was the consideration
in the case at that time that ultimately swayed the
German Supreme Court to actually – and for the
first time – assert the limited legal capacity of the
BGB corporation.
In the case at that time, the company in question
was a construction working committee [Arbeitsgemeinschaft (ARGE)] with the legal form of a BGB
corporation that engaged externally in legal transactions under its own name and with its own letterhead, and concluded legal transactions. The
working committee also interacted externally with
a dedicated management appointed for this purpose, and therefore had a corporate officer that
acted expressis verbis on behalf of the corporation
and engaged in legal transactions (BGHZ 146,
341, 356 f, 359 f ).
In the case of the “Welfenschatz” Consortium,
there was no management, no executive board, no
representing officers, no interaction and participation by the tendering consortium in business
transactions as a corporation under its own name.
There were no actions “in the name and/or on the
accounts of ” the corporation and there were apparently also no such organizational and acting
structures that would even remotely qualify the
“Welfenschatz” Consortium as a BGB corporation
with its own legal person status as defined by the
related legal [precedent] handed down by German
courts since 2001.

Supp. App. 119
Armbrüster otherwise fails to mention that the
ruling by the German Supreme Court dated January 29, 2001 (BGHZ 146, 341) does not award general legal capacity to an association of legal
subjects organized and represented as a BGB corporation, but only does so with limited scope and
under special circumstances. The German Supreme Court takes the position in this case that
while a BGB corporation “can assume any legal
position”, this is only the case “to the extent this is
not negated by special considerations” (BGHZ 146,
341, 343; BGHZ 116, 86, 88; BGHZ 136, 254, 257;
BGHZ 79, 374, 378 f ). A BGB corporation is only
endowed with legal capacity – without being a legal person – to the extent that it asserts its own
rights and obligations “within these limits” (BGHZ
146, 341, 343).
d) In conclusion, it is therefore established that even
when today’s valid law is applied in conjunction
with the legal [precedent] on the treatment of
BGB corporations handed down by German courts
since 2001, the association of the art dealerships
J. Rosenbaum, Z. M. Hackenbroch and J. & S. Goldschmidt to a “Welfenschatz” Consortium cannot be
viewed and treated as a corporation with its own
legal person status. Armbruster’s position (Armbruster expert opinion, p.11 under Section 26.)
that a “German court that would today have to decide whether the Consortium in the time from
1929 to 1935 could have been endowed with legal
capacity, would presumably be expected to [do] so”,
must therefore be definitively disputed.
It is my opinion that a German court today – by
applying today’s law and in conjunction with the

Supp. App. 120
mandatory inclusion of the historical legal framework of the years 1929-35 – would not under any
legal consideration whatsoever (as discussed
above in detail) award the “Welfenschatz” Consortium a qualification with its own legal person
status[.] The Consortium was not an “external corporation” and, as purely a tendering consortium,
was also not the owner of the “Welfenschatz” collection.
4. Termination of the tendering consortium in
1935 by achieving the corporation purpose
ipso iure (Section 726 BGB)
a) A characteristic feature of the tendering consortium is that the corporation ends based on the mutual will of the involved parties by achieving the
corporation purpose, which means that the corporate association only exists until the corporation
purpose has been achieved and the transaction operated by the shareholders has been executed and
completed. Once this purpose has been achieved,
the corporation ends ipso iure. Accordingly, the
tendering consortium [ceases] to exist in the moment when the “purpose” of the corporation and
the outcome of the joint actions defined and intended by the participants – the underlying transaction that resulted in the association – has been
fulfilled. The link and the corporate association becomes null and void when the purpose has been
achieved (Section 726 BGB)
(see Staudinger/Geiler, BGB, 9th ed. 1929, Annex to the 14th Vol., B. I.1. and I.7., Section
726 I. and II.; Hadding in: Schimansky/

Supp. App. 121
Bunte/Lwowski, Bankrechts-Handbuch [Banking Law Handbook], Vol. II, 2nd ed. 2001, Section 87 margin note 23; Karsten Schmidt,
Gesellschaftsrecht [Corporation Law], 3rd ed.
1997, Section 58 II 1; Wiedemann, Gesellschaftsrecht [Corporation Law] Vol. II, 204,
p.667, p.670).
This automatic trigger – the termination of the
corporation by force of law – is another feature
that specifically characterizes tendering consortiums, such as the “Welfenschatz” Consortium, and
differentiates the latter from standard BGB corporations with legal capacity. Wiedemann notes that
Section 726 BGB “[has its origins] in the theoretical discussion on tendering consortiums and the
automated motives in general debt law”
(see Staudinger/Geiler, BGB, 9th ed. 1929, Annex B to the 14th Vol., I.7.; Wiedemann, Gesellschaftsrecht [Corporation Law] Vol. II,
2004, p.670).
b) In the present case, wherein the art dealer consortium members formed the association strictly and
only for the singular purpose limited by its scope
and duration to acquiring the “Welfenschatz” for
the purpose of resale, the joint consortium transaction had been completed in 1935 and the corporation purpose had been achieved upon concluding
the execution of the purchase contract dated June
14, 1935. The tendering consortium “Welfenschatz” Consortium therefore ended ipso iure.

Supp. App. 122
5. No corporation assets without the existence of the tendering consortium
Even if one were to assume that the “Welfenschatz” Consortium was more than strictly a tendering consortium, that this corporation had
formed [its] own corporation assets in 1929-35 in
the form of the “Welfenschatz” collection and that
these assets were the property of the corporation
and not the property of the shareholders, the corporation assets-said assets also including claims
by the former corporation potentially only asserted long after the corporation had ended -even
in this case are no longer the property of the legal
entity upon the winding down and liquidation of
the corporation (which then no longer exists), but
are instead the assets of the (former) shareholders
or their heirs.Armbrüster equally fails to see this.
The corporation assets are dependent on the existence of the corporation, since “assets” by themselves are not endowed with legal capacity, but are
instead assigned to the “corporation” as the legal
entity – assuming the legal entity status of the
tendering consortium. Once the corporation has
ended and/or has been wound down, there are no
longer any corporation assets, but strictly the assets of the remaining shareholders – that is to say
without differentiating these into private assets
and former corporation assets.
(see Gummert in: Münchener Handbuch des
Gesellschaftsrechts [Munich Handbook on
Corporation Law] Vol. I, 4th ed. 2014, GbR
Section 17, margin note 30; Soergel/Hadding/
Kießling, BGB, . . . ed., Section 718 margin

Supp. App. 123
note 14; BGH, ruling dated September 27,
1999 – II ZR 371/98, BGHZ 142, 315 ff, margin
note 13 – cited as per juris).
IV.

Conclusions
In conclusion, it has been established that the association of the three art dealerships J. Rosenbaum, Z. M. Hackenbroch and J. & S. Goldschmidt
– “Welfenschatz” Consortium – is strictly a tendering consortium without its own legal person status, which therefore was not endowed with legal
capacity and [ceased] to exist upon concluding the
execution of the purchase contract dated June 14,
1935.
The former “Welfenschatz” Consortium therefore
also did not and/or does not have a separate legal
existence under German law.
As a tendering consortium, the “Welfenschatz”
Consortium was not the owner of the “Welfenschatz” collection from 1929-35.
The tendering consortium “Welfenschatz” Consortium ended ipso iure in 1935 by achieving the
corporation purpose limited to acquiring and reselling the collection, Section 726 BGB.

Supp. App. 124
C. Regarding the question of who – if not “the
Consortium” – was the owner of the “Welfenschatz” under German law between 1929 and
1935
1. The “buyers” listed in the contract from 1929
as the owners of the Welfenschatz
By way of a purchase contract dated October 5,
1929, the three owner-operated art dealerships J.
Rosenbaum, Z. M. Hackenbroch and J. & S. Goldschmidt acquired the collection of medieval artifacts referred to in the contract as “Welfenschatz”,
Section 433, 929 BGB.
The act of title transfer to the three art dealerships was executed and completed with the - undisputed -transfer of the complete collection to the
three buyers that occurred by no later than January 1930, Section 929 BGB.
2. The shareholders of the Consortium as the
holders of rights and obligations
The three acquirers of the collection – J. Rosenbaum, Z. M. Hackenbroch and J. & S. Goldschmidt
– were (as shown in detail above) shareholders
(consortium members) of the tendering consortium “Welfenschatz” Consortium, who held title to
the collection from 1929 to 1935 and who – by way
of a contract dated June 14, 1935 – sold the
“Welfenschatz” collection (which had been reduced
in the meantime by the sale of individual pieces)
to Dresdner Bank, which acted as a concealed
buyer’s agent on behalf of the State of Prussia.

Supp. App. 125
Pursuant to the purchase agreement dated June
14, 1935, the sole sellers in turn were the art dealerships Z. M. Hackenbroch, J. & S. Goldschmidt,
and Saemy Rosenberg and Isaac Rosenbaum as
the last owners of the “J. Rosenbaum” dealership,
which had been liquidated in the meantime.
The documents available to me contain no evidence that the title of the “Welfenschatz” collection
was transferred in whole or in parts at any point
during the years 1929-35 from the named three
art dealerships, by their owners respectively, to
other parties or to another legal entity.
The strictly declaratory note in the purchase contract dated June 14, 1935 that the “Welfenschatz”
Consortium had involved “(. . .) foreign and domestic business associates in this transaction” does
not represent proof that these “foreign and domestic business associates” had as a result further
rights, in particular property and/or joint property
rights, in the collection. There is no evidence for
this.
There is also no evidence that the consortium
members had transferred title to the collection to
the tendering consortium “Welfenschatz” Consortium itself as an independent legal entity. Pursuant to my deliberations under B. above, we can
exclude in this case that separate title to the collection was formed for the “Consortium” since – as
was shown above – this was strictly a tendering
consortium without independent legal person status and legal subjectivity.

Supp. App. 126
Until the transfer in 1935 to the representatives
of Dresdner Bank, respectively the representatives of the State of Prussia, the “Welfenschatz”
collection continued to be in the uninterrupted
possession of the members of the “Welfenschatz”
Consortium – lastly in Amsterdam. As a result, the
unrestricted and sole property of the three art
dealerships, respectively their owners, can be assumed under German law even for the continued
possession, arg ex. Section 1006 BGB. In this case
the statutory assumption in Section 1006 para. 1
BGB is invoked – pursuant to which the assumption is made in favor of the owners of a movable
asset that he is the owner of the asset.
Up to the resale of the “Welfenschatz” in 1935, the
three art dealerships J. Rosenbaum, Z. M.
Hackenbroch and J. & S. Goldschmidt, respectively their owners, accordingly were the sole holders of rights and obligations in connection with the
“Welfenschatz” collection.
3. No evidence of corporate asset formation
for the tendering consortium
The documents available to me also contain no evidence that at any point in time during the years
1929-35, the “Welfenschatz” collection became a
separate corporate asset of the tendering consortium “Welfenschatz” Consortium by way of a legal
act and express dedication, or by way of implied
actions. There is no evidence for this.
a) As shown in detail under B. II. 2., the formation of
corporate assets is not a necessary requirement
for a standard BGB corporation, and, more

Supp. App. 127
importantly, is not the nature of a tendering consortium.
b) Even if one were to assume that a separate corporate asset had been formed based on the “Welfenschatz” collection, the question regarding the
ownership circumstances in the corporate assets
would remain unanswered.
The statutory specifications of the German law
regarding BGB corporations are largely discretionary, that is to say that the ownership circumstances in the corporate assets – if these exist –
can vary greatly in their scope and nature, and depend in large part on the corporate contractual arrangements between the shareholders. For
instance this could involve forming either joint
ownership of total assets [Miteigentum “zur
gesamten Hand”], or fractional ownership, but
also sole ownership by each consortium member
proportional to his contribution; even sole ownership by only a single shareholder is conceivable.
When the purpose of a corporation is strictly limited to the joint transaction of commercializing
and/or reselling an art collection (as is the case
here), one would have to assume the sole ownership of each consortium member proportional to
his contribution ratio (assuming the existence of
corporate assets).
(see Staudinger/Geiler, BGB, 9th ed. 1929, Annex to the 14th Chapter A. plus Annex B II.1.;
Reichscourt, ruling dated April 24, 1906 in
BankArchiv Vol. 5 p.230).
Since the joint or corporate purpose in the case of
the “Welfenschatz” Consortium was limited to the

Supp. App. 128
joint acquisition and resale of the collection, many
indications corroborate the assumption in the
event that corporation assets were formed, that
sole ownership of each consortium member can be
assumed in a portion of the Welfenschatz proportional to their contribution ratio.
4. Follow-up liquidation neither required nor
expected
Armbrüster’s blanket assertion that pursuant to
German law – applicable at that time (1929-35)
and today – BGB corporations continue to exist in
a certain form if corporate assets appear after a
corporation has ended – said assets also including
legal claims – and that the treatment of said assets regularly requires a formal follow-up liquidation (Armbrüster expert opinion, p. 14 under
Section 34. ff ) does not apply, specifically when the
case involves a tendering consortium, such as the
“Welfenschatz” Consortium.
In his discussion of this point, Armbrüster draws
incorrect conclusions in his expert opinion, because, as shown above, he already inaccurately assesses the legal nature of the “Welfenschatz”
Consortium. The assertion that special, controlled
and official proceedings (“Follow-up liquidation”)
are required to liquidate new or rediscovered assets of a corporation (Armbrüster expert opinion,
p. 14-17) is – as his entire expert appraisal – replete with the erroneous assumption that the
“Welfenschatz” Consortium in the present case
was a corporation with its own legal person status
and its own corporation assets that are claimed to

Supp. App. 129
have exhibited an organizational structure in
alignment with merchant corporations or capital
corporations under German law. As demonstrated
above, this was specifically not the case for the
Consortium.
a) Armbrüster’s premise that claims (only revealed
after decades, respectively asserted under the
scope of the pending complaint litigation) of the
heirs and legal successors of the owners of the
three art dealerships J. Rosenbaum, Z. M.
Hackenbroch and J. & S. Goldschmidt involved between 1929-35 are a part of the corporate assets of
the tendering consortium “Welfenschatz” Consortium is devoid of any basis. This would require
that corporate assets of the tendering consortium
were formed in the first place. But as shown above,
this was specifically not the case here.
b) Moreover, the tendering consortium “Welfenschatz” Consortium had [ceased] to exist ipso iure
by achieving its objective in 1935, as shown above
under B. III. 4. But since the existence of corporate
assets without exception and directly depends on
the existence of the corporation, there no longer
are corporate assets when the corporation has
[ceased] to exist, and only the assets of the remaining shareholders exist – that is to say without a
legal differentiation into private and former corporation assets.
c) For lack of evidence to the contrary, the assumption must be made that the “Welfenschatz” Consortium ended as a tendering consortium without
further ado during the course of 1935 after the
purchase price was disbursed, Section 726 BGB.

Supp. App. 130
There was evidently no requirement at that time
to formally process the disbursement of the purchase price.
d) Contrary to Armbrüster’s assertion, there is then
in this case neither a legally codified nor otherwise
apparent obligation or need for the plaintiffs – as
heirs and legal successors of the former owners of
the “Welfenschatz” collection – to undergo followup liquidation proceedings.
e) The legal opinions and legal [precedent] Armbrüster cites in his expert opinion (Armbrüster expert opinion, p.14-17) do not apply in the present
case, and are not relevant and therefore of no consequence for the further legal evaluation of the
case.
For example, the Reichscourt in the case Armbrüster cites from the year 1905 (Armbrüster expert opinion, p.14 FN 30, Reichscourt ruling dated
May 3, 1905, RG JW 1905, 430 N.8) addresses the
case of a dispute that retroactively arose among
the former shareholders after a corporation had
[ceased] to exist. It is evident that the present legal dispute does not involve a dispute among former shareholders or their legal successors, but a
completely different matter, that is to say the
claims against third parties – in this case against
the Prussian Foundation for Cultural Artifacts
and the Federal Republic of Germany.
The present case also does not involve a situation
where “the purpose of the dispute” would require
the assumption of the continuing existence of a
tendering consortium that has long since [ceased]
to exist.

Supp. App. 131
Even the ruling of the German Supreme Court
dated June 21, 1979 cited by Armbrüster (Armbrüster expert opinion, p. 14 FN 31, German Supreme Court Ruling NJW 1979, 1987) does not
apply to the present legal dispute. The ruling deals
with a completely different corporate form, that is
to say a general partnership [Offene Handelsgesellschaft, Sections 105 ff HGB, and in the specific case deals with a company that was able to
sue under its corporation and had legal capacity
and legal standing. As was shown at length above,
these conditions are summarily absent in the present case.
f ) The statutory provisions (Sections 146, 150 HGB
and Sections 730 ff. BGB) Armbrüster cites (Armbrüster expert opinion, p.15-17) as rationales for
conducting the follow-up liquidation required in
his opinion, neither apply nor must be observed in
this case because the “Welfenschatz” Consortium
was strictly a tendering consortium.
To the contrary. It is the consistently prevailing
opinion in the literature and legal [precedent] that
unlimited companies are specifically not bound by
the liquidation laws specified in Sections 146, 150
HGB, Sections 730ff. BGB. Since the questions of
winding down and liquidation are consistently discretionary laws, everything therefore depends on
the agreements of the former parties among each
other, e.g. the former shareholders of the tendering
consortium; in terms of what they agree on these
issues – e.g. liquidation of the corporation, including follow-up liquidation – they are not bound by
laws and are at liberty to make any related arrangements of their choosing, § 731 BGB

Supp. App. 132
(see Baumbach/Hopt, HGB, 37th ed. 2016,
Section 145 HGB margin note 10; Wiedemann,
Gesellschaftsrecht [Corporation Law], Vol. II,
Recht der Personengesellschaften [Partnership Law], 2004, p.552 f, p.671).
In conclusion, I find that the present case does not
involve the continuing existence of a corporation,
and that there is also no requirement for the plaintiffs – as heirs and legal successors to the former
co-shareholder of the tendering consortium
“Welfenschatz” Consortium – to undergo follow-up
liquidation proceedings to present their claims in
a legally valid manner.
5. Association by virtue of inheritance (Section 741 BGB)
The present case instead represents an association among the heirs by virtue of inheritance pursuant to Section 741 BGB.
For example, by way of a ruling dated April 23,
1907 (RGZ 66, 48, 51), the Reichscourt decided
that the testator cannot assume that his heirs will
continue to operate the commercial enterprise
when the latter develop, reconfigure, split, and
then profitably sell a property that is part of the
estate. According to the court, the intent of the
joint heirs is solely limited in such a case to partitioning and selling the estate with a favorable outcome for all involved parties. According to the
Reichcourt, such a case represents “an association
by virtue of inheritance”

Supp. App. 133
(Reichscourt, ruling dated April 23, 1907, RGZ
66, 48, 52).
This is also the nature of the present case. The
plaintiffs – as heirs and legal successors of the former owners of the “Welfenschatz” collection – represent an association by virtue of inheritance,
which is governed by the provisions in Sections
741 ff. BGB. Section 742 BGB specifies that in
cases of doubt, the eligible parties are entitled to
equal shares. Nothing else is required.
6. Conclusions
During the years from 1929 to 1935 – on the basis
of German law – the art dealerships respectively
[ ] referred to as “Buyers” under (1) to (3) in the
contract dated October 5, 1929 and referred to as
“Consortium” under 1.) to 3.) in the contract dated
June 14, 1935 were the sole owners of the “Welfenschatz”.
D.

Regardless of the answer to these questions (B, C), do the plaintiffs in this case,
Alan Philipp, Gerald Stiebel, and Jed
Leiber, have standing to bring their claims
under German law?
The expert opinion from Thiessen presented by
the defendants regarding this, respectively similar
questions, summarily fails to address the issues
and is unsuited as a basis for the applicable evaluation of the competent court as to whether the
plaintiffs can also assert their claims before German courts.

Supp. App. 134
I.

Legal nature of the claims
Based on the lawsuit pending before the Federal
Court for the District of Columbia in Washington
D.C., the plaintiffs demand the surrender and additional claims related to the allegedly illegal seizure of the “Welfenschatz” collection in the form of
an emergency and/or forced sale imposed in 1935
in connection with racial persecution against the
former owners at the hands of the Nazi regime.
These claims therefore have their origins in
breaches of law that the legal predecessors of the
plaintiff suffered as victims of the Nazi regime
during the period of Nazi rule between January
30, 1933 to May 8, 1945.
The matter therefore in the broadest sense represents claims for restitution of Nazi looted art.
From my point of view, and in consideration of the
legal framework, the literature and the legal
[precedent], the matter of asserting and enforcing
these claims in Germany before German courts
must be at best affirmed theoretically (in contrast
to the assertion by Thiessen), but is de facto excluded from a practical point of view.

II. Restitution of cultural and art objects
The treatment of claims for restitution of cultural
and art objects that the former owners involuntarily surrendered from their possessions during the
Nazi regime, for instance by way of seizure or
forced sale, has not been conclusively settled
world-wide to the present day. After most European countries, in particular Germany, adopted

Supp. App. 135
regulations for returning cultural artifacts already immediately after WW II, and returns of in
some cases substantial scope were implemented,
this topic increasingly receded into the background toward the end of the 1950s due to the
“Cold War”. Restitution issues only gained renewed interest following the collapse of the Soviet
Union at the beginning of the 1990s.
The term ‘restitution’ in the narrow sense in relation to the Nazi period refers to the surrender
[“Rückgabe] of seized property. The German terms
“Rückerstattung [“Return”] and “Rückabertragung [Return Transfer]” have the same meaning.
In contrast to compensation, these cases do not involve the definition of lump-sum payments for victims of Nazi persecution, but the surrender of
specific pieces of property.
III. Restitution and returns in the Federal Republic of Germany
1.

No claims pursuant to German Restitution
laws
Already during the years immediately following
the end of the war, even before the Federal Republic of Germany was formed in May 1949, the allies
in the Western occupation zones issued legal regulations regarding the return of former Jewish
and other assets seized by the Nazi regime, as well
as compensation of victims of Nazi persecution for
loss of life, freedom, physical injury, and health
injuries. The baselines for the laws were incorporated into the Accord for the settlement of
issues in connection with war and occupation

Supp. App. 136
(‘Transition Accord”) and were in large parts implemented with the Federal Law to Compensate
Victims of Nazi Persecution from 1956 [BEG] and
the Federal Restitution Act from 1957 [BRüG]. On
the basis of the BEG, the victims of Nazi persecution (for reasons of race, religion, or ideology) were
awarded an annuity as compensation for loss of
life, bodily injury, health injury, loss of freedom,
loss of property, and impaired professional or economic advancement. Based on the German Restitution Act [Bundesrückerstattungsgesetz], claims
for compensatory damages against the German
Reich in connection with seized assets could be asserted to the extent said assets had not already
been relocated and returned based on the Allied
regulations.
The Allied Restitution Acts require that the
claimed asset was seized for reasons of race, religion, nationality, ideology, or political opposition,
or the persecuted individual had sold the item under duress in connection with the predicament created by the persecution. The claim is directed
against the (present or former) owner.
However, the laws applicable in Germany, the Federal Restitution Act and the Federal Compensation Act also contain notification deadlines that
have long-since expired. Continuing or resuming
completed litigation is excluded in accordance
with Supreme Court [precedent] (German Supreme Court, ruling dated August 3, 1995, BGH
VIZ 1995, 644).
According to the German Supreme Court, additional restitution claims can only be brought in

Supp. App. 137
individual cases in connection with the German
reunification. These include claims for assets located in the new federal states – the former state
territories of the “German Democratic Republic”.
These claims can be asserted even today if the
claims are registered in time (1992/1993) on the
basis of the “Act to Settle Open Property Issues”
from 1990. However, the Property Act creates no
new restitution claims in the old federal states,
that is to say in the territories existing in the
Western Federal Republic of Germany through
1990.
The registration deadlines specified in the named
regulations have long-since expired, and the statutory regulations have been repealed, so that any
related claims can today no longer be asserted before German courts.
(see Harald König, Grundlagen der Rückerstattung [Fundamentals of Restitution], Bundesamt für Zentrale Dienste and offene
Vermögensfragen [Federal Agency for Central
Services and Open Property Issues], http://
www.badv.bund.de/DE/OffeneVermoegensfragen/Provenienzrecherche/Aufsaetze/Grund
lagen/start. html).
Even Thiessen has to concede this point (Thiessen
expert opinion, p.12 Item c.).
The plaintiffs would therefore be excluded from
asserting claims in connection with the “Welfenschatz” collection, to the extent that they were to
invoke the special laws on restitution and reparations of Nazi infractions.

Supp. App. 138
2. No claims under German Civil Code (BGB)
To the extent that Thiessen asserts that the plaintiffs have legal recourse with their claims before
German civil courts, this is not the case and must
be disputed.
The sweeping, page-long dissertations by Thiessen
on potentially applicable, civil law claims are superfluous for lack of applicability.
In view of the on-going discourse regarding the
restitution of Nazi looted art, Thiessen specifically
fails to make any mention of the fact as to whether
reliable legal [precedent] or legal practice exists to
derive restitution claims under civil law on the basis of “soft law” – for instance in the form of the
“Washington Declaration on Holocaust-Era Assets”. In complete ignorance of this, Thiessen nevertheless engages in voluminous and superfluous
dissertations of potential avenues for asserting
claims. A text-book-based, academic discussion –
no more – for he fails to mention that repeatedly
affirmed legal [precedent] has been established
since the 1950s that assumes a clear position regarding the enforceability of restitution claims of
property seized under Nazi persecution:
the restitution claim regulations under public law
for asserting restitution claims and related claims
in regards to the special laws governing Nazi infractions have been affirmed pursuant to the landmark decision by the German Supreme Court
from the 1950s, and have been consistently reaffirmed in the following decades; said regulations
excluding regulations under civil law (German Supreme Court, ruling dated October 8, 1953, BGH

Supp. App. 139
NJW 1953, 1909f.). The German Supreme Court at
that time ruled – without this legal [precedent]
having been reversed to the present day – that the
restitution laws conclusively settle the seizure
cases based on persecution actions by the Nazi regime, and that therefore restitution claims based
on general civil law – that is to say the German
Civil Code [Zivilrecht] – are therefore categorically excluded.
This thesis, which to the present day is overwhelmingly represented in the literature and by
legal [precedent], is also not overturned by the ruling of the 5th Civil Division of the German Supreme Court dated March 16, 2012 (German
Supreme Court, ruling dated March 16, 2102,
BGH V ZR 279/10) and cited by Thiessen as proof
of the opposite, for this case does not involve tested
legal [precedent], but to the extent apparent, represents a singular ruling unique over the last sixty
years through today, which assumed as enforceable under civil law and under very narrow conditions a claim for restitution of a poster collection
seized during the Nazi era.
However, this apparently singular ruling creates
no legal [precedent], also because the case decided
by the German Supreme Court is significantly different in a variety of ways, without elaborating on
the details for the present purpose.
IV. Conclusions
The plaintiffs Alan Philipp, Gerald Stiebel, and
Jed Leiber cannot pursue the claims asserted

Supp. App. 140
before the District of Columbia in Washington D.C.
before German courts.
E. Summary
Regarding question 1) The “Welfenschatz” Consortium has no separate legal existence under German law.
Regarding question 2) During the years 1929 to
1935 – based on German law – the art dealerships,
respectively their owners, referred to as “buyers”
under (1) to (3) in the contract dated October 5,
1929 and as “Consortium” under 1.) to 3.) in the
contract dated June 14, 1935 were the sole owners
of the “Welfenschatz”.
Regarding question 3) The plaintiffs Alan Philipp,
Gerald Stiebel, and Jed Leiber cannot pursue their
claims before German courts.
F. Attachments
Professional career:
•

Study of Law, Philosophy and History in Erlangen, Frankfurt am Main and Berlin. Visiting student in Italy (1978/79) and the United
States of America (1983/84)

•

PhD at University of Frankfurt am Main 1988

•

Post-doctoral qualification at University of
Frankfurt am Main 1992

•

Lecturer at the Universities of Würzburg, Erlangen, Münster, Frankfurt am Main and
Greifswald from 1992-1994

Supp. App. 141
•

Professor for Civil Law and Modern Private
Law History at Europe – an University/
Viadrina in Frankfurt an der Oder from 1995
– 1998

•

Professor for Civil Law and Legal History at
the University of Hanover since April 1, 1998

Bibliographie:
I. Selbständige Schriften (Monographien. Lehrbilcher and Kommentierungen)
2015
24. Doppelte Körper im Recht. Traditionen
des Pluralismus zwischen staatlicher Einheit undtransnationaler Vielheit, Mohr Siebeck, Tubingen 2015, 400 S.
2014
23. Rechtsgeschichte. Eine Einführung. 5.
Auflage, Böhlau, Köln-Weimar-Wien 2014 (UTBTaschenbuch 2299), 509 S.
2013
22. Familienrecht. Von der Antike bis zur
Gegenwart, Böhlau, Köln-Weimar-Wien 2013
(UTB-Taschenbuch 3901), 278 S.
21. BGB-Bankvertragsrecht, §§ 675c – 676 c
BGB (Recht der Zahlungsdienste),in: Historisch
Kritischer Kommentar zum BGB (hg. v. Matthias
Schmoeckel, Joachim Ruckert, Reinhard Zimmermann, Bd. III Schuldrecht: Besonderer Teil, Teilband III/2, 2013 (mit A. Czelk).

Supp. App. 142
20. BGB-Bankvertragsrecht, §§ 783-792 BGB
(Anweisung), in: Historisch Kritischer Kommentar zum BGB (hg. v. Matthias Schmoeckel, Joachim Rückert, Reinhard Zimmermann, Bd. Ill
Schuldrecht Besonderer Teil, Teilband III/2, 2013
(mit A. Czelk).
2011
19. Rechtsgeschichte. Eine Einführung, 4.
Auflage,
Böhlau,
Köln-Weimar-Wien
2011
(UTBTaschenbuch 2299), 509 S.
18. Gesetzliches Güterrecht und sozialer
Wandel. Grundgedanken der Zugewinngemeinschaft, ihr Verhältnis zum vertraglichen Güterrecht und ihre Zukunft in
Europa(Schriftenreihe der Juristischen Studiengesellschaft Hannover), Nomos, Baden-Baden
(2011), 48 S.
17. lus non scriptum. Le tradizioni della
produzione giuridica privata. Editor’a’e Scientifica, Neapel 2011, 381 S (ltalienische
Übersetzung von Nr. 14).
2010
16. Gottlieb Planck und die Kunst der Gesetzgebung (Schriftenreihe des Instituts fur
Rechtsgeschichte, Rechtsphilosophie und Rechtsvergleichung der Georg-August-Universitat Gottingen, Bd. 2), Nomos, Baden-Baden 2010, 134 S.
15 Grundprobleme und Geschichte der Zugewinngemeinschaft. Wandel der Rollenleitbilder und fortschreitende Individual-

Supp. App. 143
isierung im Güterrecht, Universitatsverlag
Halle-Wittenberg, Halle an der Seale 2010, 89 S.
2009
14. lus non scriptum. Traditionen privater
Rechtsetzung, 2. Auflage, Mohr Siebeck, Tübingen
(2009), 307 S (das Buch wurde im Jahre 2012 von
Geisteswissenschaften International mit dem
“Preis zur Förderung der Übersetzung geisteswissenschaftlicher Literatur” ausgezeichnet).
13. BGB-Bankvertragsrecht (Kommentierung
Girovertrag), §§ 676 f-g BGB (Gutschrift), in: P.
Derleder, K.O Knops, H.G. Bamberger (Hg.),
Handbuch zum deutschen und europäischen
Bankrecht, Springer-Verlag, 2. Auflage, BerlinHeidelberg 2009, § 44 (S. 1267-1283).
2008
12. Rechtsgeschichte. Eine Einführung, 3.
Auflage, Böhlau, Köln-Weimar-Wien 2008 (UTBTaschenbuch 2299), 479 S.
11. lus non scriptum. Traditionen privater
Rechtsetzung, 1. Auflage, Mohr Slebeck, Tübingen 2008, 205 S.
10. Grundwissen Sachenrecht, 2. Auflage,
Mohr-Siebeck, Tübingen 2008 (UTBTaschenbuch
2653), 275 S. (mit Andrea Czelk).
2005
9. Rechtsgeschichte. Eine Einführung, 2.
Auflage, Böhlau, Köln-Weimar-Wien 2005 (UTBTaschenbuch 2299), 473 S.

Supp. App. 144
8. Grundwissen Sachenrecht, 1. Auflage,
Mohr-Siebeck, Tübingen 2005 (UTB-Taschenbuch
2653) 276 S. (mit Andrea Czelk).
2004
7. Mißverstehen und Verstehen. Savignys
Grundlegung der juristischen Hermeneutik,
Mohr-Siebeck, Tübingen 2004, 284 S.
6. BGB-Bankvertragsrecht (Kommentierung
Girovertrag), §§ 676 f-g BGB (Gutschrlft), In: P.
Derleder, K.-O. Knops, H G. Bamberger (Hg.),
Handbuch zum deutschen und europäischen
Bankrecht, Springer-Verlag, 1. Auflage, BerlinHeidelberg 2004, § 38 (S 951-966).
2002
5. Rechtsgeschichte. Eine Einführung, 1.
Auflage,
Böhlau,
Köln-Weimar-Wien
2002
(UTBTaschenbuch 2299), 383 S.
1999
4. Urteilen. Elemente von Kants reflektierender Urteilskraft in Savignys Lehre von
der juristischen Entscheidungs- und Regelfindung (lus Commune – Veröffentlichungen des
Max-Planck-Instituts für europäische Rechtsgeschichte Frankfurt am Main. Sonderhefte -Studien
zur europäischen Rechtsgeschichte Nr. 118. Reihe
Savignyana Texte und Studien Nr. 4), Vittorio
Klostermann, Frankfurt am Main 1999, 304 S.

Supp. App. 145
1996
3. Die bargeldiose Zahlung. Ein rechtshistorischer Beitrag zur dogmatischen Einordnung des Kreditkartenverfahrens (Juristische
Abhandlungen Bd. 30), Vittorio Klostermann,
Frankfurt am Main 1996, 294 S
1993
2. Schuld, Zufall, Risiko. Untersuchung
struktureller Probleme privatrechtlicher Zurechnung Habil Ffm 1992 (Juristische Abhandlungen Bd. 23). Vittorio Klostermann, Frankfurt
am Main 1993, 390 S.
1989
1. Schadensersatz als Enttauschungsverarbeitung. Zur erkenntnistheoretischen Grundlegung eines modernen Schadensbegriffs
Diss Ffm 1988 (Schriften zur Rechtstheone Heft
135), Duncker & Humblot, Berlin 1989 178 S
II Unselbständige Schriften (Aufsätze, Lexikonartikel, Buch- und Entscheidungsrezensionen ab
1993; Buchbeiträge sind kursiv hervorgehoben)
2016
167. Giro Payments and the Beginnings of
the Modern Cashless Payment System, in: David Fox, Wolfgang Ernst (Hg.), Money in the Western Legal Tradition. Middle Ages to Bretton
Woods. Oxford (2016), S. 441-460.

Supp. App. 146
2015
166. Schriftlichkeit, Papier und Recht. Zum
Wendel der Speichermedien in Moderne und
Postmoderne – eine Skizze, in. Zeitschrift der
Savigny-Stiftung fur Rechtsgeschichte (Germanistische Abteilung) 132 (2015), S. 219-250.
165. Das nordische Ehemodell als Vorreiter
far die Reform des Ehe- und Familienrechts
im Common Law und in Deutschland zur
Zeit der Weimarer Republik, in Reformforderungen zum Familienrecht international. Bd. 1:
Westeuropa und die USA, 18301914, Böhlau Verlag Köln-Weimar-Wien (2015), S. 669-696.
164. Familienrechtspolitische Reformforderungen der Frauenrechtsbewegungen in
Westeuropa und den USA im langen 19.
Jahrhundert, in: Reformforderungen zum
Familienrecht international. Bd. 1: Westeuropa und die USA, 1830-1914, Böhlau-Verlag
Köln-Weimar-Wien (2015), S. 11-105 (mit Christoph-Eric Mecke).
2014
163. Rhetorik als Element juristischer
Entscheidungsfindung in: Gert Ueding, Gregor
Kalivoda (Hg.), Wege moderner Rhetorikforschung Klassische Fundamente und interdisziplinäre Entwicklung, Berlin, Boston (2014), S.
267-288
162. Ungeschriebenes ‘Recht’ im transnationalen Raum am Beispiel der Corporate
Governance Verhaltenscodices. Stand und

Supp. App. 147
Perspektiven, in: Gralf-Peter Calliess (Hg.),
Transnationales Recht, Tubingen 2014, S 257-276
161. Der Stifterwille im Spannungsfeld von
privatautonomer Gestaltungsfreiheit und
staatlicher Kontrolle. Hat Savigny eine
obrigkeitliche Sicht des Stiftungsrechts? In.
Dominique Jakob, Lukas von Orelli (Hg.), Der
Stifterwille: Ern Phänomen zwischen Vergangenheit, Gegenwart und Ewigkeit, Bern 2014, S. 81101.
160. Gesinderecht als Familienrecht: ‘Versorgung gegen Gehorsam’ statt ‘Lohn gegen
Arbeit’, in: Kirsten Scheiwe, Johanna Krawietz
(Hg.), (K)eine Arbe t wie jede andere? Die Regulierung von Arbeit im Privathaushalt, Berlin, Boston (2014), S 41-59 (Juristsche Zeitgeschichte,
Abte lung 2: Forum Juristische Zeitgeschichte, hg.
v. Thomas Vormbaum, Bd 20).
159. Die Errungenschaftsgemeinschaft –
ihre Verbannung aus dem BGB und ein
Pladoyer für ihre Wiederkehr, in: FS Gerd Brudermüller (2014), S. 459.469
158. Öffentliches Recht und Privatrecht im
Entstehungsprozess des modernen Familienrechts, in FS Dieter Martiny (2014), S. 927943.
157. Legitimation güterrechtlicher Teilhabe
im Spannungsverhältnis von Solidarität und
Individualisierung in: Rechtswissenschaft 5
(2015), S. 1-26 (mit Christoph-Eric Mecke).

Supp. App. 148
156. Leibzins, in Handwörterbuch zur deutschen Rechtsgeschichte, 2. Auflage, Köln (2014),
Sp 831-832
155. Beginn der Verjährungsfrist bei unterlassener Aufklärung über die Höhe der
Rückvergütung in. WuB I G 1. – 11.14 (September 2014), S. 417-420 (mit Markus Flick).
2013
154. Zetetik versus Dogmatik? Eine Grundfrage der juristischen und theologischen Hermeneutik, in: Stephan Meder, Gaetano Carlizzi,
Christoph-Eric Mecke, Christoph Sorge (Hg), Juristische Hermeneutik zwischen Vergangenheit
und Zukunft, Baden-Baden, Bern (2013), S 225244
153. Interpretation und Konstruktion. Zur
juristischen Hermeneutik von Francis Lieber
(1800-1872) in: Stephan Meder, Gaetano Carlizzi,
Christoph-Eric Mecke, Christoph Sorge (Hg.), Juristische Hermeneutik zwischen Vergangenheit
und Zukunft, Baden-Baden, Bern (2013), S. 11-35
(erweiterte Fassung von Nr. 142).
152. Autoren
gegen
Piraten.
Francis
Liebers Plädoyer für ein “Inter-national Copyright” von 1840 – ein frühes Zeugnis des “International Copyright Movement”, in: UFITA
(2013), S. 153-172.
151. Das geltende Ehegüterrecht – ein kritischer Aufriss, in: Gerd Brudermüller, Barbara
Dauner-Lieb, Stephan Meder (Hg.), Wer hat Angst
vor der Errungenschaftsgemeinschaft? Auf dem

Supp. App. 149
Weg zu einem partnerschaftlichen Güterrecht
(2013), S. 13-22.
150. Introduction: Family Law in Early
Women’s Rights Debates. in: Stephan Meder,
Christoph-Eric Mecke (Hg.), Family Law in Early
Women’s Rights Debates. Western Europe and the
United States in the 19th and early 20th centuries
(2013), S. 11-20 (mit Christoph-Eric Mecke)
149. Die Entdeckung der Institutionen des
Gaius: Zufall oder Not-wendigkeit? Zu Mario
Varva-ro, Le Istituzioni di Gaio e it Glücksstern di
Niebuhr (2012), in: Annaeus. Anales de la
Tradición Romanistica, Vol. 10 (2013), S. 55-67.
148. Karl Riesenhuber (Hg.), Das Prinzip
der Selbstverantwortung. Grundlagen and
Bedeutung im heutigen Privatrecht. (2011),
in: AcP 213 (2013), S. 305-315.
147. Paolo Grossi, II diritto nella storia dell’
Italia unita, in: SZ (GA) 129 (2013), S. 546-548.
146. Margareth Lanzinger, Gunda BarthScalmani, Ellinor Forster, Gertrude LangerOstrawsky (Hg.), Aushandeln von Ehe. Heiratsverträge der Neuzeit im europäischen
Vergleich, in: SZ (GA) 129 (2013), S. 477-479.
145. Anita Augspurg – Anmerkungen zur
Studienausgabe, in: Christiane Henke (Hg.),
Anita Augspurg. Rechtspolitische Schriften –
Studienausgabe (2013), S. 9-12.
144. Bestimmungen in AGB eines Kreditinstituts, in denen für einen DarlehnsKontoauszug durch das Kreditinstitut ein Entgelt

Supp. App. 150
gefordert wird (LG Frankfurt am Main, Udell
vom 6 März 2013), in: EWiR 21 (2013), S. 669-670
(mit Markus Flick).
2012
144. Auslegung als Kunst bei Savigny. Reflektierende Urteifskraft, Rhetorik und Rechtsquelleniehre als Elemente juristischer
Entscheidungsfindung, in: Gottfried Gabriel,
Rolf Gröschner (Hg), Subsumtion, Schlüsselbegrifi
der Juristischen Melhodenlehre, Tübingen (2012),
S, 149-177.
143. “Etwas aus Nichts”? Reziprozität als
Forschungsheuristik in der Rechtsgeschichte
und im geltenden Recht, in: Manfred Rehbinder
(Hg.), Vom homo oeconomicus zum homo reciprocans? Auf der Suche nach einem neuen Menschenbild als Erkläungsmuster für Recht, Wirtschaft
und Kultur (2012), S. 117-143.
142. Interpretation und Konstruktion. Zur
juristischen Hermeneutik von Francis
Lieber (1800-1872), in JZ (2012), S. 529-538.
141. Hannover. Zur Geschichte des Notariats auf dem Territorium des heutigen Niedersachsens, in. Mathias Schmoeckel, Werner
Schubert (Hg.), Handbuch zur Geschichte des
Deutschen Notariats seit der Reichsnotarordnung
von 1512, Baden-Baden (2012). S. 387418.
140.
Gottlebt Plancks Vorlesungen über
“Immaterialgüterrecht” und das “Geistige
Eigentum”, in: UFITA (2012), S. 171-196.

Supp. App. 151
139. Prozeß (Einführung; Römische Antike; Mittelalter; Neuzeit), In: Historisches Wörterbuch der
Rhetorik, hg. v. Gerd Ueding, Bd. 10, Berlin, Boston (2012), Sp. 975-977 und Sp. 980-993.
138. Prozeß (Griechische Antike), in: Historisches Wörterbuch der Rhetorik, hg. v. Gerd Ueding, Bd. 10, Berlin, Boston (2012), Sp. 977-980 (mit
Christoph Sorge).
137. Individuallsierung von Lebensverläufen und Verantwortungskooperationen.
Heraustorderungen eines geschlech-tergerechten Ehe-, Partnerschafts- und Famitienrechts, Jahrbuch für Christliche Sozialwissenschatten, Bd. 53 (2012), S. 139-170.
136. Gütertrennung” als Argument bei der
richterlichen Inhaitskontrolle von Verträgen über den Ausschluß der Zugewinngemeinschaft, in: FPR (2012), S. 113-116.
135. Stellungnahme anlässlich der Anhörung int Ausschuss für Familie, Senioren,
Frauen und Jugend im Deutschen Bundestag zum Ersten Gleichstellungsbericht der
Buncfesregierung “Neue Wege – Neue Chancen” (2012, S. 1-13).
134. Die Entdeckung der Institutionen des
Gaius: Zufall oder Notwendigkeit? Zu Mario
Varvaro, Le Istituzioni di Gala e il Glücksstern
di Niebuhr (2012), in: Annaeus. Anales de la
Tradición Romanistica (2012), S. 420-434.
133. Dieter Henrich, Werke im Werden. Über
die Genesis philosophischer Einsichten (2011),

Supp. App. 152
in: Seminarios Complutenses de Derecho Romano
(SCDR) XXV (2012), S 457-461.
132. Michael Goldhammer, Geistiges Eigentum und Eigentumstheorie. Rekonstruktion
der Begründung von Eigentum an immateriellen Gütern anhand der US-amerikanischen Eigentumstheorie, in: UFITA (2012), S.
832-836
131. Pailer, Gaby, Hedwig Dohm (2011), in:
SZ (GA) 129 (2012), S 694-696.
130. Überweisung bei erloschenem Girovertrag (OLG Karlsruhe, Urteil vom 30. März
2011), in: WuB I D 1. – 1.12 (Januar 2012), S. 5-8.
129. Voraussetzungen und Wirkungen der
Genehmigung einer Lastschrift (BGH, Urteil
vom 13. Oktober 2011), in: LMK (2012), S. 16-18.
128. Keine Lastschriftgenehmigung bei Personenidentität zwischen Zahlungspflichtigem und Zahlungsempfänger (BGH, Urteil
vom 10. Mai 2011), in: WuB I D 2. – 4.12 (Juli
2012), S. 381-384 (mit Markus Flick).
2011
127. Valtazar Bogišić und die Historische
Schule. Rechtssoziologische und rechtsethnologische Folgerungen aus Savignys Rechtsquellenlehre, in: Spomenica Valtazara Bogišić a
o stogodišnjici njegove smrti, Knjiga 1 (GS Valtazar Bogišić , Bd. 1), Belgrad 2011, S 517-537.
126. Wie “geschichtlich” ist die Historische
Rechtsschule? Der rōmische Formularprozeß
und die Forderungen zur Reform des

Supp. App. 153
Prozeßrechts um die Mitte des 19. Jahrhunderts,
in: Römische Jurisprudenz, Dogmatik Überlieferung, Rezeption (FS Dellef Liebs), Berlin
2011, S. 433-453.
125. Interzession und Privatautonomie. Abschied vom Kriterium “struktureller Unterlegenheit” bei den Angehörigenbürgschaften?
in GS Manfred Wolf, C.H. Beck Munchen 2011, S
253-268
124. Gesetzestreue
oder
freie
Rechtsfindung? Wandel der Rechtskulturen in Kaiserreich, Weimarer Zeit, Nationalsozialismus, Nachkriegszeit und globalisierter Welt
in Werner Faulstich (Hg.), Die Kultur des 20.
Jahrhunderts im Überblick, München (2011) S.
71-82.
123. Reformthemen im gesetzlichen und vertraglichen Ehegüterrecht – Überblick über
Handlungsfelder, in: BMFSFJ (Hg.), Zeit für
Verantwortung im Lebensverlauf – Politische und
rechtliche Handlungsstrategien. Dokumentation
der Tagung am 29.11.2010 im Deutschen Bundestag (2011), S. 24-44 (mit Barbara Dauner-Lieb).
122. Original-Referendarexamensklausur –
Zivilrecht: Sachenrecht – Altersvorsorge auf
Nachbars Kosten? In: JuS 2011 (Heft 2), S. 160165 (mit Markus Flick)
121. Gralf-Peter Calliess, Peer Zumbansen,
Rough Consensus and Running Code. A

Supp. App. 154
Theory of Transnational Private Law, in: JZ
2011, S. 37.
120. Cramer, John: Belsen Trial 1945. Der
Lüneburger Prozess gegen Wachpersonal
der Konzentrationslager Auschwitz und Bergen Belsen (2011), in: Niedersächsisches Jahrbuch für Landesgeschichte (2011), S. 330-333
119. Kein unvermeidbarer Rechtsirrtum
der Bank über die Aufklärungspflicht bei
Rückvergütungen, BGH, Beschluß vom 29. Juni
2010, in: WuB I G 1. – 6.11 (März 2011), S. 139-142
(mit Markus Flick).
118. Entscheidungserhebliche Gehörsverletzung, BGH, Beschluß vom 6. Juli 2010, in: WuB
I D 5a. (August 2011), S. 429-431.
117. Sorgfaltspflichten von Bank und
Kunde beim Online-Banking, insbesondere
Phishing, Kammergericht, Urteil vom 29. November 2010, in: WuB I D 1. (September 2011), S.
495-498 (mit Markus Flick).
2010
116. Opposition, Legislation, Wissenschaft:
Gottlieb Planck zum 100. Todestag, in: Jahrbuch der Juristischen Zeitgeschichte, Ed. 11
(2010), S. 163-184 (Wiederabdruck von Nr. 111).
115. “Wer zahlt, befiehlt”? Die Kontroversen
um die Regelung des Kindesunterhalts von
1874 bis zur Weimarer Zeit, in: Kirsten Scheiwe,
Maria Wersig (Hg.), Einer zahlt und eine betreut?
Kindesunterhaltsrecht im Wandel, Nomos, BadenBaden 2010, S. 24-38.

Supp. App. 155
114. Gottlieb Plancks Entwürfe zum Urheber- und Verlagsrecht, in: UFITA (Archiv für
Urheber- und Medienrecht) 2010 (Heft 1), S 11-69.
113. Fall und Norm im Kontext von
Entscheldungstheorie und Hermeneutik. Zu
Oskar Hartwiegs Versuch über “Sachverhaltsarbeit als Steuerungselement im
Zivil-prozeß”, in: Hartwieg, Oskar, Sachverhaltsarbeit als Steuerungselement im Zivilprozeß.
Ein entscheidungstheoretischer Versuch, Göttingen 2010, S 1-14
112. Die Kämpfe um ein neues Ehe- und
Familienrecht in der Entstehungsphase des
Deutschen Bürgerlichen Gesetzbuchs, in Die
Rechtsstellung der Frau um 1900. Eine kommentierte
Quellensammiung
Köln-Weimar-Wlen
2010, S 9-33
111. Opposition, Legislation, Wissenschaft:
zum 100. Todestag von Gottlieb Planck, in: JZ
2010 (Heft 10), S. 477-485.
110. Von Wargen und Wölfen. Zu Walter
Koschorrecks Untersuchung von Schuld und
Strafe in frühen Rechtskulturen, in: Koschorreck, Walter, Der Wolf. Eine Untersuchung über
die Vorstellungen vom Verbrecher und seiner Tat
sowie vom Wesen der Strafe in der Frühzeit,
Vandenhoeck & Rupprecht, Göttingen 2010, S 117 (mit Arne Duncker).
109. Hannover, in: Handwörterbuch zur
deutschen Rechtsgeschichte, 2. Auflage, Erich
Schmidt Verlag, Köln 2010, Sp. 763

Supp. App. 156
108. Lüderssen, Klaus, Eichendorff und das
Recht, Insel, Frankfurt am Main und Leipzig
2007, 103 S., in: SZ (GA) 127 (2010), S. 732-734.
107. Amend-Traut, Anja, Wechselverbindlichkeiten vor dem Reichskammergericht.
Praktiziertes Zivilrecht in der Frühen Neuzeit, Böhlau, Köln, Weimar, Wien 2009, X, 534 S.,
in: Bankhistorisches Archiv (2010), S. 83-85.
106. Sittenwidrigkeit ruinöser Bürgschaften und Mithaftung naher Angöhoriger trotz
Möglichkeit einer Restschuldbefreiung, BGH,
Urteil vom 16 Juni 2009, in: jurisPR-BKR 4/2010,
Anm. 2.
105. Bank- und Kapitalmarktrecht als praktische Wissenschaft - Zur Entscheidungsrezension als Literaturgattung, in: jurisPR-BKR 5/2010,
Anm. 1.
104. Widerspruch von Lastschriftabbuchungen durch Insolvenzverwalter im Einzugsermächtigungsverfahren (OLG Koblenz
vom 26. November 2009; LG Ulm vom 14. Dezember 2009) in: WuB I D 2. – 3.10 (August 2010), S.
435-440
2009
103. Interpretation, in: The Oxford International Encyclopedia of Legal History, Oxford University Press, Oxford u.a. 2009, S. 297-301.
102. Grundprobleme und Geschichte der juristischen Hermeneutik, in: Rechtswissenschaft
und Hermeneutik. Kongress der Schweizerischen
Vereinigung für Rechtsund Sozialphilosophie, 16.

Supp. App. 157
und 17. Mai 2008, Archiv für Rechts- und Sozialphilosophie (ARSP) Beiheft Nr. 117 (hg. von
Marcel Senn und Barbara Fritschi), Stuttgart
2009, S. 19-37.
101. Problemi fondamentali e storia dell’ermeneutica giuridica, in: Ars Interpretandi,
Roma (2009), S. 27-49 (Übersetzung von Nr. 102).
100. Eigenverantwortung und Solidarität
im deutschen Ehegüterrecht: Reformforderungen der bürgerlichen Frauenbewegung
und künftige Ausgestaltung des Zugewinnausgleichsrechts, in: Rollenleitbilder und -realitäten in Europa: Rechtliche, ökonomische und
kulturelle Dimensionen. Dokumentation des
Workshops 20.-22. Oktober 2008, Villa Vigoni, Italien, hg. v. Bundesminsterium für Familie, Senioren, Frauen und Jugend (Forschungsreihe Bd.
8), Nomos, Baden-Baden 2009, S. 142-160.
99. lura novit curia? Oder: Von den Grenzen
richterlicher Rechtskenntnis, in: Mitteilungsblatt Niedersächsischer Richterbund: Bund
der Richterinnen und Richter, Staatsanwältinnen
und Staatsanwälte (NRB), 2009, S. 46-49.
98. “Lehman Brothers”, . . . - mal ganz anders, in: BKR 2009 (Heft 5), S. 215-217 (mit Matthias M. Arndt).
97. Fälschungsrisiken im Giroverkehr – Die
Aufteilung der Haftung zwischen Kreditinstitut und Kontoinhaber, in: Tradition mit
Weitsicht (FS für Eugen Bucher), Stämpfli Verlag,
Bern 2009, S. 529-543.

Supp. App. 158
96. Sanders, Anne, Statischer Vertrag und
dynamische
Vertragsbeziehung.
Wirksamkeits- und Ausübungskotrolle von Gesellschafts- und Eheverträgen, 2008, in: NJW 2009
(Heft 3), S. 133-134.
95. Höpfner, Clemens, Die systemkonforme
Auslegung. Zur Auflösung einfachgesetzlicher, verfassungsrechtlicher und europarechtlicher Widersprüche im Recht, 2008, in: JZ
2009 (Heft 3), S. 150.
94. Die Generalklausel im Europäischen
Privatrecht. Zur Leistungsfähigkeit der
deutschen Wissenschaft aus romanischer
Perspektive, hg. v. Christian Baldus und PeterChristian Müller-Graff, in: SZ (RA) 126 (2009), S.
610-614.
93. Eva Schumann (Hg.), Kontinuitäten und
Zäsuren. Rechtswissenschaft und Justiz im
“Dritten Reich” und in der Nachkriegszeit
(2008), in: Niedersächsisches Jahrbuch für
Landesgeschichte (2009), S. 458-462.
92. Eugen Ehrlich, Politische Schriften, hg.
von Manfred Rehbinder (2007), in: SZ (GA) 126
(2009), S. 780-786.
91. Sittenwidrige
Schädigung
durch
Mißbrauch des Lastschriftverfahrens, BGH,
Urteil vom 21, April 2009, in: LMK 2009 (Heft 10),
S. 86-87.
2008
90. Das mundium und die rechtliche Konstruktion des Geschlechterverhältnisses in

Supp. App. 159
der Entstehungsphase des BGB, in: Von den Leges Barbarorum bis zum ius barbarum des Nationalsozialismus (FS für Hermann Nehlsen),
Böhlau, Köln-Weimar-Wien 2008, S. 682-706
89. Eigenverantwortung und Solidarität im
Familienrecht am Beispiel des Geschiedenenunterhalts, in: “Eigenverantwortung, private und öffentliche Solidarität – Rollenleitbilder
im Familien- und Sozialrecht im europäischen
Vergleich”. Dokumentation der Tagung 4.-6
10.2007, Villa Vigoni, Italien, hg. v. Bundesminsterium für Familie, Senioren, Frauen und Jugend
(Forschungsreihe Bd. 3), Nomos, Baden-Baden
2008, S. 81-98
88. Leistungsberechtigung und Kausaloder Drittverhältnis – Grund und Grundlagen der Leistungsrichtung in: Das Recht und
seine historischen Grundlagen (FS für Elmer Wadle), Dunker & Humblot, Berlin 2008, S. 595-625
(mit Nikolaus Brehmer und Thomas Gergen)
87. Kann Schadensersatz Strafe sein? Zum
Wandel des Verhältnisses von Schadensersatz und Strafe unter Berücksichtigung von
Gefährdungshaftung,
Versicherung
und
Familienrecht, in: Recht und Macht (FS für Hinrich Ruping), Herbert Utz Verlag, München 2008,
S. 125-152.
86. Mißbrauch von EC-Karten, AG Frankfurt am Main, Urteil vom 16. Januar 2007, in:
EWiR 2008 (Heft 1), S. 5-6 (mit Anna-Maria
Beesch).

Supp. App. 160
85. Auslegung einer Vollmacht über den
Tod hinaus, OLG Koblenz, Urteil vom 8. März
2007, in: WuB I B 1. – 1.08 (Januar 2008), S. 1-2
(mit Markus Flick).
84. Offenlegungspflicht der Bank hinsichtlich Rückvergütungen, BGH, Urteil vom 19
Dezember 2006, in: WuB I G 1. – 1.08 (April 2008),
S. 265-266 (mit Markus Flick).
83. Schadensersatzanspruch eines PhishingOpfers gegen den ins Ausland welter überweisenden Geldkurier, LG Köln, Urteil vom 5.
Dezember 2007, in: EWiR 2008 (Heft 8), S. 243-244
(mit Dirk Blissenbach).
82. Beweis des ersten Anscheins für eine gemeinsame Verwahrung von ec-Karten und
persönlicher Geheimzahl durch den Karteninhaber, OLG Frankfurt am Main, Urteil vom 30
Januar 2008, in: WuB I D 5 b. – 1.08 (Juli 2008), S.
487-490 (mit Markus Flick).
81. Auslegung und Wirksamkeit einer AGBKlausel zur Teilnahme am Lastschriftverfahren, BGH, Urteil vom 29. Mai 2008, in: jurisPRBKR 6/2008, Anm. 2.
2007
80. Grundprinzipien des Geschiedenenunterhalts – ‘clean break’ oder fortwirkende nacheheliche Solidarität, in: Kirsten Scheiwe
(Hg.), Soziale S cherungsmodelle revisited Ex
stenzsicherung durch Sozial und Familienrecht
und ihre Geschlechterdimensionen, Nomos Baden-Baden 2007, S. 169-184.

Supp. App. 161
79. Abstraktes Schuldversprechen oder angenommene Anweisung? Zur Rechtsgrundlage für den Anspruch des Begünstigten bei
Zahlungen im Mehrparteienverhältnis, in:
Spuren des römischen Rechts (FS für Bruno
Huwiler), Stämpfli Verlag, Bern 2007, S 441-468
78. Gregor Bachmann, Private Ordnung.
Grundlagen ziviler Regelsetzung (Jus Privatum 112), Tübingen, Mohr Siebeck (2006), in: AcP
207 (2007), S. 256-263.
77. Grossi, Paolo, Prima lezione di diritto,
2003, in: SZ (GA) 124 (2007), S. 356-358
76. Caroni, Pio, Die Einsamkeit des Rechtshistorikers. Notizen zu einem problematischen Lehrfach, 2005, in: SZ (GA) 124 (2007),
S 411-417.
75. Grossi, Paolo, L’ordine giuridico medievale, 11. Auflage, 2004, in: SZ (GA) 124 (2007), S.
448-452.
74. Lyles, Max, A Call For Scientific Purity:
Axel Hägerström’s Critique of Legal Science
2006, in: SZ (GA) 124 (2007), S. 734-737.
73. Bandilla, Kai, Urheberrecht im Kaiserreich. Der Weg zum Gesetz betreffend das
Urheberrecht an Werken der Literatur und
Tonkunst vom 19. Juni 1901, 2005, in: UFITA
(Archiv für Urheber- und Medienrecht), 2007
(Heft 2), S. 518-520.
72. Keine
unzulässige
Rechtsberatung
einer Verbraucherzentrale bei Forderungseinziehung, BGH, Urteil vom 14. November

Supp. App. 162
2006, in: EWiR 2007 (Heft 5), 135136 (mit AnnaMar a Beesch).
71. Keine Rechts- und Parteifähigkeit der
Erbengemeinschaft, BGH, Beschluß vom 17.
Oktober 2006 in: WuB IV A – 1.07 (März 2007), S.
137-138 (mit Markus Flick).
70. Fehlgehende Überweisung im beleglosen Überweisungsverkehr, OLG Dresden,
Beschluß vom 19. März 2007, in: WuB I D 1. – 3.07
(September 2007), S. 581-582 (mit Markus Flick).
69. Billigkeitskontrolle von Gaspreiserhöhungen, BGH, Urteil vom 13. Juni 2007, in: LMK
2007 (Heft 10), S 60-61 (mit Markus Flick).
2006
68. Die Krise des Nationalstaates und ihre
Folgen für das Kodifikationsprinzip, in: JZ
2006 (Heft 10), S. 477-484.
67. Rechtsprobleme bei Zahlungen im Internet – Kreditkarte, PayPal, CyberCash & Co, in:
Mathis Hoffmann, Stefan Leible, Olaf Sosnitza
(Hg.), Vertrag und Haftung im E-Commerce,
Boorberg, Stuttgart 2006, S. 99-119.
66. Forderungen von Friedrich D.E. Schleiermacher (1768-1834) zur Verbesserung der
Rechtsstellung von Frauen in einem ungedruckten Fragment aus dem Jahre 1797, in
“Frauenrechl und Rechtsgeschichte. Die Rechtskampfe der deutschen Frauenbewegung” Böhlau,
Köln-Weimar-Wien 2006, S. 67-88.
65. Lerch, Kent (Hg.), Die Sprache des
Rechts. Studien der interdisziplinären

Supp. App. 163
Arbeitsgruppe Sprache des Rechts der
Berlin-Brandenburgischen Akademie der
Wissenschaften, Band 1 Recht verstehen.
Verständlichkeit, Missverständlichkeit und
Unverständlichkeit von Recht, 2004, in: SZ
(GA) 123 (2006), S. 428-435.
64. Funke, Andreas, Allgemeine Rechtslehre als juristische Strukturtheorie. Entwicklung und gegenwärtige Bedeutung der
Rechtstheorie urn 1900, 2004, in: SZ (GA) 123
(2006), S 655-658.
63. Schüller, Elke, Marie Stritt. Eine “kampffrohe Streiterin” in der Frauenbewegung
(1855-1928) – mit dem erstmaligen Abdruck
der unvollendeten Lebenserinnerungen von
Marie Stritt, 2005, in: SZ (GA) 123 (2006), S. 727729.
62. Senn, Marcel/Thier, Andreas, Rechtsgeschichte III – Textinterpretationen, 2005, in:
SZ (GA) 123 (2006). S 390-392.
61. Fehlerhafte
Überweisung
im
elektronischen Überweisungsverkehr, BGH,
Urteil vom 15 November 2006 in: LMK 2006 (Heft
2), 29-30.
60. Wiedergutschrift,
sorgfältige
Aufbewahrung der ec-Karte, Mitverschulden,
LG Bonn, Urteil vom 23. August 2005, in: EWiR
2006 (Heft 16), S. 487-488 (mit Anna-Maria
Beesch).

Supp. App. 164
2005
59. Sonderstellung des Insolvenzverwalters im Einzugsermächtigungsverfahren? In
NJW 2005 (Heft 10). S. 637-638.
58. Die Erfüllung einer Geldschuld im Einzugsermächtigungsverfahren in: JZ 2005
(Heft 22), 1089-1095
57. PayPal – Die “Internet-Währung” der Zukunft, in. BKR 2005 (Heft 12), S. 467-477 (mit Oaf
Grabe)
56. Ebel, Friedrich/Thielmann, Georg, Rechtsgeschichte. Von der römischen Antike bis
zur Neuzeit, 3. Auflage 2003, in: SZ (GA) 122
(2005), S. 381-383.
55. Fasel, Urs, Repetitorium zur Rechtsgeschichte, 2004, in: SZ (GA) 122 (2005), S 384387.
54. Anscheinsbeweis für Kundenverschulden bei Barabhebung mit gestohlener ecKarte unter Eingabe der richtigen PIN, BGH,
Urteil vom 5. Oktober 2004, in: LMK 2005 (Heft
2), S 23-24.
53. Unterschrift auf Leistungsbeleg im MailOrder-Verfahren entbehrlich, BGH, Urteil
vom 12. Juli 2005, in: LMK 2005 (Heft 10), S. 8182.
52. Risiko des Kreditkartenmißbrauchs im
Mail-Order-Verfahren, österreichischer OGH,
Urteil yam 13 Juni 2005, in: EWiR (Entscheidungen zum Wirtschaftsrecht) 2005 (Heft 20), S
749-750.

Supp. App. 165
2004
51. Übertragung durch Geld im Zeitalter elektronischer Medien. Zu Aktualität und
Rezeption von Friedrich D.E. Schleiermachers “Philosophie des Geldes”, in: Sabine
Sanio, Christian Scheib (Hg.), Übertragung –
Transfer – Metapher. Kulturtechniken, ihre Visionen und Obsessionen, Kerber, Bielefeld 2004, S.
129-163.
50. Kontrahierungszwang versus protestatioRegel am Beispiel des Abschlusses eines Überweisungsvertrags, in: Informatik – Wirtschaft –
Recht (FS Wm. Wolfgang Kilian), Nomos, BadenBaden 2004, S. 689-703.
49. Bezahlen im E-Commerce. in: JZ 2004
(Heft 10), S. 503-508.
48. Prüfungspflichten des Acquirers gegenüber dem Vertragshändler vor Vergütung elektronisch übermittelter Kreditkartentransaktionen? In: BKR 2004 (Heft 2), S. 242-247.
47. Kein Zahlungsanspruch des Vertragsunternehmens
gegen
Kreditkartenunternehmen im Mailorderverfahren bei Unvollständigkeit der Leistungsbelege, BGH, Urteil
vom 16 Marz 2004 – XI ZR 13/03, in: ZIP 2004
(Heft 22), S. 1041-1046
46. Kündigung eines Girokontos der Republikaner durch die Postbank, BGH, Urteil
vom 2. Dezember 2003, in: LMK 2004 (Heft 6), S.
103.

Supp. App. 166
45. Zur Widerspruchspflicht des Kontoinhabers gegen Belastungsbuchung aus Einzugsermächtigungslastschrift, in: WuB I D 2. –
3.04 (Oktober 2004), S. 733-736.
44. Verweigerung der Überweisung von
Minderjährigenkonten durch die Bank bei
Verdacht der Steuerhinterziehung durch die
Eltern, BGH, Urteil vom 15 Juni 2004, in: LMK
2004 (Heft 11), S. 206-207
2003
43. Annahme durch Schweigen bei Überweisungsvertrag und Gutschrift, in JZ 2003
(Heft 9), S. 443-447.
42. Bewels des ersten Anscheins bei Mißbrauch von Kreditkarte und PIN, OLG Frankfurt am Main, Udell vom 07. Mai 2002, in: WuB I
D 5 a. – 1.03 (Februar 2003), S. 117-120.
41. Unwiderruflichkeit der Weisung nach
Unterzeichnung des Kreditkartenbelegs und
der Einwand des Rechtsmißbrauchs, BGH,
Urteil vom 24 September 2002, in: LMK 2003
(Heft 5), S 84-85
2002
40. Rechtsgeschichte und Privatrechtsdogmatik, in: SZ (RA) 119 (2002), S. 574-598.
39. Kreditkartenmißbrauch im Fernabsatz,
in: NJW 2002 (Heft 31), S. 2215-2216.
38. Kritische Präjudizientreue im Anschlulß
an die neue BGH-Rechtsprechung zum
Kreditkartenmißbrauch im Fernabsatz. Zum

Supp. App. 167
Urteil des OLG Naumburg vom 20. August
2002, in: ZIP 2002 (Heft 47), S 2112-2117.
37. Die Kreditkartenzahlung im Internetund Mail-Order-Verfahren, in: Wertpapier Mitteilungen (WM) 2002 (Heft 40), S. 1993-1998.
36. Die Risikozuordnung im bargeldlosen
Zahlungsverkehr. Von Katja Langenbucher
(Münchener Universitatsschriften, Bd. 160), 2001.
In: NJW 2002 (Heft 40), S. 2933.
2001
35. Häusliche Gewalt und eheliches Fehlverhalten als Kriterien für die Wohnungszuweisung geman § 1361 b BGB, in:
Familie und Recht (FuR) 2001 (Heft 5), S. 193-196.
34. Haftungsumfang bei Verletzung vorvertraglicher Offenbarungspflichten im Rahmen von Kapitalanlagegeschäften (BGH,
Urteil vom 19. Dezember 2000), in: WuB I G 9. –
1.01 (Mai 2001), S 401-404.
33. Keine Abwälzung des KreditkartenMißbrauchsrisikos vom Vertragsunternehmen auf Kreditkartenorganisation entgegen
vertraglicher Vereinbarung (OLG Frankfurt
am Main vom 25. Juni 2001), in: ZIP 2001 (Heft
36), S. 1583-1588.
32. Schuldhafte Verzögerung der Meldung
des Verlusts einer Kreditkarte, OLG Frankfurt am Main, Urteil vom 11. April 2001, in: WuB
I D 5 a. – 4.01 (November 2001), S. 1137-1140.

Supp. App. 168
2000
31. Kreditkartenmißbrauch: Die Verteilung
des Haftungsrisikos im Telephone-Order-,
Mail-Order- und Internet-Verfahren, in:
Zeitschrift für Bankrecht und Bankwirtschaft
(ZBB) 2000 (Heft 2), S. 89-100.
30. Die Haftung im beleglosen FernabsatzKreditkartengeschäft, in: NJW 2000 (Heft 29).
S. 2076-207B und S. 2114-2115.
29. Die Bestätigung eines unwirksamen
Rechtsgeschäfts (BGH, Urteil vom 1. Oktober
1999), in: WuB IV A – 1.00 (Januar 2000), S. 63-66.
28. Erlöschen des Pfandrechts durch
Auflösung einer Festgeldanlage (OLG Karlsruhe, Urteil vom 29. Januar 1999), in: WuB I F 2.
– 6.00 (Juni 2000), S. 535-537.
27. Teilhabe eines Ehegatten am Sparkonto
des anderen Ehegatten (BGH, Urteil vom 19.
April 2000), in: WuB I C 2. – 3.00 (September
2000), S. 823-826.
26. Rückforderung eines abstrakten Schuldanerkenntnisses wegen ungerechtfertigter
Bereicherung gernäß § 812 Abs. 2 BGB (BGH,
Urteil vom 18. Mai 2000), In: WuB IV A. – 2.00
(November 2000), S. 1153-1156.
1999
25. Schadens- und familienrechtliche Wertungen im Wandel. Kann der mit Kindesunterhalt verbundene finanzielle Aufwand als
Schaden qualifiziert werden? In Der Mensch
und seine Behandlung in der Medizin: bloß ein

Supp. App. 169
Mittel zum Zweck (hg. v. Jan C Joerden), Springer,
Berlin u.a. 1999, S. 157-173.
24. Stillschweigende Annahme der Kontogutschrift und Verwahrungsvorbehalt, in:
Wertpapier Mitteilungen (WM) 1999 (Heft 43), S.
2137-2141.
23. Privatversicherung im Dritten Reich:
Zur Schadensabwicklung nach der Reichskristallnacht unter dem Einfluß nationalsozialistischer Rassen- und Versicherungspolitik. Von Andre Botur, Berlin Verlag
(Berliner Juristische Universitätsschriften), Berlin 1995, 238 S. In: Zeitschrift für Neuere
Rechtsgeschichte (ZNR) 1999 (Heft 2), S 331-334
22. Privatautonomie und Kontrahierungszwang. Von Jan Busche (Jus Privatum Bd. 40). Tübingen, J.C.B Mohr (Paul Siebeck) 1999 722 S
In: NJW 2002 (Heft 4), S. 279.
21. Unterschied von Zivilrecht und Bürgerlichem Recht. Eine Einführung, in. Rechtsanwälte und ihre Spezialgebiete. 100 Anwaltskanzleien mit mehr als 500 Dienstleislungen im
Portrait, Ch. Kübler Verlag Wurzburg 1999, S 270271.
20. Sicherungsabtretung von Mietforderungen – Teilabtretung bei Anspruchskonkurrenz (BGH, Urteil vom 9. Dezember 1998), in
WuB I F.4 – 2.99 (Mai 1999), S. 413-416.
19. Die Annahme einer Kontogutschrift
(OLG Karlsruhe, Urteil vom 18. Juni 1998), in:
WuB I D 1. – 3.99 (Juli 1999) S 687-690.

Supp. App. 170
1998
18. Die
Kreditkartenzahlung
als
Anweisungsgeschäft. Zum Bedeutungswandel
rechtsgeschäftlicher Formen unter den Bedingungen eines automatisierten Zahlungsverkehrs, in: Archie für die civilistische Praxis
(AcP) Bd 198 (1998), Heft 1, S. 72104.
17. Kartenzahlung und Verbraucherverschuldung aus rechtlicher Sicht, Von Georg
Streit (Schriften zum Wirtschaftsrecht, Bd. 99). –
Berlin 1997. In: NJW 1998 (Heft 8), S. 516
16. Der Aufrechnungsvertrag. Aufrechnung durch Vertrag – Vertrag über Aufrechnung Von Klaus Peter Berger (Jus Privatum, Bd.
20). – Tübingen 1996. In: Zeitschrift fur das
gesamte Handeisrecht und Wirtschaftsrecht
(ZHR) 162 (1998), S. 491-494 (Heft 4).
1997
15. Der Streit urn die Kodifikation von
Recht und Schreibung. Seine Konsequenzen
für die geplante Reform der Rechtschreibung, in: JZ 1997 (Heft 4), S. 190-193.
14. Der Begriff des Privatrechts als Kriterium rechtsgeschichtlicher Forschung. Zur
Bedeutung des Kompensationsmodells für
die Neuere Privatrechtsgeschichte, in:
Zeitschrift für Neuere Rechtsgeschichte (ZNR)
1997 (Heft 3/4), S. 249-263.
13. Vom Beruf unserer Zeif für eine Reform
der Rechtschreibung. Zu den Verbindungslinien zwischen den historischen Schulen in

Supp. App. 171
Rechts- und Sprachwissenschaft, in: Universltätsschriften der Europa Universität Frankfurt (Oder), Antrittsvorlesungen Bd. V. Frankfurt
(Oder) 1997, S. 47-62.
12. Sittenwidrigkeit der Bürgschaft erwachsener, vermögensloser Kinder (BGH, Urteil
vom 10. Oktober 1996), in: Entscheidungssammlung zum Wirtschafts- und Bankrecht (WuB)
I F la. – 1.97 (Februar 1997), S. 85-88.
11. Bereicherungsausgleich bei irrtümlicher Ausführung eines befristeten Dauerauftrags zur Vornahme einer Giroüberweisung nach Fristablauf (LG NürnbergFürth, Urteil vom 22. Marz 1996), in WuB I D 1 –
4.97 (Juni 1997), S. 483-485.
1996
10. Rechtsfragen des bargeidlosen Zahlungsverkehrs unter besonderer Berücksichtigung der europäischen Entwicklung, in. JuS
1996 (Heft 2), S. 89-96.
9. Die Zulässigkeit einer isolierten Bepreisung
des Auslandseinsatzes von Kreditkarten, in.
NJW 1996 (Heft 29), S. 1849-1854.
8. Führt die Kreditkartennutzung im
Ausland zu einer Fremdwährungsschuld
gemäß § 244 BGB? In Wertpapier Mitteilungen
(WM) 1996 (Heft 46), S 2085-2093.
1995
7. Die Verweigerung des Kontakts als
schwere Verfehlung i.S. des § 1611 Abs. 1

Supp. App. 172
BGB, in: Familie und Recht (FuR) 1995 (Heft 1),
S. 23-31.
6. Rechtliche Aspekte ergonomischer Softwaregestaltung unter besonderer Berücksichtigung
der
EG-Bildschirmrichtlinie
90/270 EWG, in. Information Engineering
ELPUB 105. Usability study, hg v. European Commission, Directorate-General XIII. Telecommunications. Information Market and Exploitation of
Research, September 1995 (http://www.ucc
ie/hfrg/baseline).
1994
5. Höhere Gewalt als Entlastungsgrund –
ein Beispiel für die Konvergenz zweier Haftungsprinzipien, in: JZ 1994 (Heft 10), S. 485492.
4. Kreditkartengeschafte und Anweisungswiderruf gegenüber dem Kartenherausgeber, in: NJW 1994 (Heft 40), S. 2597-2598.
1993
3. Risiko als Kriterium der Schadensverteilung, in: JZ 1993 (Heft 11), S. 539-545.
2. Zur Unwiderruflichkeit der Zahlungsanweisung des Kreditkarteninhabers gem.
§ 790 BGB, in: NJW 1993 (Heft 50), S. 3245-3247.
1. Der Unterhaltsverzicht im Spannungsfeld von Privatautonomie und öffentlichem
Interesse, in. Familie und Recht (FuR) 1993(Heft
1), S 12-22.

Supp. App. 173
III. Herausgeberschaften
2015
23. Reformforderungen zum Familienrecht
international. Bd. 1: Westeuropa und die USA,
1830-1914, Böhlau-Verlag, Köln-Weimar-Wien
(2015), 805 S. (mit Christoph-Eric Mecke).
2013
22. Juristische Hermeneutik zwischen Vergangenheit und Zukunft, Baden-Baden (2013)
245 S. (mit Gaetano Carlizzi, Christoph-Eric
Mecke, Christoph Sorge).
21. Francis Lieber, On International Copyright in a letter to the Hon. William C. Preston, Senator of the United States, In: UFITA
(2013), S. 173-210.
20. Family Law in Early Women’s Rights Debates. Western Europe and the United States
in the 19th and early 20th centuries (2013),
Böhlau, Köln-Weimar-Wien, 2013 (mit ChristophEric Mecke)
19. Wer hat Angst vor der Errungenschaftsgemeinschaft? Auf dem Weg zu einem
partner-schaftlichen Güterrecht, 2013 (mit
Gerd Brudermüller und Barbara Dauner-Lieb).
18. Mitherausgeber der Reihe “Rechtsgeschichte und Rechtsgeschehen – Italien” (seit
2013 – mit Thomas Vormbaum u.a.).

Supp. App. 174
2012
17. Mitherausgeber der Reihe “Pensiero
giuridico e politico”, Editoriale Scientifica, Napoli (mit Francesco De Sanctis u a., seit 2012).
16. Gottlieb Planck, Vorlesung Immaterialgüterrecht in UFITA (2012), S 197-251.
2010
15. Die Rechtstellung der Frau um 1900.
Eine kommentierte Quellensammlung, Böhlau Köln-Weimar-Wien 2010, 1105 S (mit Arne
Duncker und Andrea Czelk).
14. Gottlieb Planck, Denkschrift betreffend
die Revision des Gesetzes vom 11. Juni 1870
betreffend das Urheberrecht an Schriftwerken, Abbildungen, musikalischen Kompositionen und dramatischen Werken, des
Gesetzes vom 9. Januar 1876 betreffend das
Urheberrecht an Werken der bildenden Künste und des Gesetzes vom 10. Januar 1876 betreffend den Schutz der Fotografien gegen
unbefugte Nachbildung (1889), in. UFITA 2010
(Heft 1), S. 71-174.
13. Gottlieb Planck, Begründung des
Entwurfes eines Gesetzes betreffend den
Verlagsvertrag(1890), in: UFITA 2010 (Heft 1),
S. 175-259.
12. Koschorreck, Walter, Der Wolf. Eine Untersuchung über die Vorstellungen vom Verbrecher und seiner Tat sowie vom Wesen der
Strafe in der Frühzeit, Vandenhoeck & Rupprecht, Göttingen 2010 176 S. (mit Alice Rössler).

Supp. App. 175
11. Hartwieg, Oskar, Sachverhaltsarbeit als
Steuerungselement im Zivilprozeß: Ein
entscheidungstheoretischer
Versuch,
Vandenhoeck & Rupprecht, Gottingen 2010, 264 S
10. Gottlieb Planck, Die Mitwirkung von
Laien bei der Rechtspflege, in: Gottlieb
Planck und die Kunst der Gesetzgebung, Nomos, Baden 2010, S 103-110.
9. Gottlieb Planck, Der Entwurf des bürgerlichen Gesetzbuches. in: Gottlieb Planck und
die Kunst der Gesetzgebung, Nomos, Baden-Baden 2010, S. 111-122.
2009
8. Herausgeber der Reihe Beiträge zu
Grundfragen des Rechts (V&R unipress, Göttingen, seit 2009).
7. Hans Erich Troje, Gegenpositionen.
Aspekte zur Zukunft von Ehe und Familie,
Böhlau, Köln-Weimar-Wien 2009, 269 S
2008
6. Juris
Praxis-Report
Bankund
Kapitalmarktrecht,
Juristisches
Informationssystem für die Bundesrepublik Deutschland, Saarbrücken (seit 2008, mit Anna-Maria
Beesch).
2006
5. Frauenrecht und Rechtsgeschichte. Die
Rechtskämpfe
der
deutschen
Frauenbewegung Böhlau-Verlag, Köln-Weimar-Wien

Supp. App. 176
2006, 389 S. (mit Arne Duncker und Andrea
Czelk).
2005
4. Herausgeber der Reihe Bank- und
Kapitalmarktrecht (V&R unipress, Göttingen,
seit 2005, mit Petra Buck-Heeb).
2003
3. Herausgeber der Reihe Rechtsgeschichte
und Geschlechterforschung (Böhlau, KölnWeimar-Wien, seit 2003, mit Arne Duncker).
2. Oskar Hartwieg. Tatsachen und Normarbeit im Rechtsvergleich. Studien zum
deutschen und englischen Recht (mit Hans
Albrecht Hesse. Mohr Siebeck, Tübingen 2003).
1999
1. Mitherausgeber des Hannoverschen Forums
der Rechtswissenschaften, Nomos, Baden-Baden
(1999-2010).
———

Supp. App. 177
HOLOCAUST EXPROPRIATED ART RECOVERY
ACT OF 2016
PUBLIC LAW 114–308—DEC. 16, 2016
130 STAT. 1524
An Act
To provide the victims of Holocaust-era persecution
and their heirs a fair opportunity to recover
works of art confiscated or misappropriated by
the Nazis.
Be it enacted by the Senate and House of Representatives of the United States of America in Congress
assembled,
SECTION 1. SHORT TITLE.
This Act may be cited as the “Holocaust Expropriated Art Recovery Act of 2016”.
SEC. 2. FINDINGS.
Congress finds the following:
(1) It is estimated that the Nazis confiscated
or otherwise misappropriated hundreds of thousands of works of art and other property throughout Europe as part of their genocidal campaign
against the Jewish people and other persecuted
groups. This has been described as the “greatest
displacement of art in human history”.
(2) Following World War II, the United
States and its allies attempted to return the stolen
artworks to their countries of origin. Despite these
efforts, many works of art were never reunited

Supp. App. 178
with their owners. Some of the art has since been
discovered in the United States.
(3) In 1998, the United States convened a
conference with 43 other nations in Washington,
DC, known as the Washington Conference, which
produced Principles on Nazi-Confiscated Art. One
of these principles is that “steps should be taken
expeditiously to achieve a just and fair solution”
to claims involving such art that has not been restituted if the owners or their heirs can be identified.
(4) The same year, Congress enacted the
Holocaust Victims Redress Act (Public Law 105–
158, 112 Stat. 15), which expressed the sense of
Congress that “all governments should undertake
good faith efforts to facilitate the return of private
and public property, such as works of art, to the
rightful owners in cases where assets were confiscated from the claimant during the period of Nazi
rule and there is reasonable proof that the claimant is the rightful owner.”.
(5) In 2009, the United States participated
in a Holocaust Era Assets Conference in Prague,
Czech Republic, with 45 other nations. At the
conclusion of this conference, the participating
nations issued the Terezin Declaration, which
reaffirmed the 1998 Washington Conference Principles on Nazi-Confiscated Art and urged all participants “to ensure that their legal systems or
alternative processes, while taking into account
the different legal traditions, facilitate just and
fair solutions with regard to Nazi-confiscated and
looted art, and to make certain that claims to

Supp. App. 179
recover such art are resolved expeditiously and
based on the facts and merits of the claims and all
the relevant documents submitted by all parties.”.
The Declaration also urged participants to “consider all relevant issues when applying various legal provisions that may impede the restitution of
art and cultural property, in order to achieve just
and fair solutions, as well as alternative dispute
resolution, where appropriate under law.”.
(6) Victims of Nazi persecution and their
heirs have taken legal action in the United States
to recover Nazi-confiscated art. These lawsuits
face significant procedural obstacles partly due to
State statutes of limitations, which typically bar
claims within some limited number of years from
either the date of the loss or the date that the
claim should have been discovered. In some cases,
this means that the claims expired before World
War II even ended. (See, e.g., Detroit Institute of
Arts v. Ullin, No. 06–10333, 2007 WL 1016996
(E.D. Mich. Mar. 31, 2007).) The unique and horrific circumstances of World War II and the Holocaust make statutes of limitations especially
burdensome to the victims and their heirs. Those
seeking recovery of Nazi-confiscated art must
painstakingly piece together their cases from a
fragmentary historical record ravaged by persecution, war, and genocide. This costly process often
cannot be done within the time constraints imposed by existing law.
(7) Federal legislation is needed because the
only court that has considered the question held
that the Constitution prohibits States from making exceptions to their statutes of limitations to

Supp. App. 180
accommodate claims involving the recovery of
Nazi-confiscated art. In Von Saher v. Norton Simon Museum of Art, 592 F.3d 954 (9th Cir. 2009),
the United States Court of Appeals for the Ninth
Circuit invalidated a California law that extended
the State statute of limitations for claims seeking
recovery of Holocaust-era artwork. The Court held
that the law was an unconstitutional infringement
of the Federal Government’s exclusive authority
over foreign affairs, which includes the resolution
of war-related disputes. In light of this precedent,
the enactment of a Federal law is necessary to ensure that claims to Nazi-confiscated art are adjudicated in accordance with United States policy as
expressed in the Washington Conference Principles on Nazi-Confiscated Art, the Holocaust Victims Redress Act, and the Terezin Declaration.
(8) While litigation may be used to resolve
claims to recover Nazi-confiscated art, it is the
sense of Congress that the private resolution of
claims by parties involved, on the merits and
through the use of alternative dispute resolution
such as mediation panels established for this
purpose with the aid of experts in provenance research and history, will yield just and fair resolutions in a more efficient and predictable manner.
SEC. 3. PURPOSES.
The purposes of this Act are the following:
(1) To ensure that laws governing claims to
Nazi-confiscated art and other property further
United States policy as set forth in the Washington Conference Principles on Nazi-Confiscated

Supp. App. 181
Art, the Holocaust Victims Redress Act, and the
Terezin Declaration.
(2) To ensure that claims to artwork and
other property stolen or misappropriated by the
Nazis are not unfairly barred by statutes of limitations but are resolved in a just and fair manner.
SEC. 4. DEFINITIONS.
In this Act:
(1) ACTUAL DISCOVERY.—The term “actual
discovery” means knowledge.
(2) ARTWORK OR OTHER PROPERTY.—The term
“artwork or other property” means—
(A)

pictures, paintings, and drawings;

(B)

statuary art and sculpture;

(C) engravings, prints, lithographs, and
works of graphic art;
(D) applied art and original artistic assemblages and montages;
(E) books, archives, musical objects and
manuscripts (including musical manuscripts
and sheets), and sound, photographic, and
cinematographic archives and mediums; and
(F) sacred and ceremonial objects and
Judaica.
(3) COVERED PERIOD.—The term “covered
period” means the period beginning on January
1, 1933, and ending on December 31, 1945.

Supp. App. 182
(4) KNOWLEDGE.—The term “knowledge”
means having actual knowledge of a fact or circumstance or sufficient information with regard to
a relevant fact or circumstance to amount to actual knowledge thereof.
(5) NAZI PERSECUTION.—The term “Nazi persecution” means any persecution of a specific
group of individuals based on Nazi ideology by the
Government of Germany, its allies or agents, members of the Nazi Party, or their agents or associates, during the covered period.
SEC. 5. STATUTE OF LIMITATIONS.
(a) IN GENERAL.—Notwithstanding any other
provision of Federal or State law or any defense at law
relating to the passage of time, and except as otherwise
provided in this section, a civil claim or cause of action
against a defendant to recover any artwork or other
property that was lost during the covered period because of Nazi persecution may be commenced not later
than 6 years after the actual discovery by the claimant
or the agent of the claimant of—
(1) the identity and location of the artwork
or other property; and
(2) a possessory interest of the claimant in
the artwork or other property.
(b) POSSIBLE MISIDENTIFICATION.—For purposes
of subsection (a)(1), in a case in which the artwork or
other property is one of a group of substantially similar multiple artworks or other property, actual discovery of the identity and location of the artwork or
other property shall be deemed to occur on the date

Supp. App. 183
on which there are facts sufficient to form a substantial basis to believe that the artwork or other property
is the artwork or other property that was lost.
(c) PREEXISTING CLAIMS.—Except as provided in
subsection (e), a civil claim or cause of action described
in subsection (a) shall be deemed to have been actually
discovered on the date of enactment of this Act if—
(1)

before the date of enactment of this Act—

(A) a claimant had knowledge of the
elements set forth in subsection (a); and
(B) the civil claim or cause of action
was barred by a Federal or State statute of
limitations; or
(2)(A) before the date of enactment of this
Act, a claimant had knowledge of the elements set
forth in subsection (a); and
(B) on the date of enactment of this Act, the
civil claim or cause of action was not barred by a
Federal or State statute of limitations.
(d) APPLICABILITY.—Subsection (a) shall apply to
any civil claim or cause of action that is—
(1) pending in any court on the date of enactment of this Act, including any civil claim or
cause of action that is pending on appeal or for
which the time to file an appeal has not expired;
or
(2) filed during the period beginning on the
date of enactment of this Act and ending on December 31, 2026.

Supp. App. 184
(e) EXCEPTION.—Subsection (a) shall not apply to
any civil claim or cause of action barred on the day before the date of enactment of this Act by a Federal or
State statute of limitations if—
(1) the claimant or a predecessor-in-interest
of the claimant had knowledge of the elements set
forth in subsection (a) on or after January 1, 1999;
and
(2) not less than 6 years have passed from
the date such claimant or predecessor-in-interest
acquired such knowledge and during which time
the civil claim or cause of action was not barred by
a Federal or State statute of limitations.
(f ) RULE OF CONSTRUCTION.—Nothing in this Act
shall be construed to create a civil claim or cause of
action under Federal or State law.
(g) SUNSET.—This Act shall cease to have effect
on January 1, 2027, except that this Act shall continue
to apply to any civil claim or cause of action described
in subsection (a) that is pending on January 1, 2027.
Any civil claim or cause of action commenced on or after that date to recover artwork or other property described in this Act shall be subject to any applicable
Federal or State statute of limitations or any other
Federal or State defense at law relating to the passage
of time.
Approved December 16, 2016.

